<html>
<title> - CONTRACTING FOR THE IRAQI SECURITY FORCES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-55]
 
               CONTRACTING FOR THE IRAQI SECURITY FORCES

                               __________

                                HEARING

                               BEFORE THE

               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             APRIL 25, 2007

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
                     U.S. GOVERNMENT PRINTING OFFICE
37-889 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
  


               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                 MARTY MEEHAN, Massachusetts, Chairman
JOHN SPRATT, South Carolina          W. TODD AKIN, Missouri
VIC SNYDER, Arkansas                 ROSCOE G. BARTLETT, Maryland
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
ELLEN O. TAUSCHER, California        JEFF MILLER, Florida
ROBERT ANDREWS, New Jersey           PHIL GINGREY, Georgia
SUSAN A. DAVIS, California           K. MICHAEL CONAWAY, Texas
JIM COOPER, Tennessee                GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania
                Greg Marchand, Professional Staff Member
                Thomas Hawley, Professional Staff Member
                Roger Zakheim, Professional Staff Member
                     Sasha Rogers, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Wednesday, April 25, 2007, Contracting for the Iraqi Security 
  Forces.........................................................     1

Appendix:

Wednesday, April 25, 2007........................................    65
                              ----------                              

                       WEDNESDAY, APRIL 25, 2007
               CONTRACTING FOR THE IRAQI SECURITY FORCES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Akin, Hon. W. Todd, a Representative from Missouri, Ranking 
  Member, Oversight and Investigations Subcommittee..............     3
Meehan, Hon. Marty, a Representative from Massachusetts, 
  Chairman, Oversight and Investigations Subcommittee............     1

                               WITNESSES

Avant, Dr. Deborah D., Professor, Political Science and 
  International Affairs, Director, Institute for Global and 
  International Studies, George Washington University............    45
Brooks, Doug, President, International Peace Operations 
  Association....................................................    48
Burke, Gerald F., Major, Massachusetts State Police (Ret.), 
  Former Senior Advisor, Iraqi Ministry of Interior and Iraqi 
  Police Service.................................................    51
Motsek, Gary J., Assistant Deputy Under Secretary of Defense, 
  Office of Program Support, Office of the Under Secretary of 
  Defense (Acquisition, Technology & Logistics), U.S. Department 
  of Defense.....................................................     8
Patterson, Ambassador Anne W., Assistant Secretary of State, 
  Bureau for International Narcotics and Law Enforcement Affairs, 
  U.S. Department of State.......................................     4
Raines, Col. Anita M., Chief, Logistics Services Division, J4 
  Directorate, Joint Staff, U.S. Department of Defense...........    10
Swartz, Bruce C., Deputy Assistant Attorney General, Criminal 
  Division, U.S. Department of Justice...........................     6

                                APPENDIX

Prepared Statements:

    Akin, Hon. W. Todd...........................................    71
    Avant, Dr. Deborah...........................................    98
    Brooks, Doug.................................................   113
    Burke, Gerald F..............................................   123
    Meehan, Hon. Marty...........................................    69
    Motsek, Gary J., joint with Col. Anita Raines................    94
    Patterson, Ambassador Anne W.................................    74
    Swartz, Bruce C..............................................    80

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Mr. Akin.....................................................   139
    Mr. Andrews..................................................   140
    Ms. Davis....................................................   140
    Dr. Gingrey..................................................   146
    Mr. Meehan...................................................   135
    Dr. Snyder...................................................   139
               CONTRACTING FOR THE IRAQI SECURITY FORCES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                 Oversight and Investigations Subcommittee,
                         Washington, DC, Wednesday, April 25, 2007.
    The subcommittee met, pursuant to call, at 9:04 a.m., in 
room 2212, Rayburn House Office Building, Hon. Marty Meehan 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MARTY MEEHAN, A REPRESENTATIVE FROM 
     MASSACHUSETTS, CHAIRMAN, OVERSIGHT AND INVESTIGATIONS 
                          SUBCOMMITTEE

    Mr. Meehan. Good morning, and welcome to our witnesses and 
guests. This is the sixth session and second open hearing of 
the Subcommittee on Oversight and Investigations on the topic 
of the development of the Iraqi Security Forces (ISF).
    In his address to the Nation on January 10th, the President 
announced his intention to accelerate the transition of 
security operations to the Iraqis. Reports from the theater 
regarding the readiness and performance of the Iraqi army have, 
however, been mixed, and news regarding the Iraqi police 
services has often been very discouraging. It is my intent to 
lead this subcommittee past the anecdotal evidence and to get 
to the bottom of what kind of progress we are really making.
    To that end, we have been pursuing this effort through a 
series of briefings, hearings, and requests for information 
over the past several months to examine specific aspects of the 
Iraqi security forces. We have looked at training, equipment, 
logistics and costs. We have talked to the leaders engaged in 
the effort and have tried to talk to the more junior personnel 
who work directly with the Iraqi Security Forces on a daily 
basis.
    Last week, you may know, our efforts to do that were 
blocked at the last minute by the Assistant Secretary of 
Defense for Legislative Affairs. Since we have Department of 
Defense (DOD) witnesses with us today, I would like our record 
to reflect the fact that we are unhappy about what happened 
last week and, furthermore, that no one from the senior levels 
of the department or the Joint Staff has called us to discuss 
the situation.
    I would also like to have it on our record that today this 
is not a settled issue, and I would not expect the Office of 
the Assistant Secretary of Defense for Legislative Affairs to 
stand in the way of this committee's constitutional 
responsibility to perform oversight, in pursuant to our 
congressional prerogatives and policies. And it is not the 
intention of this subcommittee to have the department dictate 
what our policies or what our procedures ought to be.
    With that said, today we turn our attention to the role of 
private contractors and the role that they have played in the 
mission to train, equip and sustain Iraqi Security Forces.
    There were almost 127,000 contractors for the Department of 
Defense alone in Iraq, as of the DOD's most recent count, in 
addition to the 145,000 troops. And I want to repeat that: 
There were almost 127,000 contractors for the Department of 
Defense--only the Department of Defense--in Iraq, as of the 
DOD's most recent count, in addition to 145,000 troops.
    We must leave aside for another day the broader issue of 
whether this is an appropriate way for the United States to 
fight its modern wars. Today, we will focus on the role that 
these contractors have played, with respect to the Iraqi 
Security Forces' mission.
    We will first receive testimony from a panel of the 
Department of Defense, Department of State, Department of 
Justice witnesses. The reason for the breadth of this panel is 
that the Iraqi security forces' mission does not involve only 
Iraqi military training. The Departments of State and Justice 
have played a major role in training Iraqi police, advising the 
Ministry of Interior, and other rule-of-law-oriented missions.
    We will look forward to hearing about how the roles and 
responsibilities for each agency in Iraq have evolved, as well 
as the procedures for accountability, management and oversight 
of contractors that have been put in place. In addition, we 
expect our Department of Defense witnesses will provide us with 
greater insight into the nuts and bolts of how contracting for 
a mission as broad and complex as this is being done and 
implemented.
    Our first panel of witnesses includes Assistant Secretary 
of State for International Narcotics and Law Enforcement 
Affairs, Ambassador Anne Patterson; Deputy Assistant Attorney 
General Bruce Swartz; Assistant Deputy Under Secretary of 
Defense Gary Motsek; the Colonel Anita Raines, who is the chief 
of the logistics services division of the Joint Staff.
    We also welcome a second panel of witnesses today, who we 
expect will provide both outside perspectives on the use of 
contractors for this kind of mission, and a real-life account 
of the contractor-led police development effort on the ground 
in Iraq.
    Our second panel includes: Dr. Deborah Avant, who is 
Director for Global and International Studies at the George 
Washington University Elliott School of International Affairs; 
Mr. Doug Brooks, the President of the International Peace 
Operations Association; and Gerald Burke, who is a retired 
Major in the Massachusetts State Police and former Senior 
Adviser to the Iraqi Ministry of Interior and Iraqi Police 
Services.
    To encourage discussion at today's hearing, I would like to 
follow the same less-formal procedures as we have in our 
previous briefings and hearings. I have talked with our 
distinguished ranking member, Mr. Akin, and he has agreed to 
dispense with the five-minute rule for today's hearing. And 
pursuant to Rule 11(b)(2) of the rules of our committee, the 
Subcommittee will dispense with the five-minute rule and allow 
questioning to proceed, as subcommittees express interest 
rather than strictly by seniority.
    I would like to also remind everyone that, while this is an 
open hearing, we have received closed briefings in which 
classified information was presented, so please be mindful of 
anything you might say based on what you heard in the closed 
briefing.
    Again, we welcome our witnesses. Thank you for being here. 
And we are looking forward to your remarks. And we will take 
your whole text for the record, but I would ask you to keep 
your prepared remarks fairly brief so that we can get to our 
questions.
    And now I would like to turn to my colleague, Mr. Akin, our 
ranking member, for any opening remarks that he might have.
    [The prepared statement of Mr. Meehan can be found in the 
Appendix on page 69.]

STATEMENT OF HON. W. TODD AKIN, A REPRESENTATIVE FROM MISSOURI, 
   RANKING MEMBER, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Mr. Akin. Thank you, Mr. Chairman.
    And thank you to our witnesses for taking time to join us.
    And I think today's hearing is starting to come toward the 
end of our hearing overall study of how things are going in 
training the Iraqi Security Forces, and particularly the focus 
today is on contractors and how the contractors help to fill 
this critical mission, particularly building the Iraqi Security 
Forces.
    Specifically, I am interested in how we use contractors for 
training the Iraq police services. And it seems to be that the 
police area is one that we need to pay some particular 
attention to and understand what is going on there, for no 
other reason, the police, as sort of a new idea, I suppose, to 
the Iraqis.
    The U.S. government's reliance on contracts raises a 
second, related issue that has come up indirectly a number of 
times over the course of our investigation. I am referring to 
the challenge of effective interagency participation in Iraq. 
Today's hearing should shed light on how agencies other than 
Department of Defense have and continue to contribute to the 
development of the ISF, in particular, and improving the 
overall situation in Iraq in general.
    Winning this war requires the application of all elements 
of national power; we must be able to tap into a wide-ranging 
expertise resident across the U.S. Government.
    It seems to me that both the State and Justice Departments 
rely on contractors to carry out missions that reside within 
their area of expertise, at least with respect to training 
local police. I would like our witnesses to comment on the 
rationale for this practice and the benefits and drawbacks of 
using contractors in Iraq.
    Finally, I want to comment on one specific contract matter. 
Use of contractors in theater is a complicated situation. When 
contractors are embedding in the U.S. police transition teams, 
as in the case of the international police liaison officers, an 
already complicated matter turns into a matter of concern. I am 
curious about the guidance we give these contractors with 
respect to command and control, personal security, and 
logistical support.
    I look forward to the witnesses elaborating on some of 
these points. And, once again, thank you all for joining us.
    And thank you, Mr. Chairman.
    [The prepared statement of Mr. Akin can be found in the 
Appendix on page 71.]
    Mr. Meehan. Thank you, Mr. Akin.
    And I will start with our panel.

STATEMENT OF AMBASSADOR ANNE W. PATTERSON, ASSISTANT SECRETARY 
     OF STATE, BUREAU FOR INTERNATIONAL NARCOTICS AND LAW 
         ENFORCEMENT AFFAIRS, U.S. DEPARTMENT OF STATE

    Ambassador Patterson. Thank you, Mr. Chairman, 
Representative Akin, and other distinguished members of the 
committee.
    The Department of State's Bureau of International Narcotics 
and Law Enforcement Affairs, or INL, is a proud participant in 
our nation's effort to help make Iraq a more stable country, by 
developing civilian security forces that serve the people of 
Iraq. In response to the President's directive that U.S. 
Central Command (CENTCOM) lead the development of Iraqi 
Security Forces, INL strives to help the U.S. military's 
commanding generals in the field and our fighting men and women 
on the ground by providing personnel and contract support for 
this mission.
    Creating such a force in Iraq is a challenging task, and 
the tragic deaths of 17 American police advisers and many other 
security personnel are testament to the difficulties and risks 
we face. To date, CENTCOM's Civilian Police Assistance Training 
Team, or CPATT, has exceeded all its basic training goals, with 
the assistance of the Departments of State, Justice and other 
agencies, and international partners, but enormous challenges 
remain, as the coalition and the government of Iraq continue to 
develop the skills, integrity and credibility of these forces.
    As demonstrated in other post-conflict police development 
missions in the Balkans and elsewhere, this will be a very 
lengthy process. INL has conducted post-conflict civilian 
police and criminal justice missions since the early 1990's, 
but Iraq marks the first time since 1994 in Haiti that we have 
participated in such an effort led by the Department of 
Defense.
    As expected, there have been challenges, but these have 
largely been resolved, as the relevant civilian organizations 
understand that DOD, through CPATT in the lead, and the 
military have come to appreciate the expertise our law 
enforcement professionals offer.
    Since taking charge of the police mission in 2004, the 
Department of Defense has transferred $1.5 billion to INL to 
provide a range of support, including operation and maintenance 
of the Jordan International Police Training Center, with 
interagency and contract help: 690 international police liaison 
officers, for which we have contracted with DynCorp 
International; 192 international police trainers, provided by 
the Department of Justice and their contractor, through an 
interagency agreement with INL; 143 border enforcement 
advisers, 20 of which are provide by the Department of Justice 
and their contractor through an interagency agreement, and 123 
of which are provided through a task order with DynCorp.
    In addition, INL provides body armor, housing, construction 
of forward operating bases and camps, meals, transportation, 
security, communication, and medical support to our civilian 
police personnel through a contract with DynCorp. For 
specialized training and advisory services to Iraqi civil 
security forces, we utilize several interagency agreements with 
U.S. law enforcement agencies, such as the Federal Bureau of 
Investigation (FBI), Drug Enforcement Agency (DEA), Alcohol, 
Tobacco, & Firearms Bureau (ATF), and the U.S. Marshals.
    I might also note that even the most effective police will 
not be successful if the rest of the criminal justice system is 
broken. We are therefore providing substantial support to the 
criminal justice sector in concert with our interagency 
partners and contractors.
    Today, it also my pleasure to review the steps INL has 
taken to improve contract management and oversight. CPATT and 
the military continue to set the overall requirements for the 
mission and exercise operational control over the police 
advisers and trainers that INL supplies. However, we are 
responsible for managing and overseeing our contracts with 
service providers and for monitoring our agreements with 
interagency partners.
    We have cooperated closely with the various inspectors 
general and have undertaken our own assessments, asset 
verifications, and audits to identify problems in management 
contract oversight. Numerous remedial measures to have already 
been taken, and we are constantly exploring ways to be more 
effective.
    In the past, the mission in Iraq has often outstripped our 
staffing and oversight capabilities, both domestically and in 
the field. Recognizing this, we added 64 permanent positions, 
recently obtained approval from Embassy Baghdad to increase 
INL's permanent staffing from 4 to 20 people--4 are from a 
contract officer representatives--and created an entire 
contract support division for programs in Iraq, Jordan and 
Afghanistan, which consist of 15 employees. We are also 
expanding our Washington-based Iraq program staff.
    We continue to strengthen internal controls, as well, in 
areas such as inventory oversight and performance reporting on 
property management. Statements of work are now more detailed 
provide contractors with specific requirements and performance 
standards.
    INL is improving our invoice files and significantly is 
actively reconciling all past payments made since the inception 
of our contracts in Iraq and Jordan, as well as Afghanistan. 
This is an intensive process, which includes the review of an 
estimated 2 million pages of supporting documentation, covering 
roughly $2.5 billion in contracts, that will require 
approximately 10 full-time staff members an estimated three 
years to complete, but I assure you we will recover any 
payments inconsistent with contract terms and conditions.
    The Department of State and INL are committed to promoting 
competition and have recently competed or are in the process of 
competing several of our Iraq contracts and task orders. We 
recently began the process of competing the task order for most 
of the personnel and related support INL provides in Iraq.
    Contractors are critical to implementing programs in Iraq 
and other crisis zones, but we recognize it is our duty to 
ensure that contracts are carefully monitored, as American 
lives and tax dollars are at stake. We have made significant 
progress in recent months, but this effort will require 
constant vigilance.
    Thank you.
    [The prepared statement of Ambassador Patterson can be 
found in the Appendix on page 74.]
    Mr. Meehan. Thank you very much.
    Mr. Swartz.

    STATEMENT OF BRUCE C. SWARTZ, DEPUTY ASSISTANT ATTORNEY 
     GENERAL, CRIMINAL DIVISION, U.S. DEPARTMENT OF JUSTICE

    Mr. Swartz. Mr. Chairman, Mr. Akin, members of the 
committee, thank you for this opportunity to discuss the role 
of the Department of Justice in this development and training 
of the Iraqi Security Forces.
    Submitting my full statement for the record, I would like 
to briefly focus this morning in my opening statement on three 
topics: first, the mission of the Department of Justice's 
police training office, the Office of International Criminal 
Investigative Training Assistance Program; second, how we have 
fulfilled that mission in what is called ICITAP in Iraq; and, 
third, what other roles the Department of Justice has played in 
Iraq in an attempt to build a rule of law system within that 
country.
    During first to ICITAP, the Department of Justice's police 
training office, ICITAP was created in 1986. And it has as its 
mission the goal of advancing U.S. government's criminal 
justice, national security, and foreign policy objectives, by 
attempting to create foreign law enforcement counterparts and 
institutions that respect democratic values, respect human 
rights, and have the capacity to fight terrorism and 
transnational crime.
    We have programs now in 48 different countries around the 
world, countries ranging from emerging democracies, such as in 
the Balkans, to frontline states in the fight against 
terrorism, such as Pakistan and Indonesia, and in countries 
such as Iraq, that are post-conflict states.
    In all of these countries, ICITAP seeks to develop the 
police in the context of all of the pillars of the justice 
system, that is police, corrections, and justice prosecutorial 
elements of the justice system. So whenever possible, ICITAP 
works collaboratively with its sister organization in the 
Department of Justice, known as OPDAT, another unwieldy 
acronym, but it deals with prosecutorial training and with 
other Federal law enforcement agencies in the Department of 
Justice, including the FBI, the Marshals service, the ATF, and 
other agencies.
    I should note, as well, that virtually all of ICITAP's 
funding comes from programs specific funding provided by other 
entities of the United States government, primarily the 
Department of State and the International Narcotics and Law 
Enforcement Bureau, headed by Ambassador Patterson, U.S. Agency 
for International Development (USAID), and recently the 
Millennium Challenge Corporation.
    In addition, while ICITAP does and whenever possible does 
send overseas senior law enforcement advisers to be resident in 
our missions or embassies overseas--we have 18 such personnel 
now--we also make use, particularly in larger missions such as 
Iraq, of the services of the contractor, MPRI, to provide both 
logistics support and, in the case of larger missions, police 
trainers or others that are necessary to provide the services 
that we have been asked to undertake by other elements of the 
United States government.
    Turning now to the mission in Iraq, the United States 
Department of Justice has been involved, in terms of police 
training, police development, from the very start in Iraq.
    Shortly after the fall of Baghdad, in May 2003, the 
Department of Justice criminal division deployed, with funding 
from INL, a select team of 25 senior Federal law enforcement 
officials to assess the state of the justice system in Iraq. 
And the result of that assessment team was a comprehensive set 
of three reports regarding the police services, the corrections 
services, and the justice element of the country of Iraq.
    The ICITAP portion, the police training portion of that 
mission, stayed on and was critical in helping to stand up, 
from the start, the Iraq police services, the border agency, 
and the corrections services. And from that day until the 
current time, ICITAP has been in the country of Iraq for the 
Department of Justice, working in three critical areas: police 
strategy, in terms of development and training; corrections, 
where, too, we have helped establish the strategy for the 
corrections services and implement it; and, finally, anti-
corruption, where the Department of Justice, through ICITAP, 
has been extremely active in the Commission for Public 
Integrity.
    Our current staffing is four authorized slots for senior, 
full-time employees, Federal senior law enforcement agencies, 
and a number of contractor positions for each of these 
missions. And in each of these areas, corrections, police, 
anti-corruption, we have helped create and develop strategies; 
we have helped formulate training curriculum, and provide that 
training curriculum; helped established and lead academies; and 
have participated under the direction of CPATT, in particular, 
in the training of tens of thousands of Iraqi police and 
correctional officers.
    I would be remiss, however, if I did not, in my third 
topic, point out that ICITAP's efforts, dramatic as they have 
been and, we believe, as dedicated as they have been, are only 
part of the efforts undertaken by the Department of Justice, 
with regard to Iraq and the rule of law in Iraq.
    There are a number of Federal law enforcement agencies from 
the Department of Justice that have been involved, again, from 
the start in police training and police-related activities in 
Iraq. Among those are OPDAT, as mentioned, our overseas 
prosecutorial development office, which has deployed a number 
of assistant United States attorneys or other Federal 
prosecutors to serve both in the embassy in Baghdad, as rule of 
law advisers, and on the provincial reconstruction teams.
    Those advisers have helped mentor and train investigative 
judges and trial judges, have provided advice on both the 
structure and the implementation of the prosecutorial service, 
and have been instrumental throughout in building up the 
counterpart to the police and correctional aspects of our work 
there.
    In addition, the United States Marshals service, again, 
oftentimes with funding from State and INL, has provided 
invaluable training, with regard to judicial security, witness 
security, and related court personnel security matters, and is 
now engaged in helping to establish a similar marshals service 
in Iraq itself.
    The ATF, our alcohol, tobacco, firearms and explosives 
agency, has been involved in training, with regard to 
explosives and counter-explosives, from the start. They have 
also deployed a number of agents in an operational mode, in 
that regard.
    The FBI has been deeply involved in training, both in 
connection with the work of CPATT, and has also deployed agents 
throughout the country on a rotating basis through its Legat's 
office, the legal attache's office, and as well with regard to 
the Baghdad operations center. So, both with regard to training 
and operations, they, too, have been present.
    DEA has trained under the CPATT direction with regard to 
intelligence activities. We, as well, have had a number of 
prosecutors and agents working with the regime crimes liaison 
office, to deal with the crimes of the Saddam Hussein era.
    And, finally, with regard to the Major Crimes Task Force, 
which was established by the Department of Justice, again, with 
assistance in terms of funding, the FBI, DEA, ATF and Marshals 
service have created a task force to work with the Iraqis to 
deal with the most serious crimes facing Iraq at this time--
kidnapping, murder, and related activities--in order to build a 
core competency to deal with this time of crime.
    In sum, then, the Department of Justice has been deeply 
involved from the beginning to the present day with regard to 
rule of law in Iraq. And, in closing, I would simply like to 
pay tribute to the courage, the dedication, and the 
professionalism of the Department of Justice men and women who 
have served in Iraq throughout this period.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Swartz can be found in the 
Appendix on page 80.]
    Mr. Meehan. Thank you, Mr. Swartz.
    Mr. Motsek, if you could go. And before you do, we were 
just talking. Of the 127,000 contractors, DOD contractors, if 
you know how many of them are American citizens----
    Mr. Motsek. Seventeen percent, sir.
    Mr. Meehan. Seventeen percent?
    Mr. Motsek. Seventeen percent. We will have newer numbers 
in May.

 STATEMENT OF GARY J. MOTSEK, ASSISTANT DEPUTY UNDER SECRETARY 
  OF DEFENSE, OFFICE OF PROGRAM SUPPORT, OFFICE OF THE UNDER 
  SECRETARY OF DEFENSE (ACQUISITION, TECHNOLOGY & LOGISTICS), 
                   U.S. DEPARTMENT OF DEFENSE

    Mr. Motsek. Mr. Chairman, Congressman Akin, members of the 
committee, I am Gary Motsek, and I am the recently appointed 
Assistant Deputy Undersecretary of Defense for Program Support, 
within the Office of the Undersecretary of Defense for 
Acquisition, Technology and Logistics. Prior to this position, 
I was within the Army Materiel Command as their deputy G-3 for 
support operations and earlier their deputy chief of staff for 
ammunition.
    I would like to note that I appreciate the fact that 
Congress has chosen Congressman Snyder to personally supervise 
me in both my present and prior assignments. You have been 
there every time, sir. Good to see you again.
    I have a vested interest in this hearing, as my son, Chris, 
who is an explosive ordnance disposal officer, has been 
deployed both to Afghanistan and Iraq in support of our ongoing 
operations. I want to thank you for this opportunity to appear 
before you today and to participate in today's discussion.
    I intend to concentrate on DOD's support to the multi-
agency effort in the acquisition, management, oversight of the 
security forces, their training, and how that fits into the 
larger, theater-wide management and accountability of 
contractor personnel. I would like to thank the committee for 
your support and all you do to help us in our mission. It is a 
team effort, including our military, civilian, coalition, 
agency, industry partners. None of us could get the job done 
without the others, and I continue to be impressed by the 
cooperation among the partners.
    Our acquisition DOD team continues to provide our 
warfighter with the support they need, consistent with 
responsible management and stewardship, effective acquisition 
planning, timely contract execution, and responsible oversight 
that provided our warfighters and the team the contract support 
needed to accomplish their mission.
    We recognize that our contracting processes have been and 
are still being performed under very trying circumstances, 
particularly within Iraq. This is a dynamic environment, and we 
are constantly changing and applying lessons learned.
    We normally don't think of our contracting officers as 
being vulnerable, but they accept the same risk of the forces 
that they support, and some have paid the ultimate price. They 
also serve in harm's way, whether it be traveling on dangerous 
roads to inspect construction sites, negotiating with 
contractors and paying them for their work accomplished, or, 
frankly, consoling Iraqi family members who have lost one of 
their members while supporting us.
    The support we will discuss today is part of the overall 
effort, which also includes base operations, maintenance, 
transportation and security. It is a huge effort and has 
interests for both houses, including your parent committee. I 
look forward to your suggestions on how we can improve our 
contracting oversight and ensure that we are good stewards of 
the nation's resources, and that the security forces are well-
equipped and trained so that the nation, the Iraqi nation can 
assume full responsibility for their own security needs.
    I appreciate the fact that the committee's staff has been 
very understanding in recognizing that operations in theater, 
including the recent impending changes of command of, keep 
mission critical theater personnel from appearing before the 
committee at this time.
    What Colonel Raines and I cannot answer today will be taken 
for the record, and we promise to respond promptly back to the 
committee.
    In closing, I thank you for your interest in our efforts, 
and we are ready to answer any questions you might have.
    [The joint prepared statement of Mr. Motsek and Colonel 
Raines can be found in the Appendix on page 94.]
    Mr. Akin. Colonel Raines, if you want to proceed, or are 
you allowed to? Or is there a problem, or where are we in that?

 STATEMENT OF COL. ANITA M. RAINES, CHIEF, LOGISTICS SERVICES 
   DIVISION, J4 DIRECTORATE, JOINT STAFF, U.S. DEPARTMENT OF 
                            DEFENSE

    Colonel Raines. Good morning, sir.
    Chairman Meehan, Congressman Akin, and members of the 
committee, thank you for the opportunity to appear before you 
today to discuss contracting issues related to the Iraqi and 
Afghan security forces. To put my testimony into context, I am 
speaking to you today as the chief of the logistics services 
division within the J4 logistics directorate of the Joint 
Staff.
    As a career multifunctional logistician, I have served as 
the division chief for six months and have supervisory 
responsibility for the division's primary functions, which 
include mortuary affairs, base camp services, and contracting. 
We serve as the combatant command's advocate and integrator for 
these joint functions within the Joint Staff.
    Mr. Chairman and members of the committee, thank you for 
your continued support, and I am happy to address your 
questions.
    [The joint prepared statement of Colonel Raines and Mr. 
Motsek can be found in the Appendix on page 94.]
    Mr. Akin [presiding]. The chairman stepped out for just a 
minute, so I get to enjoy for a moment a chance to ask a 
question or two.
    And I guess I had quite a few, but, Mr. Swartz, maybe I 
would start where you are. And I would like to just make 
something that is an intuitive kind of thing that I have been 
seeing, as we have been having hearings, and also my trip to 
Iraq several times. And tell me if you think that at least I am 
on to something, and how does that relate to your area of 
expertise.
    It is my sense is that our warfighters have been reasonably 
well-organized, done a pretty good job, but when it comes to 
the non-military pieces that we have to do to build a 
civilization, particularly things like wire transfers of money 
and banking, creating an entire judicial system, it is not just 
a matter of police, which they don't really understand the 
technology of police anyway, but aside from that, a judicial 
system, some kind of system of law and a place to put the bad 
guys and lock them up, that entire system, my sense is that we 
can tell a general to go somewhere and go fight a way, but we 
don't tell the Department of Justice to take a battalion over 
and set up a judicial system. We don't say to Commerce, you 
know, ``Go set up a banking system,'' or whatever it is.
    So I guess my question is, is that true, that we are not as 
well-equipped to do the non-military functions? And you said 
that--you made what sounded like a great statement, all the 
stuff that Justice has done and everything, but there is one 
thing you said. You said we had four full-time employees--that 
seemed like maybe you needed a little more than that to set up 
a justice system in Iraq, if that is what I heard you saying.
    So if you would comment on that. And I can cheat with this 
question a little bit and say that relates, also, to the 
development of the police services, but that is my overall 
concern. Are we really equipped and organizationally set up to 
do things other than just military? And I hate to use the word 
nation-building, but anybody has a free shot at that. I have a 
couple of minutes.
    But you, Mr. Swartz, could proceed, if you would, sir.
    Mr. Swartz. Thank you, Mr. Akin. And I am sure that my 
colleagues will want to add on this.
    The question you asked is certainly a complex one. The 
United States has had extensive experience over the years in 
working on justice systems, particularly in post-conflict 
countries, in Haiti, in the Balkans, now in Iraq. And as you 
suggest, it is a difficult long-term process. It cannot be 
accomplished overnight. It does have, again, as you suggest, a 
number of different facets, not simply building up the police, 
but building up the police in conjunction with a prosecutorial 
service, with an effective system of judges, with an effective 
correctional system.
    We have developed, I believe, over the years, the capacity 
to lead such efforts, in terms of the number of personnel that 
we have and the kind of expertise that we can bring to bear 
with our colleagues from the State Department and the 
Department of Defense. In terms of the bulk numbers, though, if 
you were sneaking, as you suggest, a number of trainers, for 
instance, the reserve capacity, it is the case that I do not 
have quite the command and control authority that my colleagues 
at the Department of Defense may have, in order to order 
battalions, if I had a battalion, to do that kind of work.
    So we, as a government, the United States has relied for 
these large-scale operations on contractors for the day-to-day 
police training work. But, again, in conjunction with 
supervision by the experts, oftentimes at the Department of 
Justice, whenever possible, we have sought to provide that 
expertise.
    So when I spoke of four senior Federal officers authorized 
for Iraq, that is true. That is just the top level, with regard 
to police training. And they are working with their colleagues 
in CPATT, of course, who are also providing supervision, as 
well as our reach back here to the Department of Justice 
experts in ICITAP and related agencies.
    And, as well, that does not encompass, as I suggested, the 
full range of Department of Justice personnel on the ground in 
Iraq. Those are the four dealing with police, corrections, but 
they are working in conjunction with all of the personnel we 
have there for prosecutorial work and for the investigative 
work that is being done.
    Mr. Akin. Just for my information, how many people would 
Department of Justice have in Iraq? How many do you have at a 
given time?
    Mr. Swartz. I can get you for the record----
    [The information referred to can be found in the Appendix 
beginning on page 139.]
    Mr. Akin. Are we talking dozens, hundreds, thousands?
    Mr. Swartz. Well, we have, in terms of between our police 
and----
    Mr. Akin. I am not talking about contractors----
    Mr. Swartz. Right, I am talking about--yes, I would guess 
that, between police and prosecutorial, there are approximately 
10 to 12 at a given time. If you begin to add in the FBI, which 
are also involved in this, and the other Federal agencies, and 
our various offices involved, I think we are getting up more in 
the range probably of 40 to 50. I will do the math while my 
colleagues address this, but we do have----
    Mr. Akin. It is still a relatively small number, though. So 
you are counting a lot on contractors to help do what has to be 
done over there?
    Mr. Swartz. In terms of the implementing the day-to-day 
training, that is correct. That is an essential element of what 
we do.
    Mr. Akin. Anybody else want to take a quick shot at that 
before my nickel runs out here?
    Ambassador Patterson. Mr. Akin, let me just say that this 
issue has provoked a lot of soul-searching on the part of the 
Administration, and there is a special office that has been set 
up in the State Department led by Ambassador John Herbst. And 
he has the full support of Secretary Rice. And you might want 
to ask him for a briefing directly, but he has about 30 people 
working for him.
    And he designing, basically, a civilian reserve corps. And 
he has reached out to a number of other agencies and his 
colleagues within the State Department to plan. And the idea of 
this would be that it could deploy quickly in emergency 
situations, that security on the ground get basic economic 
services restored. And, again, I think it might be interesting 
to hear from him directly. But this, as you say, is a real 
issue.
    Mr. Akin. So you are agreeing with me that it is an issue, 
but you are also saying that we are trying to address that----
    Ambassador Patterson. Yes, sir.
    Mr. Akin. And, I guess, my question is, I assume we have 
run into this in other nations where we have been, but we don't 
always learn by our mistakes, either. So my question is, do we 
have something ready to go so that we end up getting into some 
conflict and we have to do some rebuilding, do we have teams 
that can go in? So you are saying he is the guy to talk to?
    Ambassador Patterson. Sir, I have been in the foreign 
service for almost 34 years, and I have never seen anything on 
this scale. For instance, in Haiti, in 1994, it was a much 
easier situation. We confronted many of the same problems you 
are seeing in Iraq today, but the scale was simply a lot less, 
so it was easier to take them out of the civilian agencies and 
deploy them more rapidly. And, frankly, the sums involved were 
a lot less, as well.
    Mr. Swartz. And, Mr. Akin, if I may return to that topic, 
as I think we demonstrated in Iraq with the support of our 
other agencies, particularly State Department, the criminal 
division of the Department of Justice and the other law 
enforcement entities in the Department of Justice can deploy 
almost immediately a rapid force to assess the situation and to 
put in place the structure that needs to be put in place for 
whatever--work is done.
    And if I may supplement my answer, just doing the math----
    Mr. Akin. But for all of your assurances, there really 
isn't a court system in Iraq now, is there?
    Mr. Swartz. Well, I cannot say that we have successfully 
completed that process, but I think we have certainly--we have 
made strides, in terms of the judges we have worked with. And I 
think that the number of investigative judges who have shown a 
great deal of courage throughout this process and worked very 
closely with our Federal prosecutors over there.
    And if I may just supplement my answer, it looks--just my 
quick calculation--we have approximately 75 to 100 personnel, 
with regard to training and operations, and that is not 
counting the approximately 120 we have the regime crimes 
liaison office.
    Mr. Akin. Not a word from Fort Belvoir here or anything? I 
am a survivor of Fort Belvoir.
    Mr. Motsek. I survived Fort Belvoir. In fact, they moved my 
old headquarters.
    So you bring up--the question you asked from the Department 
of Defense is in the larger context, which is, we made a 
conscious decision in the early 1990's to size the force at a 
particular size, and then we decided to focus our forces on the 
pointy end of the spear, if you will. And so we took the risk 
in the back end.
    So we knew consciously that we were going to have to rely 
on a package that was not organic to us, that was going to be 
contracted. That was a conscious decision. What Ambassador 
Patterson said, though, was absolutely correct. The order of 
magnitude of this effort dwarfs anything we have done in the 
past.
    Just for a quick buzz, we constantly talk about the LOGCAP 
contract, the multibillion-dollar contract that we use for 
general support inside the area of responsibility (AOR). That 
is multibillion dollars today. If you added up all the previous 
LOGCAP contracts, summed them for all the previous 
contingencies that we had, you would be somewhere in a little 
bit of excess of $600 million. So that gives you a sizing issue 
that we have been faced with.
    And so the discussion might be appropriate as to, did we do 
the right thing? Do we need to re-look consciously where the 
chop lines need to be on the variety of functions? And I am 
sure that the other agencies in government have a similar 
function. It is exacerbated at DOD simply because of our size.
    Mr. Akin. The scale of what you are dealing with.
    Mr. Motsek. Yes, sir.
    Mr. Akin. Mr. Chairman, I have strayed a little bit, I 
confess, from the strictly police and all, but it does connect 
to the contracting. Thanks so much.
    Mr. Meehan [presiding]. Thank you very much, Mr. Akin.
    My question is primarily for Ambassador Patterson, but I 
would like the other panelists to comment. What is the current 
status of the contracts overseen by the INL, the Bureau of 
International Narcotics and Law Enforcement Affairs, and 
ICITAP, the International Criminal Investigative Training 
Assistance Program, with respect to the international police 
trainers and international police liaison offices that are 
providing training to the Iraqi police? What is the status of 
those contracts?
    Ambassador Patterson. Well, the status of INL's portion 
with DynCorp, the contract--we went out to our three main 
contractors with a statement of objectives last week. We are in 
the process of re-bidding this contract, and we hope we will be 
finished by the 19th of July.
    Mr. Meehan. We have heard varying reports regarding the 
quality of police trainers being provided for police liaison 
officers. How do you respond to our reference that they tend to 
lack the management and training experience that would truly 
make them useful for the mission that they were tasked with?
    Ambassador Patterson. Mr. Chairman, let me describe for a 
minute our recruitment process. Our contractor, DynCorp, goes 
out to police organizations and recruits people with at least 
five years experience. They can't have been retired from a 
police office for over nine years, so they have recent 
experience. They are given psychological tests. They are given 
criminal background tests. They are given a reference review. 
And then they are put into two weeks of INL training and a week 
of DOD training.
    We have a 23 percent washout rate, which suggests to me 
that we are fairly rigorous in our review of this. And then 
they are deployed to Iraq. And I have met many of these people. 
Seventeen have died in the line of duty. Today we had an 
incident where we got a report just as we were coming up, where 
one of the International Police Liaisons (IPLOs) has lost two 
legs in an Improvised Explosive Device (IED) attack. So these 
fellows are engaged in very dangerous activities.
    And they are constantly evaluated through the process. They 
are evaluated by the contractor. They are evaluated by INL 
personnel on the ground. And, of course, in any organization, 
you have bad performers, and mediocre performers, and good 
performers, but we are confident we are getting quality 
personnel.
    Mr. Meehan. And all organizations have people that either 
don't act properly or turn out not to be qualified. What 
procedures are in place to see to it that such a person is 
removed and replaced with qualified personnel?
    Ambassador Patterson. Well, we have issued a directive to 
the contractor. First, if you are removed from cause--again, we 
have the 23 percent washout rate just in the process of the 
hiring. But if you are removed from service--and I see these 
reports every week, and I know that some are removed from 
service every week--you cannot be hired again, or at least that 
is our directive to the contractor, by the same contractor. You 
cannot be hired again on another INL program, and we try and 
keep track of that.
    Mr. Meehan. Mr. Bartlett.
    Mr. Bartlett. I am not in the queue. I came late.
    Mr. Meehan. Okay.
    Mr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman.
    I guess I am in the queue. That is appropriate today. We 
have a barrister, and you are listed as a career minister, Ms. 
Patterson. I feel like saying, ``Here, here. Here, here.''
    Also, Secretary Patterson, I want to acknowledge your birth 
state of Arkansas. We have Arkansas day here, and we appreciate 
you.
    I find this kind of snapshot of things just overwhelming, 
just overwhelming. I mean, all four of you are obviously very 
capable career people that care deeply about your country, 
working hard at doing this stuff. My guess is, if anybody was 
looking at this stuff, they would say, ``We have the right 
people in these positions doing it.''
    But none of us can be satisfied with where we are at today, 
compared to where we thought we were going to be four years 
ago. You know, regardless of how we all voted on--and we have a 
split of opinion, and it is the parties here. I mean, we have 
different views of the decision the President made, but he made 
the decision. We need to do what we can to make it work.
    But we can't be satisfied with where we are at, and I know 
you are not satisfied, either. So then the--not the 
frustration--challenge for Mr. Akin, and Mr. Meehan, this 
committee, and the Congress, American people, is how we can we 
be of help? I mean, how can we help sort this stuff out, not in 
a combative relationship?
    That is what was so discouraging about this memo a few days 
ago, is this committee is not trying to be in a combat with the 
Secretary of Defense's office. But we are trying to figure out 
ways that we can help, because no one is satisfied with how it 
is going.
    So part of, it seems to me, what we try to do is to look 
at, well, do we have the right people? Do we have the right 
congressional oversight? Do you have the tools--or the 
financing? Do you have the right tools that you need to help 
you deal with wayward contractors, when someone goes awry, I 
mean, all those kind of things?
    Because, obviously, we don't know how to do your work. We 
don't know how to do it. And it is a frustrating thing.
    I wanted to ask a series of questions in that vein. 
Secretary Patterson, what languages, foreign languages, do you 
speak?
    Ambassador Patterson. I speak decent Spanish and have had a 
year of Arabic, which I don't remember very well.
    Dr. Snyder. And Arkansan?
    Ambassador Patterson. Yes. [Laughter.]
    Dr. Snyder. What has been your experience with regard to 
trying to fill these positions with contractors or State 
Department personnel with regard to language skills?
    Ambassador Patterson. I can speak to my INL office there. I 
believe we have one person there who speaks some Arabic. We 
have a 10-person office of 10 professionals that is going 
increasingly up to 20. It has been an enormous challenge, and I 
can't speak for the department as a whole. I know the Secretary 
has addressed this in her hearings, but language capability has 
been a huge challenge in all the deployments.
    Dr. Snyder. Now, as somebody who has been in the business 
since--I think 1973 is when your career started, and you have a 
very illustrious career, we are proud of you--when September 
11th occurred, the whole country was stymied by this whole 
issue of, how do we get language-skilled peoples that meet the 
security classification and everything?
    But we are now five years later from that. Why are we still 
stymied with regard to language skills in State Department 
personnel? Why has there not been a successful effort so that 
there would have been the kind of focus on--I assume that we 
think language skills are important to do these jobs--why are 
we still behind, this many years later from when the war 
started and when the war in Afghanistan started?
    Ambassador Patterson. Sir, I will take that question back 
to our management and get an answer for you, because I have 
heard the Secretary answer this in other oversight hearings. 
And, frankly, I don't want to wing it.
    [The information referred to can be found in the Appendix 
beginning on page 139.]
    Dr. Snyder. We like winging it.
    Ambassador Patterson. I must say that a lot of the Arabic 
speakers have done service in Iraq. And then it is not as if 
they are sitting in Paris. They have been to places like Yemen 
or Saudi Arabia, too, where we served, my husband and I served.
    So I think the system is just stressed, but I will take 
that question back and get an answer for you from the director 
general.
    Dr. Snyder. And then one final question, if I might, Mr. 
Chairman.
    Mr. Swartz, if Ms. Patterson has a U.S. contractor--and I 
have had some in my district that have served both DOD and 
State Department--and it turns out that an individual turns out 
to be a drug dealer, who, in the course of the drug dealing, 
has shot and killed a couple of Iraqi civilians, what is your 
ability--how is that person dealt with in the legal system? Who 
has the authority to prosecute that person? And how many people 
have we had those kinds of issues? Do we have people out there 
with those kinds of challenges that are not being dealt with by 
anyone's legal system?
    Mr. Swartz. Sir, I think that that is a question that I 
will also take back, but I can tell you that, thanks to the 
work of Congress, with regard to the Military Extraterritorial 
Jurisdiction Act, MEJA, we have certainly had expansive and 
expanded powers to deal with that type of issue, that is, to 
deal with criminal actions taken in certain circumstances for 
those accompanying military forces abroad.
    In terms of people out there, as Ambassador Patterson has 
suggested, we have, I think, all three entities here have moved 
quickly to deal with any questions of misconduct, in terms of 
leaving people in place. And I could give you further 
information, I believe, with regard to, in general terms, any 
ongoing criminal investigations, with the main focus on 
contractors.
    [The information referred to can be found in the Appendix 
beginning on page 139.]
    Dr. Snyder. Well, I want to be sure what part you are 
taking for the record and what part you are not. Who is going 
to prosecute the person I described?
    Mr. Swartz. Sir, it would depend. I would have to look at 
the facts of the particular case to see whether we can fit into 
one of our particular jurisdictional statutes within the 
Federal criminal justice system. The Department of Defense can 
address the capacity of the Iraqi government to deal with 
contractors or not, in terms of what is permitted.
    But in terms of our actions, of course, the criminal 
division, whenever possible, seeks to prosecute any criminal 
activity that is engaged in by contractors. And it would 
depend, again, on whether the jurisdictional prerequisites for 
our statutes were met in a particular instance.
    I would believe, again, in the hypothetical you have 
provided, that we would be able to find a basis of prosecution 
of such an individual, probably on several different 
jurisdictional bases.
    Dr. Snyder. Thank you, Mr. Chairman.
    Mr. Meehan. Thank you.
    Mr. Gingrey.
    Dr. Gingrey. Thank you, Mr. Chairman.
    And I think this probably would be for Colonel Raines or 
Mr. Motsek, in regard to the DOD's role. I wanted to ask you--
well, first of all, what steps is DOD taking to go back and 
ensure it has received appropriate value from the contractors 
in Iraq, for projects such as the highly problematic Baghdad 
college? If you could take that, I would appreciate it.
    Either one of you would be fine.
    Mr. Motsek. Let's put it in context first. Less than one 
percent of the contract vehicles that we have out there have we 
had a major problem with, where we have had a challenge where 
we have had to go into some very unpleasant ways of dealing 
with the issue. The particular construction project that you 
are referring to is still under litigation, as a matter of 
fact.
    It is under litigation to--excuse me, it is going to 
resolution of the contract, because there were changes in the 
scope of the contract midstream. I don't think anyone is proud 
of the production of that particular building, but I can't give 
you the final outcome of that, because we are still in the 
process of making the determinations of our recovery of 
dollars.
    It is important to note that we have had lots of numbers 
jump around about dollars that have been lost or dollars that 
have not been properly accounted for in contracts. But if you 
look at most of the investigations, that is pre-close-out of 
the contracts, and that is very important to understand.
    And we are improving with time. Make no mistake about it: 
When we started operations in theater, there was an attempt to 
try to manage this from the outside of the theater, to minimize 
the footprint of these people that had to be on the ground. And 
so we were doing things in a bit of a remote means.
    Over time, we have learned very, very quickly that we have 
to have boots on the ground to provide the proper oversight of 
these things. That is why we have the joint contracting command 
physically in place in Iraq today that manage much of what we 
are talking about. That is why we have strengthened the 
requirement to have contractor-officer representatives and 
technical representatives down there.
    The Department of Defense will not let you be a COR, 
contractor officer representative, right now unless you take 
the course, which is available through the Defense Acquisition 
University, to give you the skill sets so you can raise the 
flag when you think a contractor is either non-performing or 
has had some shortfalls.
    Those occur because of the needs that were shown in the 
theater. And so the particular construction process is a 
perfect example of why we had to do that.
    Dr. Gingrey. Well, who had that contract?
    Mr. Motsek. I believe, sir, that was the Corps of Engineers 
proper. Army Corps of Engineers was the lead agent for that 
particular contract.
    And, if I might, sir, because we are still undergoing this, 
I will take it for the record and give you the blow-by-blow 
description of where we are and when we think we will close 
that out.
    Dr. Gingrey. Well, Mr. Chairman, I want to continue this 
same line, if you will indulge me, but, you know, we have 
situations a lot of times where, in our congressional 
districts, we may have a company that has a contract with the 
military to do something, to produce something.
    I will give you an example. In my district, we have a 
manufacturer. The company is called TUG Technologies, and they 
manufacture these tractors and equipment that push the planes 
back so they can take off, and I saw the thing, and they pull 
the planes. I mean, they do this--you see them all the time 
when we are flying back and forth to our districts on the 
commercial airlines.
    But this is a military contract. And the contractor 
probably wasn't very smart in negotiating the contract and is 
really having a very difficult time now producing at the price 
that was contracted for a set price, which had very little, you 
know, change with inflation and that sort of thing.
    The military contractors are tough. I mean, they are making 
this vendor in my district toe the line, almost to the point of 
bankruptcy. I mean, maybe that is appropriate.
    But I tell you that, because I think what we are all 
concerned with here is that all of the--we have an $8 billion-
a-month burn rate in the AOR. And a lot of it is contractor 
money, and we have a lot of departments involved, Justice, 
State, Defense, and all these contracts flying around. And 
nonperformance or poor performance is not just dollars. It is 
lives.
    And so we do have some real concern. It would be very nice 
if you could reassure this oversight committee that somebody is 
connecting the dots on all of these people that are out there 
making--you know, pretty damn--darn good profit on these 
contracts that, you know, it is our money. It is our 
constituents' money.
    So anybody can take that question--put that in a form of a 
question--and respond to it.
    Mr. Motsek. I am the lead on that, primarily because it is 
us. As we sit here right now, based on the latest census, there 
are 1,986 major contracts operating within the----
    Dr. Gingrey. Nineteen hundred----
    Mr. Motsek [continuing]. One thousand nine hundred and 
eighty-six supporting the Iraqi AOR. So that gives you a scope 
of the number of contracts we are talking about today. And when 
you talk about contract actions, which are--you know, you do a 
variety of things on that--there are tens and thousands of 
those. So this is clearly big, big business, in that respect.
    What I can assure you and assure the committee, that we 
have taken our responsibilities of being effective stewards and 
supporting the force extraordinarily seriously. Again, I 
alluded to the fact that we have put boots on the ground, and 
our folks are in theater now doing this work. We have trained 
them to be contingency contractors versus accepting the normal 
contracting functions.
    There are ways that you can accelerate the process. There 
are ways that you can account for things differently, the 
contingency operation. There are waivers, but you have to be 
smart enough to exercise them, because it is not business as 
usual.
    All things being equal--and it goes back to your particular 
contractor--generally speaking, the best contract we write is a 
fixed price, best performance contract, all right? So the 
contractor is forced for a particular price, and then we have 
based it on best performance. So that may not be the cheapest 
tug that is available on the market, but it may be the most 
reliable tug. And if you base the cost differential, that 
becomes very, very important.
    So we take that very, very seriously. The challenge is, 
because we do that, it is a decentralized process, because you 
have hit the nail right on the head, sir. The guy on the ground 
is the one who knows what is going on. The contracting officer 
on the ground who is interfacing directly with the local 
commander is the one that can make the decisions and make the 
support more effective and efficient.
    It does not serve us well for me to sit in the Pentagon and 
try to make broad pronouncements about something as mundane as 
dining facilities, because they have impacts on the ground that 
are very, very real and very meaningful. So this is our 
challenge.
    And I gave the chairman the number of contractors out 
there. That is not an easy metric to come up with, because it 
is a decentralized process, and we have to pull those numbers 
together. Frankly, we don't care, from a contractual 
standpoint, the actual number of contractors we have on the 
ground. We care from a security, force protection issue, and 
our responsibilities to them to protect them and manage them.
    But from a contractor on a fixed-price concept, it itself 
does not matter. So you are absolutely right, sir. This has 
been an extraordinary challenge, but we have matured as we go 
along. You would see a different process, a different set of 
oversight today than you would have seen two or three years 
ago. We have taken it very seriously.
    I am unaware of a contractor, either a contractor let 
inside of Iraq or one that is let outside Iraq that supports 
Iraq, for example, the Stryker Brigade support contract, where 
contractors support the maintenance of those vehicles, where we 
have had mission failure because of a contractor failed to do 
that.
    We have had contracts that have failed to perform, again, 
less than one percent. We have had contractors who have failed 
to deliver product when they assured us they would deliver a 
product, again, one percent, less than one percent. But to my 
knowledge, that is a pretty impressive number, frankly, and we 
have not had mission failure, because--which I think is your 
biggest concern.
    But it is not just sitting there, waiting for this to 
happen. These people are aggressively managing these contracts. 
We did not have contractor technical representatives early on 
in most places, but now for something, again, as mundane as a 
dining facility, we have someone in there that makes the daily 
assessment of the cleanliness, the quality, the servicing, you 
know, the whole mundane nine yards of things that you would 
come to expect to be standards for our troops and our people 
that are being served there.
    And that has pushed up the tape. Early on, that was not a 
consideration. Get the dining facility in; get it serving; get 
on with it. And so we have taken that on as we go along.
    We are not at 100 percent. Don't let me, you know, paint a 
completely rosy picture. We have lessons learned going on every 
day. One of the things we have to do to get our hands on this 
is consolidate where we can, consolidate contracts, because we 
tend to just let contracts as a need arises and, as over time, 
it serves and it is in our interest to start consolidating 
these down to a more manageable level.
    And so we are in the process of doing that, as we speak, as 
well.
    Dr. Gingrey. Thank you, Mr. Chairman.
    Mr. Meehan. Mr. Andrews.
    Mr. Andrews. Thank you.
    I would like to thank the witnesses for their testimony 
this morning and each of you for your service to the country, 
as well. We greatly appreciate it.
    And particularly you, Mr. Motsek, please give your son our 
best wishes and our thanks for his service.
    Mr. Motsek used the phrase ``effective stewardship'' a few 
minutes ago. And, Ms. Patterson, I want to ask you about some 
concerns we have about effective stewardship at the Joint 
Police Training Academy in Jordan (JIPTC).
    Two months ago, the chairman led members of this 
subcommittee and others to a visit to Iraq, and Jordan, and 
Kuwait, Brussels. And one of the stops was at the police 
training academy in Jordan, which I will call the JIPTC for 
purposes of our discussion.
    In your testimony, you note that more than 54,000 Iraqi 
police recruits have been trained in the basic training at the 
JIPTC. When we visited the JIPTC, we were told--now, let me 
preface this by saying, I was very impressed by the quality of 
the work by the people running by the JIPTC. They were sincere, 
and they are very competent. They are very committed to their 
mission. And I have no doubt that they do a very good job 
training police recruits.
    My concern is the quality of the recruits coming in and 
what happens when they leave. We were essentially told that 
referrals to the JIPTC were done by the Iraqi government 
without a significant background check. Whomever they sent got 
trained. There is a biometric identification process when 
recruits arrive, but that process is not then matched against 
any database, we were told, so that we can determine who, in 
fact, is coming in the front door of the academy.
    Is that so? Do we know who was coming in the front door of 
the JIPTC?
    Ambassador Patterson. Let me first say, Congressman, that 
basically the role of the trainers and the officers at JIPTC is 
not to handle recruitment, nor is it to handle deployment after 
they return.
    But on the recruitment side, it is CPATT that handles 
recruitment, and I know they are working vigorously to improve 
the recruitment process and the vetting process. But the 
biometric thing that you saw there--and I have seen it myself--
is a feedback mechanism to develop databases----
    Mr. Andrews. If I may, who is responsible for the 
recruitment of people coming into the JIPTC?
    Ambassador Patterson. CPATT, the civilian police mission 
handles recruitment. Certainly in the early stages--I am not 
trying to duck your question.
    Mr. Andrews. Yes.
    Ambassador Patterson. Certainly in the early stages there 
was a problem with recruiting and with vetting. They have been 
running these names against existing Iraqi criminal databases, 
and one figure that sticks in my mind--and this is a better 
question for DOD than for ourselves--they have gotten rid of 
over 3,000 people, because they have found criminal records on 
these individuals.
    So this is an ongoing challenge. You bet, it is an ongoing 
challenge. But there has been some improvement----
    Mr. Andrews. Here is the specific question I am asking. 
When a recruit walked through the front door of the JIPTC a 
year ago, did we know, in fact, who that person was, or did we 
have to rely upon who they said they were?
    Ambassador Patterson. I don't know the answer to that.
    Mr. Andrews. Could you get the answer for us?
    Ambassador Patterson. We will ask CPATT to give you the 
answer.
    [The information referred to can be found in the Appendix 
beginning on page 140.]
    Mr. Andrews. Okay.
    Second is, when this biometric database was up and running, 
against what was it checked? So if we collect someone's 
biometric information, did we check it against a database that 
would have identified a Shiite militia fighter or an al Qaeda 
member? Did we or did we not?
    Mr. Motsek. Sir, we will have to take most of that for the 
record, but when you talk about those specific sub-elements, 
part of the databases that are referenced--and, again, you are 
only as good as your databases, as you are alluding to--are the 
field interviews and the field records that are prepared by the 
military side of the house. So that is included in the----
    Mr. Andrews. Let me ask you this specific question. If, in 
March of 2004, a suspected al Qaeda fighter is arrested and 
detained in Iraq, and he or she is then biometrically 
identified when they are held in Baghdad, and then they are 
released for whatever reason, and then they use a different 
name and enroll in the JIPTC, would we know that the person who 
enrolled in JIPTC was that suspected al Qaeda fighter?
    Ambassador Patterson. I think so.
    Mr. Andrews. You think so. How would we know that?
    Ambassador Patterson. We can't--because we have fingerprint 
checks. And we will get you more definition here, but there is 
a fingerprint check, and it does get checked against Iraqi 
databases. So I think that would be the case. We need to get--
--
    [The information referred to can be found in the Appendix 
beginning on page 140.]
    Mr. Andrews. That is not what we were told by the people 
running the JIPTC.
    Ambassador Patterson. Okay, well, we need to get you more 
precision----
    Mr. Andrews. What they told us 60 days ago was that a large 
majority of the people who came through the front door were not 
checked against any existing database. Could you clarify that 
difference for me?
    Ambassador Patterson. Absolutely. Absolutely.
    Mr. Andrews. All right, the second question I have is about 
cost. Our research indicates that, by the time the chairman led 
the CODEL to the JIPTC, that the American taxpayers had spent 
about $600 million, $150 million to construct the facility, 
$450 million in operating costs through the time that we were 
there. Is that accurate?
    Ambassador Patterson. Not quite, Congressman. My figure is 
$500 million.
    Mr. Andrews. So you think it is $500 million?
    Ambassador Patterson. Yes, and I can give you the figures 
with some precision.
    Mr. Andrews. So that is roughly $10,000 per recruit, right?
    Ambassador Patterson. Well, I can break it down for you. 
Yes, it has been very expensive.
    Mr. Andrews. Well, in your testimony you say it was about 
50,000 recruits; $500 million would be $10,000 a recruit for an 
eight-week course. So this would be the equivalent, on a year-
long course, of about $50,000 to $60,000 a year for a recruit?
    Ambassador Patterson. I suppose so.
    Mr. Andrews. So you know how--what did we spend to recruit 
and train police personnel in the rest of the world? Is it 
anywhere near $50,000 a year on an annualized basis?
    Ambassador Patterson. Oh, what do we train in other 
countries? No, but it is not cheap, either. I will get you 
those figures.
    Mr. Andrews. Do you know about what it is?
    Ambassador Patterson. In a place like Haiti, what do we 
train--I guess between $25,000 and $30,000.
    Mr. Andrews. But why does it cost twice as much to train 
people in Jordan for the JIPTC for Iraq? Why would it cost 
twice as much?
    Ambassador Patterson. Well, let me sort of walk through 
some of the costs--there. First, there was the construction 
costs, which was about $150 million.
    Mr. Andrews. Which accounts for less than 30 percent of the 
$500 million.
    Ambassador Patterson. And then we have our agreement with 
the government of Jordan, which reimburses them for fuel and 
utilities.
    Mr. Andrews. It costs more for utilities in Jordan than it 
does in Haiti?
    Ambassador Patterson. Well, I can't answer that, 
Congressman. But, yes, it is an expensive operation.
    But let me go back to why this camp was set up, this 
training center was set up. First of all, it was set up under 
Coalition Provisional Authority (CPA). And it was, frankly, a 
very urgent requirement to get a training center set up quickly 
that would train large numbers of Iraqi police. It started 
training in November of 2003.
    It switched over to basically a State Department contract 
in 2004. And we renegotiated the arrangement with the 
government of Jordan and I think have done a pretty good job of 
reducing those costs. But, yes, it is an expensive facility, 
but it is also been, I think, as you know, a very effective one 
in training----
    Mr. Andrews. Well, let's talk about its effectiveness. What 
database exists as to what the 54,000 graduates are doing 
today?
    Ambassador Patterson. None that I know of.
    Mr. Andrews. So we don't know where these 54,000 people 
are?
    Ambassador Patterson. Not with any degree of precision.
    Mr. Andrews. So we don't know how many are police officers, 
right? We don't know how many have gone and done something 
else. Do we know how many are fighting for the Shia or Sunni 
militia or for al Qaeda?
    Ambassador Patterson. Congressman, no, we don't. We don't 
know how many are still on the job, because we are not in a 
position to monitor that.
    Mr. Andrews. I must say, coming back to this point of 
effective stewardship, what we found exasperating on this trip 
was that the academy appears to be doing a very good job of 
training people how to detect an IED and how to prevent it from 
exploding and killing people, how to conduct a house-to-house 
search, how to identify ways that we might break the back of 
the resistance.
    Common sense tells me that some percentage of the 54,000 
people who went through this, who we don't know anything about, 
are, in fact, members of that resistance or members of those 
militia or members of al Qaeda who are learning the very 
techniques we are using to defend our people. I think this is 
outrageous.
    And I am interested in hearing from you, why don't we have 
a tracking device to find out where these 54,000 people are?
    Ambassador Patterson. Congressman, we will have to take 
that question and bring it back to CPATT. But let me emphasize 
that I know, on CPATT's behalf, that they are working very 
vigorously with the Ministry of Interior to develop such a 
tracking system, largely through the financial system.
    Mr. Andrews. Mr. Motsek, is the Department of Defense 
tracking through CPATT these trainees?
    Mr. Motsek. Sir, I have to take that for the record. I 
don't know the--I know about the biometrics, but I understand 
what your concern is.
    [The information referred to can be found in the Appendix 
beginning on page 140.]
    Mr. Andrews. Whose responsibility within the DOD is CPATT?
    Mr. Motsek. CPATT falls under MNSTC-I, which falls under 
Multinational Force Iraq, which is today General Petraeus.
    Mr. Andrews. But who in Washington is responsible for that?
    Mr. Motsek. Sir, I don't know.
    [The information referred to can be found in the Appendix 
beginning on page 140.]
    Mr. Andrews. Well, I would like to know that.
    Again, I am not an expert, Mr. Chairman, on this issue, but 
here is what I know: We have been told that we have spent $500 
million. We have been told that 54,000 people have gone through 
this program. We have been, on site by the people running the 
facility, that most of them did not have a background check, so 
we don't know who they were when they came in.
    And given the circumstances, it is probable that some of 
them were Sunni militia, Shiite militia, or al Qaeda fighters, 
who we then trained on how we are defending our people. They 
then left. And we hear this morning that we do not know whether 
there is--as a matter of fact, Ms. Patterson tells us the State 
Department doesn't have a database, Mr. Motsek tells us he 
doesn't know whether the DOD has a database as to where these 
people are.
    I would be astonished if it were not true that some 
percentage of these graduates are out there attacking our 
forces today, after we have spent $500 million on this.
    The final question I have for you is----
    Mr. Meehan. Mr. Andrews, just on that point, what was 
interesting about it was, it seemed, in the screening process, 
the only Iraqis who they screened out were Iraqis who had 
already been trained prior to--in other words, they had the 
fingerprints of somebody who had already gone through the 
training, who would come back to the facility to be trained 
again under a different name, however--for a refresher course--
under a different name. However, because of the system with the 
fingerprinting, we were able, it seems, to weed those people 
out, but I don't think there----
    Mr. Andrews. Well, if the chairman will recall, the other 
thing that we found very disconcerting is that we asked, who 
was expelled and on what basis? Because we were told by the 
leaders of the academy they do expel people. And the basis for 
expulsion for really misbehavior during the training course. So 
this means that, if an al Qaeda member was polite for eight 
weeks, they stayed, and they learned all of it.
    I mean, here is the final question I have for you. How many 
people are being trained at the JIPTC this morning?
    Ambassador Patterson. This morning?
    Mr. Andrews. Yes.
    Ambassador Patterson. I think we started our corrections 
program at 830.
    Mr. Andrews. Eight hundred and thirty people.
    Ambassador Patterson. Or in the process of arriving. This 
is a new course, Congressman, for corrections officials.
    Mr. Andrews. How many Iraqi police are being trained at the 
facility this morning?
    Ambassador Patterson. None.
    Mr. Andrews. None? So all the Iraqi police are now being 
trained somewhere else in Iraq?
    Ambassador Patterson. In Iraq.
    Mr. Andrews. This is after we spent $150 million on the 
facility, we are not training Iraqi police anymore? Why is 
that?
    Ambassador Patterson. Because they are being trained in 
Iraq. And the idea is that we don't want to continue paying the 
overhead on what you aptly described is a very expensive 
facility, if we have no reason to use it.
    Mr. Andrews. But how does it make sense, from a cost 
management perspective, to incur an entirely different set of 
overhead for new places in Iraq that I assume we are paying 
for, as well?
    Ambassador Patterson. We are not paying for them. That 
function has been largely turned over to the Iraqis.
    Mr. Andrews. The Iraqi government is paying for these 
training facilities?
    Ambassador Patterson. The Iraqi--yes, again, this is a 
question more appropriately addressed to CPATT, but the 
training function has been largely turned over the Iraqis.
    Mr. Andrews. Mr. Motsek, are we paying any of the overhead 
in those new facilities or are the Iraqis paying for all of it?
    Mr. Motsek. I will never say 100 percent for anything, but 
we will take it for the record. And we will get you the split, 
but the ambassador is correct that the intent was to turn over 
to the provincial and regional authorities the responsibilities 
for this training. And that is part of the continuum to go 
through it.
    I take your point, that your concerned also about the 
investment that is already been let in the earlier facility, 
and what the hell are we going to do about that? I mean----
    [The information referred to can be found in the Appendix 
beginning on page 140.]
    Mr. Andrews. We have $150 million facility that is training 
800 corrections officers? I mean, I will tell you, there are 
corrections systems around the United States that would 
probably do it a lot less expensively than that.
    I must say, again--and I appreciate you all inherited this 
problem--but I am dismayed by the fact that we have spent 
taxpayers' money to train people on how to attack our forces. I 
know that wasn't your intent, but because of the sloppiness of 
the way people were screened and the failure to create a 
database as to where people went after they left, that is 
exactly what we did.
    And I eagerly await the explanation as to why it has taken 
all this time to create a tracking mechanism to see where these 
people have gone after we trained them, because it is 
scandalous, in my opinion, we have let this happen.
    Thank you, Mr. Chairman.
    Mr. Akin. Mr. Chairman? I think the CPATT is under MNSTC-I, 
which I think is General Dempsey. I think that is----
    Mr. Andrews. With whom we met, as you recall, in Iraq.
    Mr. Akin. Yes, that is the one that should know all those 
answers.
    Mr. Andrews. Well, I certainly hope that DOD would provide 
us with those answers promptly. Thank you.
    Mr. Meehan. Mr. Motsek, we seem to do a better job of 
keeping track of Security Forces--in other words, when we are 
training Iraqi security forces--because you see the statistics 
that a certain percentage of those who are trained go home. A 
certain percentage don't show up. A certain percentage, once 
the paychecks are given, go home to their families, and 
sometimes we don't hear from them again.
    Why is it that we are able to set up this system where we 
can keep track of those security forces that we train, but in 
this instance of this--as Mr. Andrews has aptly described--very 
expensive police training facility, did we not think to set up 
a system to figure out how many of the 54,000 showed up for 
work, how many become sergeants, how many are leading their 
departments'?
    Mr. Motsek. Sir, the--and I am going to have to give you a 
general comment, because this is relatively--it is new to me--
but there is a fundamental difference between what you and I 
would call the Ministry of Defense side of the house, the 
military side of the house, and the police side of the house. 
And the fundamental difference is--and it is just like in this 
country--the bulk of the armed forces report directly, one way 
or another, to the Ministry of Defense.
    There is a line authority to the Ministry of Defense. If 
you go to the grand state of Arkansas today, what percentage of 
the law enforcement activity within the state of Arkansas 
reports directly to the Federal agency, the Department of 
Justice? And I would submit to you it is probably way less than 
one percent.
    With the law enforcement side of the house--and I hope the 
ambassador can elaborate, if necessary--you have a 
decentralized regionalization issue, where the police force 
fundamentally is going to end up working for the provincial 
governor, not for the Ministry of the Interior. So you have, in 
my mind, there is a complicating factor.
    The piece that I am familiar with, as Congressman Andrews 
talked about, is the biometrics piece. Once I get the person in 
the system, and the system is now more sophisticated than a 
simple fingerprint, we can find him after the fact, if 
something happens. But his concern, how are we positively 
tracking him, as opposed to, you know, tracking him as an event 
occurs. And I understand the difference that he is asking.
    Mr. Meehan. Well, we can identify--but we can't necessarily 
find him. I mean, we can identify him, right?
    Mr. Motsek. If an event occurs and he is picked up again, 
or something of that nature, we can, with certainty, say who 
this person is now. We have a good biometrics system in place.
    What Congressman Andrews was concerned about is, how do you 
track him, from the time he graduates, to where he is at any 
given day? And we do a relatively decent job, as you noticed, 
on the military side. We can tell you, on a daily basis, X 
percent of these people reported for duty, X number deployed--
--
    Mr. Meehan. Right. But my question is, why can't we do it 
on the police side? I understand the jurisdictional issues, but 
it seems to me that--it really was stunning, not to mention--
the question I want to get at is, now they are training in 
Iraq, in the Baghdad area, where violence is clearly, if you 
consider where they were when this facility opened, I can't 
imagine or the facilities are even close to what they are in 
Jordan.
    And whose decision was it to transfer the training of 
Iraqis back to Baghdad? And is anybody keeping track of the 
quality of the training of the police that is taking place at 
these fragmented facilities around the Baghdad?
    Ambassador Patterson. Could I answer your other question 
first, about why this is so hard to monitor? And it goes back 
to what Congressman Andrews was saying.
    Mr. Meehan. Yes, but my question isn't, why is it so 
difficult? I get it. I have a grasp on why it would be 
difficult.
    Ambassador Patterson. A thousand different police--1,000 
police stations. That is the short answer, and provincial and 
district control.
    Mr. Meehan. I just want to know why we have been able to do 
it on the security side and not on the police side.
    Ambassador Patterson. Because these people are dispersed 
all over the country.
    Mr. Meehan. Aren't they on the security side, though? We 
train----
    Ambassador Patterson. They are under provincial and 
district control, as Mr. Motsek was saying, just like there 
would be under--they are a highly decentralized system, just 
like they would be in the United States. So it is very hard to 
get at--and it is very hard to get out and monitory these 
stations. That has been a challenge throughout this entire 
program. That is why the IPLOs, the police liaison officers, 
are paired with military units to get out there and monitor 
these.
    But it is a highly decentralized system. And I know the way 
we did this in Afghanistan was to work through the payroll 
system, and I believe this is what is CPATT is doing now.
    Mr. Motsek. They are trying to do now.
    Mr. Meehan. So we are trying to do that now? But what about 
the other question?
    Ambassador Patterson. The other question, about the 
training?
    Mr. Meehan. Mr. Andrews said we have spent $150 million to 
set up this--what I would say is--a state-of-the-art facility 
in Jordan. And then somebody makes a decision. It seems to me 
the Iraqi government made the decision that they preferred 
training the Iraqi police force in and around Baghdad at these 
facilities that, frankly, my guess is, given the tours that I 
took, probably is nowhere near the quality of the facility that 
we spent $150 million to construct in Baghdad.
    My question is--monitoring the type of training that they 
are getting in these new locations in and around Baghdad? And 
do we monitor the effect, downward, I would say, in terms of 
the quality of the training that the Iraqi police are not 
getting outside of this facility in Jordan?
    Ambassador Patterson. Again, that is a question more 
appropriately directed to CPATT, but my understanding is, yes, 
they intend to have people in these academies in Iraq. It was 
always envisioned that we would phase out the Jordanian police 
academy and revert it back to the Jordanians. That was always--
because, as Congressman Andrews has pointed out, it was very 
expensive, and that the Iraqis would take this over.
    But I think the answer to your question--again, we need to 
take that back to CPATT and get you more precision, but they 
are planning to monitor the training in the various police 
academies in Iraq. It is not just in Baghdad.
    Mr. Andrews. Mr. Chairman, can I just ask one more thing?
    Mr. Meehan. Let me just say on that point. Here is what I 
believe: I believe that, at some point, the Iraqis, who are 
involved with the police, decided that they no longer wanted to 
have training take place in Jordan, so they are setting up 
their own training in and around Baghdad. And my belief is that 
the quality of training, whether they be al Qaeda, whether they 
be--regardless of who they are, the quality of their training 
cannot be anywhere near what the quality of their training was 
in Jordan.
    And to spend that much money and then not have a sense of 
what is happening to, you know, the facilities these people are 
being trained in--it was clear to all of us, I think, on the 
trip that we have this state-of-the-art facility in Jordan, and 
somehow the decision has been made that they were going to be 
trained in Baghdad and at a number of locations. Nobody can 
even tell you--no one knows about a location where they would 
train police in Baghdad, let alone the quality of the training.
    So that is my point. After spending all this money, it is 
clear to me that the training isn't even--even if we could 
track people, is now much lower quality.
    Mr. Andrews.
    Mr. Andrews. Ms. Patterson, one thing I would say, you said 
it was the plan all along to phase out the JIPTC.
    Ambassador Patterson. Right.
    Mr. Andrews. Was there ever any discussion of recovering 
some of the costs from the Jordanians, since we spent $150 
million to build it? Did we have a plan that said we are going 
to train people for a few years and then leave and walk away 
from $150 million investment?
    Ambassador Patterson. Yes, that was essentially the plan.
    Mr. Andrews. Have the Jordanians pick up the cost?
    Ambassador Patterson. The Jordanians are in control of half 
the camp, and we are using--if I could come back to the other 
point on the corrections officers--we are using the other half, 
CPATT and INL and the Department of Justice, to train these 
correction officers who will participate in guarding prisoners 
who are picked up in the surge.
    Mr. Andrews. Are the Jordanians paying us rent for using 
half the camp?
    Ambassador Patterson. No, it belongs to them. We had two 
agreements with them. It reverts back to the Jordanian 
government.
    Mr. Andrews. So we gave it to them?
    Ambassador Patterson. It always belonged to them.
    Mr. Andrews. But we paid for it.
    Ambassador Patterson. We paid for the construction.
    Mr. Andrews. Okay. Okay. Thank you.
    Mr. Meehan. Mr. Conaway.
    Mr. Conaway. Hindsight is wonderful.
    The question that Dr. Snyder mentioned, are there any 
American contractors held in Iraqi prisons under Iraqi judicial 
authority for criminals? That is kind of what you were trying 
to get to, wasn't it? Are there any Americans held by the 
Iraqis? A lot of head turning.
    Mr. Motsek. Sir, I will take it first. I am personally 
unaware of anyone being held in an Iraqi prison, U.S.--you are 
talking about U.S. citizens?
    Mr. Conaway. Right.
    Mr. Motsek. Being held in an Iraqi prison.
    Mr. Swartz. If I may add to that, there are, I believe, 
individuals who may be dual nationals or others that are held, 
but not necessarily in connection with contracting----
    Mr. Conaway. So there are contractors that we had put in 
place that the Iraqi judicial system is now responsible for?
    Mr. Motsek. No, sir. None that I am aware of. We will go 
back and try to verify, but I am aware of no U.S. personnel or 
U.S. contractor that is being held by the Iraqis.
    Mr. Conaway. I also agree with Dr. Snyder. This is 
obviously a huge subject to spend an hour and a half on to try 
to even begin to start at it. Your role is obviously to come in 
here and put the absolute best foot forward, your 
organizations, and I understand that.
    But, together, our role is to try to get it right. And 
parts of my frustration is, this system, this deal doesn't 
allow you to share often with us what is not working. We heard 
about all the stuff that you have done, and it is positive, and 
all those kinds of things, but I don't think anybody remotely 
thinks that the Iraqi justice system, the Iraqi police system, 
any of those Iraqi functions are working the way that we would 
want to.
    And to the extent that we still have a role in that, I 
understand the chairman's frustration, in that sovereign 
government's going to make decisions that we disagree with, but 
it is their government. If they decide to move all the training 
to Baghdad, and it is on their nickel, you know, that is one of 
the joys of working with a partner that gets to control their 
deal. They make decisions that we don't necessarily agree with.
    On a second comment, I was in a hearing yesterday in which 
the Department of Agriculture was complaining about not being 
able to contract for stenographers, hearing reporters, and how 
difficult that was for them. And they were using that as an 
excuse as to why it took so long to make certain changes in the 
milk program.
    Last time I checked, I don't think we have had an IED or a 
gunfight at any of those hearings, so figuring out how you find 
contractors, and how you manage those contractors, and how you 
get rid of the bad ones and keep the good ones, can you talk to 
us--I am a Certified Public Accountant (CPA) by background, and 
so I have a sheet in here that is labeled ``Exhibit E'' from 
some place, that says somebody did some sort of an audit--they 
use that phrase--$3.2 billion has been looked at.
    How do you coordinate--obviously, you have three different 
organizations at the table. You all have your own funding 
streams. You all have your own ideas about how--how do you 
coordinate between each other just the review of contractors? 
Or do your contractors just work for you and you are solely 
responsible for that work?
    In other words, how do you manage that contractor group? Do 
you ever actually fire somebody? And not these individual folks 
who are actually providing the work, but I am talking about the 
DynCorps and the umbrella folks, who actually you looked at 
first. How do you set up a system to evaluate those guys or do 
you, I guess is a better question?
    Mr. Motsek. Sir, we are principally responsible for 
contract execution.
    Mr. Conaway. Even on the State Department side?
    Mr. Motsek. Sir, it is not an easy question to answer, 
because, as I said, this is a rather unique lash-up. And what 
will happen is, we have two sets of overriding direction on 
what we are doing. We have the Federal Acquisition Regulations 
(FAR), the acquisition regulations, but then we also have the 
FMR, the financial management regulations. So those are the two 
big, broad contexts, big muscle moves, CPA-oriented-type 
documents we have to operate under.
    If you are sitting in Iraq and working and supporting 
Ministry of Interior (MOI), the dollars that probably started 
with an appropriation from Congress that went to DOD as part of 
the supplemental, that were then shopped to state, as per the 
direction, and then those dollars would then be executed on 
behalf of state by the Department of Defense for a variety of 
contracts.
    Another portion of those dollars--for example, which may be 
materiel related--may go directly to the Department of Defense. 
And we will execute the materiel order, that part of it--for 
example, if we have a truck issue, and the tank and automotive 
command in Warren, Michigan, has to deal with it, they deal 
with it directly.
    So it is a fairly complex set of moving parts, but the 
intent was to keep an audit trail of the dollars, 
fundamentally. And then we, in the contracting side, under the 
FAR and our Defense Federal Acquisition Regulation (DFAR), 
would follow behind, but it was the audit trail of dollars that 
takes priority number one.
    With regards to quality, I will keep on coming back to the 
fact that, yes, we are extraordinarily concerned. And both 
things have happened. We have released contractor personnel, 
the individual. We have fired contractors for non-performance, 
as well. But at this point in time, our records indicate that 
is less than one percent of what is going on, because our 
contracting officers are now actively engaged, I mean actively 
engaged in what is going on, on the ground.
    That is not to say that, as a contractor closes out, and we 
go to the final table to start laying out the bills, what is a 
reasonable charge, what is an unreasonable charge, that is not 
to say that that is an easy process.
    Mr. Conaway. Let me just make one comment. The cynics among 
us could say, well, the one percent is because we are not doing 
a very good job of looking at the whole picture, you know, your 
threshold of failure is really low. That is not the case, is 
it?
    Mr. Motsek. I can only refer to--the document you were 
referring to was a DOD Inspector General (IG) that specifically 
was looking at the $5 billion-plus associated with this part of 
the process. And it was a very favorable assessment.
    I mean, we have had inspections by SGIR, the DOD IG, 
Government Accountability Office (GAO), and the like, where 
warts are found. You are always going to find warts. But what I 
would caution us all is check to see if it is an auditable wart 
or it is before the close-out process.
    I mean, we are in negotiations today--it is public record--
where the Army, under their LOGCAP contract, said, ``You will 
not hire security personnel under LOGCAP. We, the military, 
will provide your security.'' As we dug through the process and 
because you have contractors, subcontractors, sub-
subcontractors, which is the challenge to manage, it turned up 
there was a $19.8 million bill inside of LOGCAP that was 
attached to security. And we have thus far refused to pay that 
bill, and we will not pay that bill, in all likelihood, because 
they were not supposed to enter into that sort of contract.
    It is extraordinarily challenging--you have hit the nail 
right on the head--because we focus primarily on the major 
contractor, the major contractor that we hire, because then 
there is a separate set of contractual relationships between 
him and his subcontractors, and that is how the system is 
designed. So when I go back and start digging out and giving 
you contract numbers, it is a challenge to start building that 
pyramid of what is going on.
    We are developing--and some of your staff have gotten a 
little bit of background on it--an automated system. It is 
already out there now in an early version, where I can take a 
contractor's CAT card, or his I.D. card, and I can swipe it. 
And I can tell you who he works for, what he works for, where 
he is supposed to be, what his privileges are, what his 
privileges aren't. I have a copy of his passport in the 
database. I have a pretty good system from what is going on.
    If he goes to a dining facility to eat, and he is not 
supposed to eat there, it picks him up. I am not interested if 
he is not entitled to eat there; what I am interested is 
charging that contractor for that meal. I mean, that is the 
important part.
    So we have to get out of the stubby pencil way of doing 
business, which is, frankly, what we are doing. But as I told 
the chairman those numbers, that took us 45 days to develop 
those numbers for him and for the rest of Congress. And it took 
us another 45 days to get the latest set of numbers, which will 
be available in May.
    And our effort is, is to get our automated system up and 
running. We have roughly 60,000 of the contractors in the 
system right now. Our folks have been out there deploying this 
thing very rapidly. Part of its success is tied to the passing 
of the supplemental, because some of the dollars for their 
material is in the supplemental.
    But in the long term, it is going to be to the point, I can 
assure you, where next time the chairman takes a delegation 
over there you are going to be carrying one of my cards in your 
pocket, because I am going to be able to prove you ate in 
dining facility X, and you were manifested on an aircraft on 
this particular place, because I have to know where you are. It 
is not just good enough to know who your contractor was, but, 
you know, there are always potential liabilities for exposure 
of things in the future. I want an audit trail of where you 
have been while you have been in theater.
    So that is being very aggressively developed. The 
Undersecretary is solidly behind it. And I have to be blunt 
about it. Something that should take five, seven, nine years to 
deploy, we are deploying in roughly a year. I mean, if I was 
here before you a year ago, I would have said zero people were 
in an automated database. Now I have 60,000 contractors in the 
database, and that is making extraordinary progress.
    So we aren't there yet. That is what I am trying to tell 
you. We are not there yet, but we are driving in that 
direction. So I am not trying to make it all through rose-
colored glasses, but we understand the sensitivity of knowing 
these issues. And we have tried to develop the processes and 
put them in place so that we can do it.
    We have learned from not having a joint contracting command 
on the ground early on. We learned. We thought we could do it 
one way. It doesn't work. We are in the process of developing 
the concept so we institutionalize that idea. So next time, if 
there was a next one, and you took a delegation over there, you 
would have a belly button to push and say, ``I want to know 
about contracting in this theater,'' instead of having, you 
know, to get your questions and come out of theater. You have 
someone in theater now that should address that.
    And, more importantly, the commander on the ground now has 
a central belly button to push when he has questions about 
contracting, which, quite frankly, he did not have early on. So 
we have stumbled, to be sure, but we are making improvements.
    The last thing I would reiterate, again, it is a 
decentralized process. Heads of contracting agencies in the 
states, head of contracting agency in Iraq, they all issue 
contracts, and they are all individually responsible for the 
quality of those contracts.
    Part of my new mandate in my new office is develop a 
systematic way of making assessments and audits of those 
contracts. Right now, we tend to take a arithmetic approach to 
it, a statistical approach to check, or, if we hear something 
about a contract, we will go in there and audit it, if 
something is brought up before us. We have to get more 
proactive about it and come up with an analytical process where 
we get in front of this thing and we just routinely and 
constantly are taking over and working the analytics and the 
auditing so that we are not surprised by the alleged $19.8 
million loss. We have known about it before it hits the papers.
    Mr. Conaway. What do you all need going forward to get to 
the success level that you want? What is it that you are not 
getting or that you do need from us, State, Justice, DOD?
    Mr. Meehan. Either statutorily--I was going to ask the 
question--statutorily, can we change a law? What do we need to 
do?
    Ambassador Patterson. Well, I think, as Mr. Motsek has put 
so eloquently, I think one of the main issues was the sort of 
overwhelming of the administrative system, certainly in both 
State and DOD. And I don't think we need anything more from you 
statutorily or legislatively, but I think, at least from my 
operation, as I mentioned, we need to hire a lot more people to 
do these invoice reviews and these contract close-outs, because 
that is the only way we are going to recover for the taxpayer 
what to do.
    And that is going to be highly labor-intensive and not 
cheap, but we are committed to doing that on all our contracts.
    Mr. Swartz. And I should add, as well, the Department of 
Justice, both with regard to the MPRI contract generally that 
deals with support to ICITAP, and in particular with regard to 
Iraq, has taken steps itself to ensure that that is properly 
audited, controlled both by our Justice management division, 
our criminal division administrative office, and with regard to 
the individuals in Iraq, both working with CPATT and directly 
through our personnel, our--personnel in Iraq, to ensure that 
they are performing the tasks that have been sent to them.
    Mr. Motsek. Sir, two things. One, in 2007, Congress passed 
the National Defense Authorization Act, and as Section 854 in 
that act, which, among other things, prescribed the Office of 
the Secretary of Defense (OSD) victim for contracting, which is 
me now, but we need help is giving us a chance to implement.
    There are some time hacks in there, where we have to come 
back to the Hill and tell you how we are doing, but we are 
aggressively taking that. But I would like to be able to come 
and my people would like to be able to come tell you where we 
stand at any given date so you can see the progress made.
    But I honestly got to tell you, you have to give us a 
chance to implement it, because a lot of people are demanding a 
lot of information, and a lot of sub-element pieces that we are 
trying to pull together to give you a coherent package. So, 
from a personal standpoint, if we can have the chance to 
actually implement that, which we are aggressively doing, and I 
fully support it, it is a logical thing for us to have to do. 
And it was a very good piece of legislation, which we are 
following as best that we can.
    The second piece is just----
    Mr. Meehan. Excuse me. On the first piece, does that mean 
you think that, in the defense authorization bill, there should 
be an adjustment in the language?
    Mr. Motsek. No, sir, just give me a chance to implement 
what you got, because we are pushing the envelope. But I am 
more than willing to come up and let you know where we stand on 
any given day as to how we are doing and implementing, and then 
the warts will become obvious where I have a problem.
    And the second piece of that will be that--and this is just 
for your information now--it would be premature for me to ask 
for your direct help, but just to be aware of it, is that the 
contractor personnel issue is bigger than the Department of 
Defense. You Members of Congress keep on talking about the AOR 
in general. And we are backing into the control of that.
    The field, the commander in the field has published fraggos 
that talk about the responsibility of non-DOD contractors to 
report into our automated system so we can get a feel for them. 
It is very important, as I said early on, the man in the field, 
I am principally interested for the numbers, for the sake of a 
security and force protection. And so, at some point in time, 
we may need assistance in making that a forcing function, if we 
can't get it through fraggos in the field and compliance at 
DFAR. So we may come back to you for some help there.
    Mr. Swartz. And, Mr. Conaway and Mr. Chairman, if I may 
add, as a general matter, I think that hearings that let us 
explore the importance of technical assistance and 
developmental work with regard to security forces and police 
forces around the world are very useful to highlight, I think, 
the important work that is being done by the Department of 
State, the Department of Justice, and DOD. And it is seldom 
recognized, but it is critical, we believe, to our national 
security interests.
    Mr. Meehan. Mrs. Davis.
    Ms. Davis of California. Thank you. Thank you, Mr. 
Chairman.
    Thank you to all of you for being here.
    It is clear this is very complicated. I think, Ms. 
Patterson, you probably put it best when you said that the 
requirement here has outstripped our efforts, and a lot of 
catching up to do. About how long has it been, then, since you 
feel that you actually are moving in a direction that is going 
to accomplish results? How long has it been, if at all? Where 
do you think that has been, the last year----
    Ambassador Patterson. For my own operation, I have been 
here about a year and a half, but I would put it well before 
that, about two years. We started to do a number of intensive, 
internal reviews of DPCK, of our own operation, of our 
contracting. We called in our own inspector general on some 
questionable issues with our contractor.
    Just this year, as Mr. Motsek says, the critical issue has 
been getting the contracting officers out to the field. We, 
too, I think made perhaps the same mistake DOD made, which was 
largely to protect our personnel and try to do this sort of 
back-office operations in Dubai and Jordan, and we realized 
that that wouldn't work, because they didn't have the granulary 
that they needed.
    So I would say--and it gets better every day. I must tell 
you, it gets better every day. I think that this broad invoice 
review will return a lot of value to the contractor.
    Ms. Davis of California. I guess we could, in some ways, 
thank the Oversight Committee, because has that played a role 
at all? You said getting your numbers together--and I want to 
thank the chairman, because I question whether or not we would 
have this information if we weren't sitting today or, you know, 
in the course of time--I don't know whether you would have had 
those numbers----
    Ambassador Patterson. Well, certainly, and I would like to 
say the inspector general for--the special inspector general 
for Iraq has played a very constructive role in this entire 
process. He has a lot of people in Iraq. We have worked with 
him very cordially and constructively, and they have had lots 
of useful suggestions.
    Our own IG, the GAO, this has been subject to--certainly in 
the last two years, not only to congressional oversight, GAO, 
but a lot of very useful oversight. And I think we have gotten 
our act together a lot better.
    Ms. Davis of California. Thank you.
    I am going to move on, because I do have a few questions. I 
appreciate--and you may want to add your responses later.
    Part of the difficulty, of course, is that we have this 
opportunity today, but the general public has really been 
hearing stories about contractors. The Washington Post had an 
article not too long ago about the Triple Canopy employees. And 
at the end of that article, it referenced who really was in 
charge there. And I guess the CENTCOM spokesperson said that it 
wasn't a CENTCOM issue; it is whoever is running the contract.
    I think we come back to how the use of contractors have 
created problems, in terms of chain of command, and who really 
is responsible for the contractors' actions. So which 
government agency actually does own the ISF training mission?
    Mr. Swartz. With regard to police, I believe that 
responsibility has been delegated to CPATT in the Department of 
Defense, the civilian police's training team.
    Mr. Motsek. That is correct.
    Ms. Davis of California. And in terms then of prosecution 
of contractors, do we know how many contractors have actually 
been prosecuted for illegal acts in the country?
    Mr. Swartz. Congresswoman, we can get you those figures. 
The Department of Justice has been working closely with Special 
Inspector General for Iraq Reconstruction (SIGIR), with regard 
to any allegations of criminal conduct.
    Ms. Davis of California. You don't know today how many 
prosecutors have been----
    Mr. Swartz. How many contractors have been prosecuted? I 
would have to check to get you the exact number in that regard. 
And, obviously, there would be sensitivities about ongoing 
investigations, but I will discuss with my colleagues and with 
SIGIR to get you the appropriate figures.
    Mr. Motsek. And, ma'am, you are talking beyond CPATT? You 
are talking about all contractors? I think that is the question 
you are asking.
    Ms. Davis of California. No, particularly contracted by 
DOD.
    Mr. Swartz. I am sorry, I misunderstood your question. I 
thought you meant in the broadest sense.
    Ms. Davis of California. Well, I am thinking about, even 
the DynCorp--the Triple Canopy employees, for example.
    Mr. Motsek. Yes, DOD contracts----
    Ms. Davis of California. DOD contracts. Do we know how many 
have been prosecuted?
    Mr. Motsek. No.
    Ms. Davis of California. Do we think there are any?
    Mr. Swartz. Well, there have been a range of investigations 
and some criminal prosecutions and some convictions coming out 
of activities related to Iraq. If the question is misconduct 
within the context of the contract itself or abuse of the 
contracts, we would have to--I would have to get you those 
figures and break it down.
    But, yes, there have been a number of ongoing 
investigations and cases that have related to Iraq in one way 
or another that have involved contractors, not necessarily----
    Ms. Davis of California [continuing]. Individuals who have 
been under contract, have been prosecuted? Are there 
individuals, per se?
    Mr. Swartz. We will get you that number.
    Ms. Davis of California. Mr. Andrews asked a number of 
questions about the identification of any possible al Qaeda or 
other foreign fighters who have been trained by us, perhaps, in 
Jordan or otherwise in Iraq. Of those people who have been 
picked up, have any of them been identified through your 
biometrics that you mentioned?
    Mr. Motsek. I have no numbers. That is outside my range 
right now. But even with the basic fingerprinting process, 
early on, people were identified, as I told the chairman, after 
the fact, when there is--you were able to pick him up because 
you at least had his fingerprints on file.
    Under the new biometrics, you may have already seen it. You 
know, it is ten fingers and a eyeball that you have to place it 
on. And if you are working for the U.S. Government, it all ends 
up with an access on the card, just like this, that we scan 
this. It tells me who you say you are. Then, we can compare 
immediately in the field that biometric.
    Whether this gets deployed out, that is the next issue, but 
they are in the repository record now, which sits in West 
Virginia. Actually, the repository is physically in West 
Virginia.
    Ms. Davis of California. But how long have we had that 
process in place? I am just talking about any fighters who have 
been identified and picked up, whether or not we actually have 
had information that they were trained.
    Mr. Motsek. I mean, I believe basic fingerprinting was from 
day one. The expansion of biometrics, which is out there now, 
and they are doing it, but the broad expansion of them for a 
variety of purposes in theater, I believe, is tied to the 
supplemental right now. There are dollars in the supplemental 
to force that much more aggressively into theater.
    These are technologies that, in the old days, if I was an 
old acquisition guy, I would tell you it is a five- to seven-
year process. And now, because of where we are and what we are 
doing, we are talking in months or a year or two.
    Ms. Davis of California. Are individuals who are picked up 
in the field, are they--do we run their fingerprints through a 
record to demonstrate whether or not they, in fact, were 
trained? Are we doing that?
    Ambassador Patterson. You mean, picked up in the field, 
arrested?
    Ms. Davis of California. Yes.
    Ambassador Patterson. I don't know the answer to that.
    Mr. Motsek. I could only tell you they could.
    Ms. Davis of California. Pardon me?
    Mr. Motsek. I could tell you they could----
    Ms. Davis of California. They could be fingerprinted----
    Mr. Motsek [continuing]. Because the database is available.
    Ms. Davis of California. Right. But we are not sure that we 
are doing that?
    Mr. Meehan. Probably what we need to do is bring CPATT 
before the subcommittee and speak directly with them.
    Ms. Davis of California. Just a few other question, in 
terms of contracts. For example, DynCorp, you mentioned that 
people need five years of experience in police work in order to 
train Iraqi personnel. Do we think that that is enough? And are 
they bringing the skill sets that are really necessary to do 
that job?
    Ambassador Patterson. Congresswoman, is it enough? I think, 
as I mentioned before, we have been satisfied with the quality 
of the personnel. And many people, I might add, have vastly 
more experience than that. Certainly some of the more senior 
people out there have 20, 30 years of police experience, and 
they are basically doing this as a patriotic effort to help out 
the war effort.
    So I wouldn't say that--that is the minimum, but I wouldn't 
say it is the average. My own personal observation is that many 
of these people are retired police officers, quite senior 
police officers, with a lot more experience than five years. 
But if we can get a precise figure, we will average them.
    Ms. Davis of California. Mr. Chairman, just one other 
question. I know that in our next panel one of the comments was 
made that, in fact, the perception is that, when we use 
contractors, it is perhaps less of a U.S. commitment than DOD 
forces. What do you think? Do you think that that is a 
perception? Is that real? And have you ran into that?
    Ambassador Patterson. Congresswoman, no, I mean, these 
people are enormously patriotic. And as I mentioned 17 of them 
have died in the line of duty, and one is seriously injured 
today. Most of these people--and I have talked a lot with them 
when I have out there--they do this because they are patriotic. 
They do this because they want to impart the skills that they 
have learned. They do this because they believe in the mission, 
and we try and offer an attractive financial package to attract 
them.
    Mr. Swartz. And if I could add, Congresswoman, with regard 
to the individuals that ICITAP brings on, since we do integrate 
them into an existing Federal law enforcement structure through 
our Department of Justice office, I think we try and build the 
team concept, with them reporting up through our career 
personnel, and those career personnel working to build them 
and, as a concept, working together.
    Mr. Motsek. And the question cannot be and/or. We must use 
contractors. They are an integral part of our force. I mean, 
they are literally the fifth force provider that we have today, 
under the way we are organized today and how we are structured. 
So we have to use them, as we sit here right now. So we do not 
have the luxury of saying, ``We are going to do it this way 
instead of that other way.''
    My son, again, is an EOD officer. In a perfect world, 
military EOD types would teach military EOD training to the 
Iraqi and Afghani counterparts. There aren't enough of them. 
And so you have had to take contractors to do that. The bulk of 
them are retired military, and they go on over. And has been 
alluded to, they are every bit as patriotic and committed to 
the mission as any of our folks are.
    Ms. Davis of California. I am not questioning their 
patriotism. I am just wondering about the perceptions in the 
field. And, of course, there are tensions, and we know that. 
And I would say that chain of command is obviously an important 
one, as well.
    Thank you.
    Mr. Meehan. Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you.
    And to the panelists, I join my colleagues on both sides to 
say thank you for--it sounds like an impossible job, that you 
are trying to find possible--I sit here in amazement. We have a 
different responsibility.
    Obviously, the responsibility we have is multi-faced, but 
we also have to think that, at some point in the future, there 
has got to be some stabilization in Iraq. And yet I look at Mr. 
Swartz--I appreciate your comments, and I have heard you when 
you have said, in your comments, difficulty, long term, to 
create a satisfactory, I guess, police force or justice system. 
Can you give me, in a short answer, what is your definition of 
long term?
    Mr. Swartz. Well, sir, I think that each set of 
circumstances requires its own answer, in that regard. We have 
been in some of the Balkan countries, for example, for almost a 
decade or more, in terms of building a justice system there.
    We are talking about reconstructing in Iraq, or 
constructing, if you will, almost from the ground up, a justice 
system that meets the standards we would consider, not just as 
U.S. standards, but international standards, of a system that 
recognizes and respects human rights, affords due process.
    I think we have found willing counterparts in a variety of 
different parts of the justice system of Iraq. And, in 
particular, I would point out that the judges have shown 
remarkable courage and tenacity over the time period in working 
with our prosecutors there.
    But I don't know that I could give you a time estimate, in 
terms of number of years. But I can say that the people we have 
sent out are fully dedicated to this mission and continue to 
believe that it is a mission worth trying to perform. We have a 
number of Federal prosecutors, as I mentioned, who work on a 
daily basis with the judges. The Department of Justice has 
indicated its commitment to Ambassador Crocker to increase its 
rule of law, work in Iraq, and to help formulate how we go 
forward, so that this is a task, regardless of how monumental 
and long term, that we are fully engaged in and wish to 
continued to be engaged in, because we think it is an important 
task.
    Mr. Jones. Well, I think for those of us in Congress--and, 
obviously, we, on the House side, have two-year contracts. And 
at the end of two years, we either are renewed or not renewed.
    The problem that frustrates me is that I can't say to the 
people that I represent--and I have listened to the military. I 
have listened to the professionals, like yourselves. And you 
get to a point that this great nation is borrowing money from 
other countries to pay the bills.
    And I realize this is not what you are testifying on today, 
but the point is that, when I, as one Member of Congress--and 
that is all I am--when I listen to what you are saying--and, 
Ms. Patterson, thank you for your service, your comments. And 
you said this is not a Haiti. Well, you know, I understand what 
you were saying and what you meant.
    But the problem is, we have to show the American people--
that is why the Democrats are in the majority, and I am a 
Republican. But I knew a year ago that the American people were 
frustrated and dissatisfied because we were not able to 
really--I think this is one of the best things that the 
Democrats have done, is to step up this subcommittee, because 
many of us in the Republican Party were asking the same thing, 
that we never had the forum that we have here today.
    And yet I know that Mr. Motsek--I hope I said that 
somewhat----
    Mr. Motsek. Close enough, sir.
    Mr. Jones. Thank you. When you have a Jones for a last 
name, you get spoiled. But, anyway, thank your son, as well, 
for his service.
    And I realize what you have said to the answers to my 
colleagues, that you do think that, in time, you will have a 
system that will be efficient, that will give us, the Congress 
and the American people, what they need. But the problem--that 
is why we had this supplemental. That is why we had benchmarks 
in this supplemental, because for too long we have been having 
people like yourselves, who I have great respect for, coming to 
this Congress--and it is beginning the fifth year.
    And every time someone comes up here--I remember Abizaid 
and Casey. We have Petraeus today coming before the Members of 
Congress. And everybody seems to say, well, you know, we are 
getting this in place, and then you hear that it is not in 
place.
    And I guess what my rambling is leading to this: Jack 
Sheehan, a Marine general, was asked to be a war czar. And I am 
going to use his comment to ask my question. The very 
fundamental issue is they don't know where the hell they are 
going.
    And this is a four-star Marine general that knows a whole 
lot more about life than Walter Jones knows. But what can you 
say to the Congress today to give us some hope that we can 
share with the people back home? Because if they were watching 
this on C-SPAN, I believe instead of those who have been 
critical of me back home, that I was supporting the Democratic 
position, to ask for benchmarks would probably call me up and 
say, ``We agree with you. Now we understand.''
    And this is not your fault. But if we have a system that it 
is going to take 10 to 15 years to get the police force up so 
that the police force can do their job, or the security 
forces--I am not asking you personally when I make this 
statement--be honest with us.
    Because I would hate--I won't be here ten years from now. I 
might not here be here two years from now. But I would hate to 
be here ten years from now and people like yourselves making 
the same presentation. And I realize you cannot predict the 
future; that I understand. But you are the professionals. You 
have been in environments similar to this, maybe not as 
difficult as this, but you have seen things like this before.
    Give us some idea of a benchmark of where things should be 
a little bit better, where we would be able to say to the Iraqi 
police force, ``You now can walk the streets without the 
Americans with you.'' Can anybody give me any hope?
    Mr. Swartz. Mr. Jones, I will start and then turn it over 
to the ambassador.
    I think that our experience suggests that, even in 
countries in which the security situation is much more secure 
than what we face in Iraq, that building a police force from 
the ground up takes a long period of time. And by that, I mean 
five to ten years would not be an unusual amount of time to do 
something like that.
    Here, we have the added complication of, of course, 
insecure environment. But I think that it is important in 
thinking about this, and for us, for all of us, for the United 
States, to recognize that, however we go forward with Iraq, it 
is important we have and we build to the extent we can 
effective law enforcement partners, because we will need to 
cooperate with Iraq, as we do with other countries over this 
time period.
    So the strategy of the Department of Justice has been, not 
just in Iraq, but in other countries as well, to think in the 
very long term, in terms of working with the countries. That is 
why we have resident legal advisers in countries for sometimes 
more than a decade, to work with them, to help build 
incrementally the systems that we hope will allow them to 
cooperate with us, because it is not simply a matter of 
altruism.
    It is very much in the interests of the United States and 
its citizens to ensure that those countries have the capacity, 
both to address criminal problems and terrorist problems in 
their own countries, and to cooperate with us down the road. So 
I think all of us in the Department of Justice are looking to 
see what institutions we can focus on, in particular, things 
such as the Major Crimes Task Force, investigating magistrates, 
and others who will build, if you will, a legacy that we can 
look to and that American citizens can look to for cooperation 
in the future.
    Ambassador Patterson. Congressman Jones, the State 
Department has a lot of experience in this, and it takes 
decades. And it is very expensive, although the costs, I think, 
in a benign environment, a more peaceful environment, begin to 
drop sharply.
    I was ambassador to El Salvador about ten years after the 
war, and there we were still working on the police force, 
concentrating in two areas, which was middle management, which 
is always a huge challenge in rebuilding these police forces, 
and in internal affairs, because they have to have some 
capacity to clean out the bad apples, internal affairs and 
inspector general capacity to clean out the bad apples. So it 
takes a long time. We are back in Haiti basically redoing what 
we did in 1994, for a variety of reasons.
    But I would certainly agree with Bruce about this, with Mr. 
Swartz about this, that there is simply no other way than to go 
forward with this. We have to have a police force that has the 
support of the population. This has been very dramatic in Latin 
America, because otherwise interest groups turn to vigilante 
justice, which I think is what has happened, certainly, in 
parts of Iraq, unless you have law enforcement in which the 
population has confidence.
    I certainly agree with Mr. Swartz. It is important for us, 
and it is important for them, for our democracy agenda.
    Mr. Meehan. I would like to go to Mr. Sestak now, but we 
were supposed to have this panel over by 11. We are a little 
over, so I want to go to Mr. Sestak.
    Joe.
    Mr. Sestak. Thanks, Mr. Chairman.
    I appreciate your time. I was taken by your comment on 
databases. You know, one part of the government has it, the 
other doesn't, and may not have access, may not know, but that 
is the interagency process, this time, unfortunately, out in 
the field, not here in Washington.
    But now we have complicated it with contractors, almost 
become a fourth branch of government. I am really taken by 
Representative Davis' question. You remember, I think they were 
called the Blackwater incident in Anbar province. I remember 
talking to the Marine colonel who actually went to pick up the 
body parts afterwards, the three individuals, and he said, 
``They would be alive today if only they had just called me. I 
knew that road wasn't a safe road.''
    These aren't the same contracts you are dealing with, but 
Strykers, or F-18s, ENFs, as we deploy them now, must go 
forward, as the V22 will, with contractors. And so much has 
been talked about, about what has happened. And I appreciate, 
without question, the patriotism of the individuals, what is 
more important, actually, is, what is next?
    What is the process by which we are, the next time, 
supposed to have this be something that wasn't? It wasn't 
prompt. It wasn't effective. And, by and large, it hasn't been 
accountable. I mean, by and large, you expect what you inspect.
    So my question is, when you talk about these terms like 
accountability, what is the public image that a contractor 
gives us out there? It may or may not be the soldier with the 
candy bar, but everybody tells us this is not a war to be won 
by the military. It is about the hearts and the minds.
    And when we sit back and look at the chain of command, 
there really is no command. I mean, that contractor is 
responsible to a contractor. His incentive is, as much as 
anything, from a financial--you said you offered money. And, 
remember, the soldier next to him sometimes earns one-fourth of 
what this same person is doing out there.
    You also tend to have and report to MNSTC-I or also to 
CPATT. So my question really comes down--every war plan has a 
phase four. When we get to the next phase four, what is the 
process? Not just here that we now have a single belly button, 
just because a congressperson comes out. What is the overall 
process that can make us prompt, effective, and accountable 
from day one?
    You know, what is it that we put on the shelf on our 
lessons learned from this? Or has there been that?
    Ambassador Patterson. Mr. Sestak, I mentioned to 
Congressman Akin that the Administration is struggling with 
this and that there is an office in the State Department run by 
Ambassador John Herbst that is developing a concept for 
basically a civilian ready reserve, that is trying to fill just 
this hole that you described.
    He has got about 30 people working for them. He has got a 
very large interagency operation. He is developing statements 
of work and position descriptions for such a ready reserve. 
Again, that is not a short-term answer, but I think the 
Administration--with this issue and trying to address it.
    Mr. Sestak. Did we do the same thing after Bosnia in the 
State Department and put lessons learned on the shelf? I mean, 
I know the scale is immense, but it is just a scalable thing.
    Ambassador Patterson. I don't know, but the scale is so 
much smaller. I think we went into Bosnia under United Nations 
(U.N.) auspices, which also provides basically a very 
fundamental logistical support that we didn't have in this 
situation.
    Mr. Sestak. But did an office also go about and do what you 
say this 30-person office is doing? I mean, do we--my take is, 
is that lessons learned is something we don't do well.
    Ambassador Patterson. I don't know what happened after 
Bosnia, but let me assure you, we are trying to look at lessons 
learned from Iraq experience. And I suggested to Mr. Akin that 
he might want to get Ambassador Herbst up here for a briefing 
so he could describe in more detail what is being done.
    I mean, rest assured, as I say, there is a lot of soul 
searching and review underway in the U.S. Government about just 
the issue you raise.
    Mr. Sestak. Sir?
    Mr. Swartz. Admiral Sestak, as Ambassador Patterson 
suggested, Ambassador Herbst is not simply looking at lessons 
learned, although that is an important part of it, but thinking 
through a way forward, in terms of creation of a possible 
civilian reserve corps. And the Department of Justice and the 
Department of Defense are working very closely with him in that 
task.
    Mr. Sestak. Mr. Motsek.
    Mr. Motsek. Sir, I can focus your questions on the 
contractor personnel issues in particular, because you were 
absolutely right. And as I alluded to before, you gave us a 
kick in the pants with the Section 854 language. It forces us 
to build a more coherent package of what we are going to do in 
the future.
    A couple of challenges you talked about--you are absolutely 
right. You have contractors in the battle space, and you have a 
commander here, and you have the contractor officer 
representative here. One of the things we have to do is we have 
to institutionalize training in our senior service colleges and 
service colleges so that that brigade and battalion commander 
knows, from day one, he has a force protection and 
accountability responsibility for the contractors in his area 
of operations.
    That is not to say he assigns duties to them, because we 
know we have a contractor officer representative, which makes 
it a bit more complex, but he has the fundamental 
responsibility for the health and protection of his people in 
his battle space. We have not done that very well.
    You talk to a 3rd DISCOM commander, who went up with the 
3rd Division at the very outset of this, the biggest surprise 
that you had is he had a tail of contractors that were coming 
in along with him, and he didn't know they were going to be 
there. Well, we have to change that institutional process, so 
we are building it into the schools.
    The lessons learned are active lesson learned, but we are 
trying not to put them on the shelf. We have contingency 
contracting for our civilian side of the house that goes on in 
the military contracting folks that is daily, literally daily, 
and it is with base. So the constant lessons learned are being 
applied there.
    But going back to your fundamental question, what we have 
not done very well is in the planning process, up front, 
before. You know, you put the plan on the shelf, but the 
planning process had a bunch of ``To Be Determined,'' a bunch 
of holes with regard to this huge contractor plug that we knew 
was eventually going to go in there. You know, it was almost 
like magic was going to happen.
    You understand what all the tidbits are about, the time-
phased deployment. We had all the military people arrayed out 
perfectly. We knew when they were flying in there. But when 50 
percent of your log structure is going to come into the 
contracting process, if you don't have the equivalent, you have 
a problem.
    Part of our initiative is to build into--and we are 
formalizing it now--we are going to have joint planners whose 
sole function is to be pushed down to the combatant commands to 
build those parts of the op plans, to build those parts of the 
op plans, keep them current. I am going to technically own 
them. We are going to pull them back into Washington on a 
routine basis, force them to de-conflict their plans with the 
service plans and the other agency plans, so that we don't 
stumble along in the early stages, as we have in the past.
    We are going to formalize the process, and that is a due 
out to you, with regards to 854. We have to tell you in October 
how we are doing and April how we are implementing. So that is 
a due out to you.
    Mr. Sestak. I have been taken by the work that you have all 
done in the standing joint headquarters. It seems, even though 
people have said during the Clinton Administration they didn't 
want to, certain individuals, we have ended up continuing to do 
nation-building, often after a crisis.
    And the time, the promptness means that, you know, the Army 
is ready to go. They have their standing joint force, their 
headquarters now. If time is of such an essence, I understand 
what you have all said, but the missing piece to me is--are you 
actually going to have contract personnel identified?
    I mean, if everybody had been on the ground on day one 
after war, so many of these problems wouldn't be here. I mean, 
where is the force that is going to do this? Or are we going to 
have to gear up like a sinusoidal wave each time? Because at 
the end, you can have nice plans, but someone has to go out and 
now be the software and your hardware plans.
    Where is that force to do the training for the police and I 
imagine a myriad of other types of intergovernmental projects 
that need to be done? And where is that interagency plan for 
that resource?
    Ambassador Patterson. Well, Congressman, that is what 
Ambassador Herbst is working on, an interagency plan that would 
deploy these people quickly, identify them, train them, equip 
them, and deploy them to the field.
    Mr. Sestak. Just not contracts, but----
    Ambassador Patterson. The U.S. Government employs and, in 
turn, the contractor would identify people. But let's be candid 
here: This all takes money. And the sooner we get the money, 
the State Department--and, unlike DOD, is it is--$2 billion 
operation. I mean, we cannot do this out of O&M. It takes 
contingency funds that are basically in our budget to enable us 
to do that.
    And on any issue like Iraq, it takes a long time to get the 
money. We just sort of can't squeeze them out of hide.
    Mr. Sestak. You know, I think your point, Ms. Ambassador, 
is well-taken. We have talked about this--even during the 
Clinton Administration, there was an NPD, or whatever they 
called it back then, to do this.
    The military deploys, and there is an emergency 
supplemental that is now going to raise us from $8 billion a 
month to $14 billion a month, just because they have asked for 
it. So, to my mind, it is about the resources that are ready to 
do this. And so is that going to be part of this?
    Ambassador Patterson. Yes, and it has been part of it in 
the past, and it has been turned down, because the Congress 
doesn't like to fund a pig in a poke, a contingency fund, as it 
were.
    But, yes, first of all, I think the attitude up here has 
changed rather dramatically, and I think there is a lot more 
support, but, sure, our budget requests will be part of this.
    Mr. Swartz. And if I may add, Mr. Congressman, it is, if 
you will, a second-level funding problem at the Department of 
Justice. We can deploy. We can't order, but we have never had 
any lack of volunteers to deploy, even in the most dangerous 
circumstances, both from our criminal division, from the FBI, 
from our standing ICITAP and OPDAT resources, but we can only 
do that if we receive funding from the Department of State or 
the Department of Defense. We do not have funding to do this 
kind of activity on our own.
    Mr. Sestak. And the national security has really changed. 
National security is not just the military any longer.
    One last comment. And, as I know, we have gone over, and I 
want to save the questions. I was also taken--and I was only 
out there for a couple days with Senator Hagel about a week 
ago--to Congressman Andrews point. You know, I raised the 
question similarly out there, is what has happened to both the 
military that we have trained? Because we have gotten numbers 
here. They are not there, they say, including an intelligence 
agency. Those numbers aren't accurate, and as for the police, 
also.
    And so the question I asked for both was, how many have 
gone to the other side? Or how many don't show? And the answer 
we got there was, we are doing a study on both. You know, and, 
again, I come back to the--I was more concerned about the 
threat side of it than just we have trained and wasted money.
    Again, it comes--I think you said it well, sir--you know, 
it is all in the planning. And this is a new world, but it is 
got to have the ready resources. And if contractors are to be--
you know, I mean, I have watched 30-some years, as contractors 
weren't there, and you just deploy without them anymore. And it 
is a missing piece with the resources for the contingency.
    Thank you.
    Mr. Meehan. Thank you.
    I want to thank our distinguished panel for--excuse me, Dr. 
Snyder.
    Dr. Snyder. May I make a final comment?
    Mr. Meehan. Sure. Dr. Snyder.
    Dr. Snyder. I wanted to make two quick comments, if I 
could, Mr. Chairman. The first one is with regard to one of the 
questions I had, and then some other members, several of you 
wanted to do statements for the record, answers for the record. 
And I hope you will do that in a timely way.
    It is not good enough that you send it to the Office of 
Management and Budget (OMB) or whatever and sit there in the 
bowels of OMB until, you know, the eons of time. And so I hope 
you will work to see that those answers come and that whatever 
gets scrubbed out by OMB actually says what you intended it to 
say.
    The second thing I wanted to say, Mr. Chairman, if I might, 
since we are doing this debate and vote on the supplemental, 
the discussions about the contractors. I think there has been a 
lot of misstatements about what has been in the House version 
of the bill, including the version we are going to vote on 
today, but there is no limit in the House bill that Ms. Pelosi 
has supported, no limit on the number of U.S. citizens that can 
be there, either contractors or non-military personnel, and 
even more importantly there is no limit on the number of U.S. 
military combat troops that can be there to protect any U.S. 
citizen.
    And I heard again in a report on a radio station this 
morning that it starts the date for the withdrawal of all U.S. 
combat troops. No, in fact, the President may decide, if he 
were to sign this bill, which he says he is not going to, he 
may decide, ``You know, I actually need 200,000 troops to 
protect the judges and all the State Department people and the 
veterinarians from Arkansas that are there.''
    And no one wants to put any of these civilian contractors 
at risk, and there is no limit on a number of combat troops the 
President can have there to protect those folks and your 
people.
    Thank you, Mr. Chairman.
    Mr. Meehan. Thank you, Dr. Snyder.
    Ranking Member Akin asked me to ask Mr. Swartz how many 
active or actually houses of courts there are right now in 
Iraq?
    Mr. Swartz. I am sorry, Mr. Chairman, how many active 
courts there are?
    Mr. Meehan. Courts or courthouses.
    Mr. Swartz. I will have to get--I will get you that answer 
for the record.
    [The information referred to can be found in the Appendix 
beginning on page 135.]
    Mr. Meehan. Okay. Thank you.
    Thanks very much to all of you, and thank you for your 
service to our country. And thank you for participating with us 
this morning. Thank you.
    We are going to take a two- or three-minute break while the 
new panel, second panel comes up. Thank you.
    We would like to begin our second panel, if we can, because 
we are behind. And my concern is that there is going to be a 
vote somewhere around 12 o'clock, a little after. And one of 
the panelists has to leave, so I am sure that we would come 
back after votes.
    I want to thank the panelists for appearing.
    And I would ask, Dr. Avant, if you could begin with your 
testimony. Thank you.

STATEMENT OF DR. DEBORAH D. AVANT, PROFESSOR, POLITICAL SCIENCE 
 AND INTERNATIONAL AFFAIRS, DIRECTOR, INSTITUTE FOR GLOBAL AND 
      INTERNATIONAL STUDIES, GEORGE WASHINGTON UNIVERSITY

    Dr. Avant. Yes, Chairman Meehan and members of the 
committee, I thank you for having me here. And I want to speak 
much more generally about the use of contractors to train 
security forces.
    We all know that effective security forces are key to 
stable government, but we are not always clear about exactly 
what effective force means. A minimum condition for state 
building is security forces that not only have certain 
capacities--ability to shoot straight or, you know, arrest a 
criminal--but also some sort of coordinated, if not 
centralized, political control, and some modicum of respect for 
professional military and/or law enforcement values.
    As you can imagine, creating these forces is quite 
difficult. Even when the training is carried out by U.S. 
forces, there are several common difficulties. Often, the 
training isn't right for the threat; it is hard to coordinate 
civilian, military and police forces for counterinsurgency 
missions; political direction from fledgling civilian 
governments, host governments, is often opportunistic, aimed at 
partisan rather than public goals; professional values are hard 
to put in practice, particularly against irregular opposing 
forces.
    And the U.S. itself often has many sub-goals in a conflict, 
where the pursuit of one goal might undermine the pursuit of 
others. For instance, U.S. forces working with warlords in 
Afghanistan to gain access to al Qaeda hideouts, one U.S. goal, 
has worked against President Karzai's efforts to consolidate 
control over the country by training a national Afghan army, 
which is, of course, another U.S. goal.
    Now, the ability to contract with private security 
companies for training undoubtedly augments U.S. forces. The 
use of private security companies offers a variety of other 
benefits, as well, but also some risks that generally 
exacerbate the difficulties with training that I just 
mentioned.
    So this morning, I just wanted to outline the benefits and 
risks of using contractors and how they impact the general 
difficulties of training foreign forces. And I will end with a 
brief comment about ways in which this might be ameliorated.
    First of all, the benefits. Private security companies can 
draw from a deeper pool of personnel and personnel with 
specific experience. We heard this morning talk about language 
experience and things like that. Contractors are able to pool 
from those kinds of experiences more easily.
    Second, contractors can provide greater stability in 
training programs. Often, troops rotate in and out, and 
contractors can stay for a longer period of time.
    And finally, and somewhat ironically, contractors can 
actually move personnel through the field more quickly. It is 
sometimes easier to mobilize contractors for a surge capability 
than it is to actually redeploy U.S. forces.
    There are also some risks. The first is that contractors 
are--and I use a quote from many, many people in the Pentagon--
``rigid tools for fluid environments.'' The contract specifies 
what has to be done and payment to be received for a specific 
period of time and a specific set of tasks. Even if U.S. 
priorities change, the contract enshrines the original 
agreement and the exchange costly.
    Second, contractor services often pose difficulties with 
coordination and integration, and I will talk about that more 
in a minute.
    Contracted training services are more subject to political 
opportunism. Contracted training is difficult to monitor and 
control. And contracted training can be more costly, 
particularly in risky or uncertain environments, such as Iraq.
    So how do these benefits and risks affect the sort of 
general training problems? First of all, in terms of getting 
the right training, the private sector's ability to mobilize 
personnel from a deeper pool with access to a wider variety of 
skills can give them better access to the right trainers.
    Contracting makes it harder, though, to asset the fit 
between contracted training and force needs. Often, the 
contractor is the main source of information about progress, 
and the contractor may withhold information, or the contractor 
may not understand U.S. goals well, or they may just be 
inadequate communication channels from the contractor to U.S. 
policymakers.
    Second, in terms of coordinating civilian, military and 
police forces, the additional risks posed by contracting loom 
very large here. The very fact of contracting often divides 
what should be an integrated set of policies into a number of 
discrete tasks, but each one task is interdependent with the 
other. And how to write contracts to ensure that communication 
and coordination with a variety of different entities is often 
very difficult and is particularly the case when events on the 
ground change in a way that the contract has not anticipated, 
which is common in experiences like Iraq.
    Unlike U.S. forces, which are placed under a commander in 
the field, contractors are ultimately subject to the contract 
rather than the commander. In one important way, however, 
contracted for training can provide some advantages in 
coordination, by generating greater stability of personnel 
during the training by contracting them for a longer period of 
time.
    Third, in terms of opportunistic political direction from 
civilians. While the efforts of U.S. troops are not impervious 
to this dynamic, private security companies are much more 
likely to feed into opportunism. This was apparent in the 
creation of the facilities protection services in Iraq, as well 
as various police units.
    And I think there are really two kinds of opportunism at 
work in Iraq. One is very dangerous potential for a diffusion 
of control over force that could result in the development of 
parallel forces. And here I am talking about the police forces, 
national police forces, subject to rule by the Ministry of 
Interior, and stressed between the Ministry of Interior and 
Ministry of Defense.
    And the second is lower-level corruption, where officials 
pay kickbacks to their superiors and ghost soldiers line the 
pockets of politicians. And this second problem is exacerbated 
by the degree to which governance is by local and tribal 
religious leaders can take precedence over or is simply not 
well coordinated with the Iraqi constitution and Iraqi law. 
Both of these kinds of opportunism work to undermine training 
efforts, and often they work together.
    In terms of professional values, this obviously has been an 
issue for U.S. forces in Iraq, but much more so for 
contractors. Though many private security companies draw from 
retired military personnel who are well socialized in 
international values, because contractors are not subject to 
the chain of command, the reliability of their behavior is not 
reinforced, as well. Many report a rather cavalier attitude 
among private security personnel in Iraq for international law.
    Also, though, the U.S. contracting pattern in Iraq has 
relied on some companies that have recruited much more 
internationally. This has yielded a more heterogeneous set of 
employees and companies that may respect different values or 
less attention to the professional values that American troops 
represent in training. And specifically, I would, again, 
reference the U.S. contract with the Jordanians to train the 
facilities protection force.
    Even if professional values are modeled in training, they 
also have to be reinforced with promotions and other rewards in 
service. If personnel are reported for professional behavior, 
the organization will yield more professionalism, but also the 
reverse. But political opportunism by Iraqis has often led this 
not to be the case.
    There is one example I mention in my remarks where a 
contractor was aware of and reported infiltration of police by 
militias, but political sensitivity led the government--in this 
case, the British government--not to act, and this is really a 
communication and coordination problem. And then when the 
police chief was fired for telling the press about the militia 
infiltration, on the advice of the private security company, 
the contractor felt that its efforts had been dramatically 
undermined.
    Finally, contractors often use a complexity of U.S. goals 
to advantage the pursuit of contracts in ways that further 
undermine the integrity of U.S. policy.
    So what to do? There is a lot of focus that has been at a 
very micro-level of trying to get accountability on individual 
contracts, and that is very important. And I think a lot of the 
legislation that Congress has issued already has made strides 
in working on those issues, but I think it misses the bigger 
point: that contracting often disaggregates a mission to the 
point where it is not coordinated and integrated. So 
contractors can follow the letter of the contract and still not 
yield well-trained troops.
    I suggest in my remarks that sometimes it is possible to 
counteract this, what I think is a much more serious problem, 
there is a larger umbrella that can coordinate norms and 
standards for forces with enforcement tools for all actors 
involved. And I reference Europe, and particularly NATO, in the 
Partnership for Peace program as one example of an umbrella 
like that, that has generated that kind of framework.
    And I look at the private training in Croatia as an example 
of a fairly effective use of private trainers, in a situation 
where you might not imagine it would be all that effective. 
This is mostly for the Army. Partnership of Peace does not deal 
with the law enforcement side.
    But I think that, in addition to sort of thinking about 
getting a handle on the sort of micro-issues, of making sure 
contractors are accountable, you also have to think about these 
macro-issues of coordination and what kinds of tools might be 
available.
    Obviously, there are huge differences between conditions in 
Croatia in the mid-1990's and conditions in Iraq today, and I 
would say that these differences offer little optimism to me 
that the same kind of framework can be devised. But some sort 
of larger umbrella within which to coordinate training for 
Iraqi security forces and incentives for Iraqi civilian 
government would undoubtedly be helpful for steering the 
overall training effort.
    And this kind of umbrella should, at the very least: 
specific model behavior for both civilians and military 
personnel; ensure that the model and the training centralizes 
rather than diffuses control; tie continued support of the 
government and each contract to institutional milestones; take 
advantage of regional agreements and international institutions 
to nest the reinforcements for this model, and this echoes some 
of the arguments made in the Iraq Study Group report; and focus 
on the long term.
    Thank you.
    [The prepared statement of Dr. Avant can be found in the 
Appendix on page 98.]
    Mr. Meehan. Thank you.
    Mr. Brooks.

   STATEMENT OF DOUG BROOKS, PRESIDENT, INTERNATIONAL PEACE 
                     OPERATIONS ASSOCIATION

    Mr. Brooks. Thank you very much. Thank you for the 
opportunity to provide an industry perspective on the critical 
issues highlighted in this hearing. The role of the private 
sector is too little understood and too often treated with 
suspicion.
    About ourselves, the International Peace Operations 
Association (IPOA) is a non-profit, non-partisan, 
nongovernmental association of service companies providing 
critical services to peace and stability operations worldwide. 
We have more than 30 member companies providing services, 
including training, logistics, security, aviation, mine action, 
and medical support. We represent a demand-driven industry, 
providing cost-effective services in some of the most dangerous 
environments imaginable.
    This testimony will provide some background information and 
explain why our government utilizes these companies to enhance 
policies and ways the government could be a smart client.
    First, I want to be clear. The leadership, initiative and 
oversight of the training effort must come from the governments 
of the United States and Iraq. While some of the actual 
training can be done by U.S. military and government employees, 
a significant portion of the expertise, resources, and hundreds 
of the experienced long-term personnel doing the hands-on 
training and mentoring are necessarily going to come from the 
private sector.
    This is a concept where an effective public-private 
partnership is simply indispensable. Indeed, it is 
inconceivable that success could be achieved any other way. 
Attempting reconstruction and redevelopment in the face of an 
ongoing conflict is necessarily difficult, and nothing quite 
like the operation in Iraq has been attempted in the past.
    The closest parallel might be the Civilian Operations and 
Revolutionary Development Support, the CORDS program, in 
Vietnam, which did show a surprising degree of success in the 
face of constant attacks by the Vietcong, but only with an 
astonishing level of national commitment, which we do not have 
today.
    While there are a number of actions that can be taken to 
improve the training process, the ultimate success of Iraq 
depends on dramatic political improvements in that country, as 
well. Simply put, a professional security sector is not a 
replacement for a functioning government, and it is 
inconceivable that a functioning government could survive long 
without a reliable security sector.
    The private sector has been active in the training process. 
And if called upon, they will increase its role even more. In 
the years since 2003, much has been done to increase and 
improve the security sector training capacity. At the same 
time, much has been done to address the contractual and 
oversight problems that are inevitable in any operation on this 
scale.
    We need to get it right. The private sector is playing a 
critical role and will be an essential player during and beyond 
any withdrawal.
    Why do we use the private sector? Well, first of all, I 
think contractors are cost-effective. Contractors are veterans 
and ex-cops that live side-by-side with the military personnel 
in the same dangerous, rough conditions. They provide an 
astonishing degree of experience and expertise. They usually 
stay in the country longer than the troops, and Dr. Avant 
addressed that point.
    Surprisingly, they cost the government far less in the long 
run. U.S. troops have some astonishing capabilities, but they 
cost somewhere around $15,000 per month per soldier in Iraq.
    Contractors have staying power. Military personnel have to 
be rotated in and out while contractors can serve multiple 
years, and the companies can establish greater continuity of 
programs and doctrine. At the same time, they are remarkable 
resilient. As we say, contractors are risk managers, not 
morons. They can take a certain amount of risk. And we were 
seeing early predictions by pundits that the private sector 
could not operate in dangerous environments have been pretty 
much thoroughly dispelled. Contractors do operate in dangerous 
environments.
    Companies are accountable. Contractors can be and sometimes 
modified contracts can be and are sometimes modified, penalized 
or canceled based on performance and changing conditions. 
Companies must answer to government contract officers, 
providing guidance and oversight and obtain government licenses 
to do military and police training.
    Contractors themselves can be held accountable. The 
Military Extraterritorial Jurisdiction Act, MEJA, allows the 
U.S. Government to try individuals in Federal courts for 
felonies. This law has been on the books for several years, but 
the Department of Justice is only now beginning to exercise it 
appropriately in Iraq. Another alternative that has been raised 
is a use of the Uniform Code of Military Justice, but I think 
there are some problematic issues with that. I think MEJA is 
the way to go, and we supported expansion of MEJA in the past.
    Contractors can expand their operations. Companies are able 
to tap into huge pools of expertise, and most companies have 
databases of thousands of individuals with a full array of 
skills, expertise, experience, languages, all of which can be 
brought to bear in support of our policies.
    I think there are some areas for improvement. To maximize 
the value, both the Department of State and Department of 
Defense must improve oversight capacities and capabilities in 
general. This is a common refrain and one the industry strongly 
supports. Good oversight benefits both the companies, as well 
as the clients. And problems with oversight has been a number-
one client of IPOA member companies since 2003.
    Contract coordination between the government departments 
needs to be improved. Companies are concerned that the 
Department of Defense contract officers and Department of State 
contract officers do not communicate enough, nor do they 
operate with the same rules, creating cost and complications 
which have negatively impacted on performance.
    Quality matters. Too much emphasis is placed on contract 
price, when better quality companies are more effective at 
achieving policy objectives. Contracts awarded with too much 
emphasis on price can reward marginal companies and undermine 
more experienced and professional firms. IPOA members agreed to 
abide by an industry code of conduct and want some credit for 
that, as well.
    The means of law enforcement can be improved. Impartial 
investigations into allegations of corruption and abuse benefit 
the larger industry in the long run, and we fully support that 
kind of oversight and accountability.
    I think, in the larger picture, we have the best support 
and supplied military operation in history in Iraq. And this 
fact is largely due to imaginative and effective use of the 
private sector. There are a lot of things that can be fixed and 
improved, but we should not ignore that basic fact. Private 
companies are being contracted to support and enhance 
government policies around the world. There is no reason we 
cannot demand that these companies live up to high professional 
and ethical standards.
    From an industry perspective, we fully support effective 
oversight and accountability. It is good for good companies. 
Getting this aspect right is something you folks can help with.
    I look forward to your questions.
    [The prepared statement of Mr. Brooks can be found in the 
Appendix on page 113.]
    Mr. Meehan. Thank you very much.
    Mr. Burke.

STATEMENT OF GERALD F. BURKE, MAJOR, MASSACHUSETTS STATE POLICE 
 (RET.), FORMER SENIOR ADVISOR, IRAQI MINISTRY OF INTERIOR AND 
                      IRAQI POLICE SERVICE

    Mr. Burke. Good morning, Mr. Chairman, and thank you for 
the opportunity to speak today. In May 2003, I was a member of 
a six-person team of police executives sent to Baghdad, Iraq, 
by the United States Departments of Justice, ICITAP in 
particular, and Department of State, INL's office.
    The police team was part of a larger criminal justice team, 
including corrections and legal executives. My assignment in 
Iraq would last until June 2004. Initially, our team conducted 
a needs assessment of the Iraqi Police Service for the 
Department of Justice and Department of State, and my 
assignment transitioned into being the adviser to the Baghdad 
police chief for the rest of my tour of duty.
    In March 2005, I returned to Baghdad with the Iraq 
Reconstruction Management Office as a national security adviser 
to the Iraq Ministry of Interior, particularly the deputy 
minister for police affairs. That assignment lasted, until 
February 2006.
    It is my professional opinion that the police training 
program in Iraq has been a complete failure. This is despite 
the best efforts of thousands of American police officers over 
the last four years, and the ultimate sacrifice of 17 American 
police officers.
    The magnitude of the mission and the political environment 
of the mission created challenges that exceeded the 
organizational capabilities and capacities of the Department of 
Justice and the Department of State. Many of the lessons 
learned on previous police training missions were either 
ignored or could not be adapted to the mission in Iraq.
    The original assessment team of six members, of which I was 
one, had no ability to move around the country to meet or work 
with Iraq police and government officials. In fact, we were 
overwhelmed with the task of simply moving around the city of 
Baghdad, the city of an estimated 6 million people, with a 
police department that should have been 18,000 police officers. 
In fact, the generals--we have several hundred police generals 
in the Iraq police service that we were dealing with.
    The first additional civilian police advisers, American 
police advisers and trainers, did not arrived until November 
2003, six months after the original team arrived. In November, 
we received our first reinforcements. In November 2003, we 
received 24 members. We added 24 members to the original team. 
By the time my first mission ended in June 2004, we still had 
less than 100 American police trainers and advisers on the 
ground in Iraq.
    A similar situation existed with our equipment. We did not 
receive armored vehicles until the spring of 2004, and then we 
received only two. It is easy in the situations like this to 
look within the agencies responsible for individuals to blame. 
It is my experience, however, as a senior manager in two large 
police agencies, and the former director of the New England 
Institute of Law Enforcement Management, that the causes for 
failure usually lie elsewhere. My experience is that such 
failures usually lay in the system, policies, and procedures 
used to administer the agencies involved.
    By July 2003, the Department of Defense, CPA, and the 
police-training mission had fallen irretrievable behind in the 
key management areas of planning, organizing, staffing, 
budgeting, in coordinating their efforts, and reporting back 
their progress. Ever effort since then, the creation of CPATT 
under military command, the creation of MNSTC-I, the military 
training teams that have gone out to the police department, the 
provincial reconstruction teams, the Iraqi national police 
force, the 3rd Forces, it is called, of commandos and the Wolf 
Brigade, and other units that have been drawn from the 
sectarian militias, the disastrous year of the police in 2006, 
every one of these efforts has been a desperate effort to 
correct for past failures.
    It is my opinion that Federal law, rules and regulations, 
and policies and procedures for the hiring and contracting of 
personnel and the acquisition of supplies and equipment were 
serious obstacles to accomplishing the mission and 
unnecessarily put peoples' lives at risk, including my own.
    It is my opinion that the United States missed a brief 
window of opportunity in the late spring, early summer 2003 to 
work with the Iraqi Police Service to provide a more secure 
environment for the reconstruction effort.
    Thank you.
    [The prepared statement of Mr. Burke can be found in the 
Appendix on page 123.]
    Mr. Meehan. Thank you, Mr. Burke.
    It is interesting. The first time I visited Iraq was in the 
summer of 2003. I came back, and I said, ``We have a window of 
opportunity to win the hearts and minds of the Iraqi people, 
and that window is closing.'' It is amazing. Your testimony 
just reinforces everything that I know and everything that has 
been written.
    The question, I guess, is, where do we go from here? 
Professor Avant, in your prepared testimony, you noted that, 
``With different entities training the various armed services 
in Iraq, the potential for coordination difficulty obviously 
goes up.''
    Mr. Brooks, you note that, ``The contract coordination 
between the government departments has to be improved.''
    All of you, I think, had a chance to listen to the first 
panel. And, Mr. Burke, you have just articulated what was going 
on, on the ground and in the theater.
    How was the way in which this mission has been split up 
between different agencies and contractors in Iraq affected the 
training of Iraqis? And what specific recommendations would you 
make to improve coordination, management and oversight?
    And in light of Mr. Burke's testimony, I guess the question 
is, how do you undo--I mean, we missed a window, and we didn't 
make adjustments. So I guess, in addition to insight that you 
could give, or specific recommendations to improve coordination 
and management and oversight, I guess I would be interested, 
Mr. Burke, in what any other insight--the question of what we 
do now.
    Mr. Burke. Well, I think part of the problem is that we put 
command of the police training program--and I want to 
differentiate. We sometimes use the phrase ``Iraqi Security 
Forces,'' and that is kind of catch-all phrase. It really 
blends a military force with a civilian rule of law force.
    If we want to establish civilian rule of law in the country 
of Iraq, then we can't keep calling it security forces, because 
the military and the police have two entirely different 
missions.
    Mr. Meehan. But you know why we call them security forces? 
We call them security forces because, when we lump them all 
together, it sounds like there is a lot more of them.
    Mr. Burke. Yes. And part of the problem, I think, is we put 
command of the training of the civilian rule of law police 
under the military, in particular combat arms people from the 
infantry, artillery and armor forces, who are trained to close 
with and destroy the enemy. That is not what we do in civilian 
law enforcement.
    I have been in meetings with generals, two- and three-star 
generals, where they talk about maneuver elements. Well, my 
frame of reference is a police officer, and maneuver element is 
a two-man patrol car, not a brigade of troops. So I think we 
need to re-look at that.
    The military still has to be involved. We need them for 
protection and transportation. But the command of the police 
training program should be put back under civilian 
professionals.
    Mr. Brooks. One of the ideas that has come up is the State 
Department's S/CRS office of reconstruction and stability, and 
to have all the sort of state-building reconstruction efforts 
put under one single office. The State office was chosen. I 
don't believe it has been funded by Congress yet, but State has 
been sort of stealing money from other departments to keep it 
going.
    It is not being used in Iraq, to my knowledge, but it is 
sort of designed for the future. And I think it is something 
that we would support. I think, for the contractors, I mean, 
having a single, central source for contracts and coordination, 
I think, would be helpful.
    Dr. Avant. Yes, I think I want to echo something that Mr. 
Burke said. In even preparing and in reviewing the efforts that 
the U.S. did with police training in Kosovo, one of the things 
they noted was the importance of having civilian police 
principles and having civilian police training that is separate 
from the military.
    And that was one of the lessons that they took from Bosnia, 
so that goes to sort of--not necessarily folding the lessons we 
have learned from past wars into the future. But I think the 
idea of coming up with principles for police training and 
having those principles not only train officers, but you are 
also training the whole set of civilians, you know, 
politicians, rule-makers, bureaucrats, and, you know, sort of 
targeting that civilian sector is something that we, as a 
government, the U.S. Government, does not have a coordinate 
effort doing.
    And I know Bob Perito, who actually was, you know, the 
person who thought of using DynCorp in the first place in 
Haiti, because there was no other way to get international 
civilian police force to Haiti, has criticized the fact that 
the U.S. Government has not sort of developed a planning agency 
for doing that kind of thing in the future.
    And so the fact that we outsource to DynCorp, we sort of 
outsourced the ideas to DynCorp, too, and DynCorp, you know, as 
a company has now developed the kind of institutional memory 
that you would expect the U.S. Government to. And so I think 
that a lot more could be done, in terms of that kind of ongoing 
planning.
    Mr. Meehan. But with the escalation of violence since 2003, 
doesn't it become extraordinarily difficult to set up any kind 
of--how do we get better at this, with violence going up at 
such a rapid pace of a period of time? How do we deal with 
that?
    For example, I don't know--Mr. Burke, I assume you were 
here. We were talking about the Jordan police training. I am 
interested in your insight. But it is remarkable to me that, as 
violence goes up, that we are now doing the training at 
facilities in Baghdad. And I tried to get the tour on the last 
trip that we took, those facilities in Baghdad, but we were 
unable to do that.
    I wonder how you accomplish legitimate police training and 
legitimate policing in an environment where, obviously, the 
violence is that of a civil war?
    Mr. Burke. It is very difficult. The Baghdad police 
academy, I think it was in August of 2004, took over 300 mortar 
rounds in that one month alone. So it is very difficult to 
teach in that kind of an environment, with----
    Mr. Meehan. So why would they want to bring the police 
academy--why would they want to train police in Baghdad rather 
than Jordan, in their facility?
    Mr. Burke. It came out of a sense of national pride. The 
Iraqis felt offended that they had to go outside their country 
to provide training. They have pride in their own educational 
level. They think they are among the most educated in the 
Middle East, and they felt it was demeaning to go outside the 
country for training.
    Mr. Brooks. It is incredibly difficult to do anything in 
Baghdad. If you are working in the red zone, you are lucky to 
have two meetings per day, whereas in Bosnia or--I visited 
Kabul, and you could do a lot more. I mean, simply, the 
security situation is so difficult in Iraq that getting 
anything done, police training, rebuilding hospitals, whatever, 
is just insanely difficult.
    Dr. Avant. Yes, at this point, I think any police training 
has to be part of a general counterinsurgency effort. 
Successful counterinsurgency efforts, particularly those that 
involved an intervening country, typically would involve 
committees that would have civilian representatives from both 
the U.S. Government and Iraqi government, also representatives 
from the military of both entities, and representatives from 
police of both entities.
    I think, you know, sort of, if you look at the--emergency, 
the attempt in CORDS, that is the sort of structure with which 
you begin to operate. And so, even though you would train 
police separately by different principles, presumably that are 
in a same place than an unsafe place, the way that you actually 
begin to get control over the country is actually integrating 
the effort of civilian police and military units.
    What you do with the national police force is another 
question. You know, I think that that is probably--you know, I 
understand why it was created, but if you sort of look at 
countries emerging from transitions around the world, having a 
national sort of paramilitary force is not always a good idea 
for stable nation-building.
    Mr. Meehan. Dr. Snyder. I don't know if you were in the 
queue, but----
    Dr. Snyder. The queue, that is right. Thank you, Mr. 
Chairman.
    Mr. Burke, I was struck by your statement, the desperate 
effort to correct past failures, which I think has been very 
discouraging for the American people, for the Congress. I 
remember back when during one of the hearings we had several 
years ago with Ambassador Bremer, and I think it was in 
response to my question when I said, ``You know, what is it 
that you need?'' And he said, ``Patience.''
    Well, okay, I think the American people have been very 
patient, and so that is why we are kind of desperately asking 
for State Department or military, whoever. What does the 
Congress need to do that we haven't done to try to make this 
thing work?
    I think one of the issues is--I mean, the obvious issue is, 
this is not like ``The Sword and the Stone,'' in King Arthur, 
where somebody tries and it doesn't move, and the next person 
tries and it doesn't move. It is that you don't get a second 
chance at what was there last month, because this month is 
different.
    And we now look back to almost with, you know, halcyon eyes 
of what it was like when U.S. troops first went into Baghdad 
and how much we all wished that we had provided the immediate 
kind of security, and not let the looting occur, and deal with 
the Baathists in a different way, and how much different it 
might have been, but we can't go backwards. And so we are 
having to deal with the situation we are now.
    I wanted to ask a specific question. I am not trying to 
draw you in to the supplemental debate about timelines and all, 
but I have some contractors in my district, as well as military 
veterans, some contractors of both Afghanistan and Iraqi 
experience. And one of them came to me not long ago and, after, 
I think two tours in Iraq as a contractor, and he said--he 
began by prefacing this thing by saying, ``You know, I am more 
supportive of the war in Iraq that Dubya,'' you know, and that 
was preface up to say that he was not being critical of the 
issue to go in.
    But he said, ``I, for a long time, was not supportive of 
any kind of timeline and deadlines,'' but he said, at his 
level--I think I am addressing this to you, Mr. Brooks and Mr. 
Burke--but he said, at his level, he said, ``Not at the high 
level of the President calling up Maliki or anything like 
that,'' but at his level of just dealing with people out in the 
community, he said the people he dealt with felt like the 
Americans were a gravy train, that, you know, they were getting 
paid to come and attend these conferences, and meetings, and 
training sessions that he was providing.
    And, you know, he said, they just look at him and--you 
know, he would say, ``We have a deadline. We need to get this 
to work.'' And he said they just look at him, pat him, and say, 
``You Americans will never go anywhere. We know you are not 
going anywhere. You are going to be here for a long, long 
time.'' And he described it as a gravy train.
    And so my question is, do you all have any experience--
perhaps not in Iraq, but elsewhere--is it helpful when you are 
sending in contractors that they have, that they present to the 
folks they are working with, ``We have a certain time period to 
do this, and if you don't get it right, we are moving onto 
another group of people''? Do you have any comments on that?
    Mr. Burke. I think, as far as the mission and doing it over 
sort of approach to it, I think we have been doing the military 
mission over and over. What we haven't done is taken a good 
look at the other two legs of this three-legged stool, if you 
will.
    One is the government side. We have not done a lot of 
training with the government officials. I know at one point, 
about six months ago, we had one permanent State Department 
employee and two contractors working in the prime minister's 
office. So we haven't really done a lot of training of the 
government officials. They haven't come to the United States 
for programs. Even before the government was established, we 
should have been training them.
    Also, the economic package. We still have about 60 percent 
unemployment in Iraq, probably 20 percent underemployment on 
top of that, where doctors, and dentists, and lawyers are 
working as interpreters rather than their primary profession. 
So I think we need to look, not just at the military solution, 
which is what we always focused on--maybe because it is easier 
to understand--but we have to look at the governance and the 
economic package, as well.
    If I could just sort of slip back to the time frame issue, 
for police training, what we are looking at is a generation of 
police officers. As we call back the old police officer who 
worked under Saddam, you can't just put them out on the street 
without a paycheck. You need them, because they could be 
problems like the Iraqi army was. So we bring them back in.
    We have trained them, and we want to retrain them, and 
continue to retrain them, the veteran officers, as well as 
bringing in new recruits. Then we retire the older officers and 
we keep bringing in, over the course of a generation, new, 
young officers who are trained the proper way, from the 
beginning.
    So I would say a generation is what we need in the police 
market.
    Dr. Avant. If I could just add to that, I think, in terms 
of not just a timeline, but having some mechanism to punish 
failure to develop is important. And in Croatia, it was very 
important to be able to freeze the training funds. And so the 
threat of a freeze even would often create movement, even in 
Tudjman's government, in ways that would be very useful.
    And so I think, even if you are not talking about a 
timeline, talking about some sort of institutional milestones 
and some amount of money that is tied to that, or resources 
that are tied to that, is very important.
    Dr. Snyder. Secretary Gates has been candid, both with 
Members of Congress, but also publicly about, while he doesn't 
agree with the House Democratic bill, that the debate has 
helped nudged the ball down the field a little bit, and we have 
a good cop-bad cop thing.
    Thank you, Mr. Chairman.
    Mr. Meehan. Thank you.
    Mrs. Davis.
    Ms. Davis of California. Thank you, Mr. Chairman.
    Thank you for being here. I am sorry I missed some of the 
early testimony, but I will try and follow up and take your 
comments from your written testimony.
    I would like to go to the question--and I know you were 
here when we discussing with the first panel--you just 
mentioned a generation to train the Iraqi police. Do you 
believe that, in what you thought of our trainers, five years 
experience that was requested, and what kind of training do you 
think they got to be trainers? And are we developing, 
basically, the capacity to do that kind of training?
    Mr. Burke. First, we need to divide the training concept up 
into two. We have classroom trainers who are, you know, 
platform instructors. And they come under the MPRI contract, I 
believe, right now. It had been SAIC. And they work under 
ICITAP, Department of Justice. And that is the cost-plus 
contract, where they are able to set standards for the people 
they want to employ, and then the contractor gets the cost of 
the employee, plus a profit margin, whatever that is.
    The other contract, which I think is still held by DynCorp, 
is a competitive, low-bid contract, where it is in DynCorp's 
interest to perhaps lower the price paid to the employees that 
they are hiring. And these are the advisers who are going out 
on the streets, who are running the streets of Baghdad and 
Iraq. It is where the 17 of them have been killed, so I want to 
be careful how I say this, but I think we could do better, 
perhaps, raising the standards of the people who are going into 
that advisory role, going out in the police stations.
    If you are at 5 years as a police officer and you are 
walking into a police station and trying to advise a 25-, 30-
year veteran, police colonel, he is going to look at you as a 
5-year--you know, he knows you are obviously young, if you have 
only 5 years on the job. And you are not going to have quite 
the same impact if you come in with the years of experience 
that the classroom instructors have. So I think we could 
perhaps----
    Ms. Davis of California. What about cultural training, as 
well? I mean, were we really providing them with what they 
needed? I am assuming that very few of them spoke out, I 
expect. Were we providing them on the other end what is needed 
to be able to understand the culture that they are working?
    Mr. Burke. We are providing some training, but very minimal 
training. I know, at the beginning, we didn't get any training. 
A week at Fort Bliss, mostly some medical checkups and x-rays 
and stuff like that, and then we deployed. So it was sort of, 
for the original team, learning on the fly.
    But, yes, we could do better. And I think if we look at 
this plan that the State Department is considering, we could 
build into that cultural training, cultural awareness for, you 
know, whatever size this reserve corps is going to be, and have 
some of them train for different parts of the world, much like 
the SF, the Special Forces community in the military does, 
where they have teams designed for specific theaters.
    Ms. Davis of California. Is the State Department going to 
you for consulting on that at all?
    Mr. Brooks. To me?
    Ms. Davis of California. Yes, please, go ahead.
    Mr. Brooks. Well, I was just going to say, on the cultural 
training, I think that is becoming a larger component. I think 
it is important.
    And it is interesting. For example, Blackwater actually 
trains as a training course, where they do intensive Iraqi 
Arabic and Iraqi customs and things for contractors, because 
they see it as a valuable, I guess, mechanism for their own 
people. So it is actually got some value, and I think that is 
an aspect that I think contractors are going to get into much 
more.
    Ms. Davis of California. Yes, well, we certainly know. I 
mean, we have been to Fort Riley, in terms of the embedding 
with the military, and what that role will be, but I wasn't 
certain whether we were developing that kind of capacity, if 
you will, at our training level, when it comes to the----
    Mr. Brooks. It can be put into contracts that a certain 
amount of training goes into anybody who deploys. I think that 
would be appropriate. I mean, to a certain extent, you don't 
know where the next deployment is going to be. We already have 
contractors, I think, in Somalia now, supporting the African 
Union. We have contractors in Darfur. We have contractors in 
Congo. So you can't train everybody for everything, but you can 
either find people that have background or you can have, you 
know, require within the contract a certain amount of training 
in certain areas.
    Ms. Davis of California. Did you want to say something, Dr. 
Avant?
    Dr. Avant. I was just going to point out the difference 
between--I mean, the training that DynCorp employees get, that 
are the police advisers, is not the kind of training that Doug 
was talking about, in terms of cultural awareness.
    I know that there were complaints about the training 
capacities of many people, even in the Balkans. And I think, in 
Iraq, it is a very different kind of environment, where you 
have the degree of tribal and religious law that is operating 
alongside the system of law that we are trying to create, in 
terms of sort of the law enforcement.
    And so the training, I would imagine, for the kinds of 
police advisers that you would need would be quite a bit 
greater in the Iraqi context. So, you know, that would be 
another thing that would go into some sort of long-term, 
strategic thinking about having a police force that was able to 
train, would be not just, you know, an eight-day course or 
something in how to deal with people that aren't from the 
United States, but also have certain kinds of issues that 
people would have to face in different parts of the world.
    Ms. Davis of California. If we are going to accept the idea 
that we are always going to need both contractors, as well as a 
military force and a police force, perhaps, assisting in some 
way, then we need to do this differently.
    Dr. Avant. Right. And we don't have--I mean, with many of 
the contractors in the military, you can decide. Do you want to 
send people from the Army or do you want to send contractors? 
But the United States doesn't have a deployable international 
civilian police force, and so that--you are really are 
deciding--contractors.
    What would be good, if you were going to do that, is at 
least have some sort of agency in the government that is in 
charge of thinking about strategically, rather than using the 
contractor for the strategic thinking, as well as the 
deployment.
    Ms. Davis of California. Is that part of the civilian 
corps? You heard them mention the State Department is looking 
to kind of development of civilian corps. Is that kind of----
    Dr. Avant. Well, this was in Bush's State of the Union 
address. And I don't think anyone knows exactly what is going 
on in that office, or no one that I have talked to, so I don't 
know, you know. I hope you all have him up and at least the 
testimony.
    Ms. Davis of California. Any other response to the 
testimony that you heard, that you would like us to know about, 
that was a concern to you, or you would like to emphasize?
    Mr. Brooks. I think I would emphasize, actually, the aspect 
of--when you use contractors, they will use as many local 
employees as they are allowed to use, which is actually quite 
good, in terms of redevelopment. Now, with the police, it is a 
little bit different, with the police training.
    But, you know, when you are doing reconstruction work, when 
you are doing security, you want to use as many locals as you 
can, which is good for the economy, which is training, which is 
all sorts of long-term benefits.
    When I was doing my academic research before IPOA, I was in 
Sierra Leone, and PAE was one of the contractors there. They 
had eight Americans, and I think it was 400 Sierra Leoneans 
doing all the logistics and support. And everything in that 
U.N. operation that was fixed, or moved, or done was being done 
by these PAE employees, these Sierra Leoneans.
    And it made a lot of sense. And it is a real benefit, I 
think, you get from contracting.
    Mr. Burke. It is a situation that only just hadn't happened 
in Iraq. Most of the contractors--country nationals were coming 
in from other countries to work in Iraq. Now we are starting to 
hire some locals.
    I think, for a while, it was a security issue, but now we 
are looking at the benefit of hiring locals and putting money 
into the local economy as outweighed by the risk, if you manage 
the risk well.
    Dr. Avant. Yes, I would just add to that, that, you know, 
as you might worry about people who are being trained without 
background checks that are sort of going off to fight in the 
militias, when the United States leaves Iraq, it will leave 
whatever capacities its imparted to local people, under the 
control of whatever civilian leadership there is.
    And so I think that it is--you know, I completely agree 
that it is wise to use locals, but it is also wise to pay 
attention to the kind of structure, the political structure 
that they are operating under. And that just goes back to the 
whole issue of training, you know, not only people working in 
the national government in Iraq, but also local government 
officials.
    If you are going to have a police force that can do certain 
kinds of things, and yet it is responsive to a local government 
that isn't acting the way local governments act or we would 
expect them to act, then you are going to have a lot of 
problems.
    Ms. Davis of California. Thank you.
    Mr. Meehan. Thank you.
    Mr. Gingrey.
    Dr. Gingrey. Thank you, Mr. Chairman. And I thank you for 
this meeting, this hearing. I know we have had two panels. I 
have not been able to be here for much of it, and I missed a 
lot of your testimony, but thank you for being with us and 
shedding some light, a lot of light on this issue.
    I know Ms. Davis and I went to Fort Riley, as she was 
pointing out. And we have heard testimony from the MiTT teams, 
military transition teams. I think that what she was alluding 
to, and I would certainly agree with this, we need something 
similar to that in regard to the police force. I guess we could 
call it a POT team and get away with that, but something 
similar to the MiTT teams. And Representative Davis and I were 
at Fort Riley, Kansas, and very impressed with what the 
military is doing there.
    I know that, Mr. Burke, you had said in your testimony that 
you have considered the police training mission a complete 
failure, and that bothers me, of course. I just would like to 
know a couple of things that you might suggest--maybe you have 
already done this and I missed it--but in regard to what we can 
do.
    And, you know, you talked about the five-year experience 
level and the lack of credibility if they don't have a little 
gray around the temples with the Iraqis, who have, in many 
instances, a lot more experience. And I understand that, but I 
would think it might be a little difficult to recruit an older, 
more seasoned, near retirement, if you will, police person with 
lots of experience for this very dangerous mission. You point 
out 17 of them have been killed, and I can understand that.
    But, you know, just how do we go about this? And I do want 
to ask this question. I really should know the answer to it. 
What was the police situation in the country before 2003, 
March? And, of course, Baghdad is, I think, a metropolitan area 
of 4 million people, is it not?
    Mr. Burke. A little larger.
    Dr. Gingrey. And, you know, you have one of the largest of 
the cities, not that large, of course, but what did they do 
before? And where are all these people now?
    Mr. Burke. Well, the Iraqi Police Service actually dates 
back to the 1920's, and it was created by the Brits along the 
British model. And up until the 1950's, the chief constable of 
the Iraqi police force was a British officer seconded to Iraq. 
So they have a long tradition of, if you will, our way of 
thinking toward policing.
    Under Saddam, however, he created--he didn't trust the 
police, so he created other security organizations that 
superseded the Iraqi police service and had more authority and 
more power, to the point where, by the end of the regime, the 
Iraqi police service had sort of a fire department mentality. 
They stayed in the police station, waiting for the alarm to 
ring. They did no proactive policing, because they were afraid 
of crossing paths with one of the other intelligence 
operations.
    There are probably 17, or 18, maybe 19 different security 
organizations, if you include, for example, the Olympic 
committee had a security organization that had broad powers 
that would be unimaginable in a democracy. So the police were 
perhaps the 16th or 17th on this hierarchy, but they yet prided 
themselves on their education and their completing the police 
academy.
    When we went in May of 2003, when we walked through the 
academy, we actually found translated documents that were FBI 
law enforcement bulletins that were issued in the 1970's and 
1980's that somehow managed to make their way to Iraq and be 
translated into Arabic. So they did pride themselves on their 
British heritage in wanting to be a democratic-style police 
force.
    In June and early July, we ran a management training 
program for just the generals. And basically what I took is a 
course that I had taught at Boston College and reduced it to 15 
hours. It would have been a semester-long course--and I found 
that, as I was skipping, and, you know, I am making this brief 
presentation, one of the generals or one of them would raise 
their hand and they would say, ``You know, but you forgot 
something.''
    They recognized the course I was teaching, that there were 
things I was leaving out in trying to condense a long semester 
course in a brief presentation. They knew what I was talking 
about, but there was a gap between what they knew and what they 
were allowed to practice under Saddam.
    Dr. Gingrey. Well, again, I ask you the question about, 
where are they now? Where are some of these people? Have they 
resurfaced? I mean, it sounds like there is some real talent 
there that----
    Mr. Burke. There was some real talent there. The ones who 
came back were probably the ones, if you will, with the 
cleanest conscience, and some of them were very educated, well-
educated people, who had gone to school in Eastern Europe 
before the fall of the communist countries. Some of them had 
gone to school in the United Kingdom. One of the deputy 
ministers had gone to school in Japan, and they prided 
themselves a lot on their educational level.
    The ones who came back, some of them had been killed. We 
have had a few of them assassinated, some of my friends that I 
worked with over there. Some of them have been forcibly 
retired, because the new government doesn't want their people 
with their background, if you will. Maybe it is religious 
issues; I don't know. Some of them----
    Dr. Gingrey. Well, let me interrupt you. In that part of 
our re-Baathification benchmark that, you know, we want them to 
give these people an opportunity to come back, do we not?
    Mr. Burke. We do, but I don't think they will. I know one 
major general who used to head up what we would consider the 
rapid response police, the patrol police. He has left the 
country. He is living in Egypt.
    The former police chief of Baghdad, he is now living down 
in Dubai, working down in Dubai. Another major general, who is 
still there in a very important position, e-mails me 
constantly, asking me to help him get out of the country and 
come to the United States as a refugee. So there are many of 
them that, you know, don't want to stay there and who want to 
get out.
    Dr. Gingrey. Mr. Chairman, let me just real quickly--Dr. 
Avant, am I pronouncing it correctly?
    Dr. Avant. Avant.
    Dr. Gingrey. Avant. I am not familiar with a lot of your 
publications, but I was reading your bio, and I know that it 
says that you have been doing some work on how the United 
States government's use of private security affects democratic 
processes in the United States. Can you comment on that just a 
little bit? I mean, you know, a few minutes.
    Dr. Avant. Yes, I am basically gathering a lot of 
information about the way in which the press covers private 
security forces in Iraq versus military forces, looking to the 
issue of transparency. How much do people know about these 
kinds of forces?
    Because, you know, as we heard earlier, you know, private 
contractors have essentially doubled the size of the U.S. force 
in Iraq. And, you know, the degree to which people get 
information about that would be important for transparency.
    I have also looked at something that we call in political 
science veto points, which is essentially the role of Congress 
in deciding on contracts and sort of looking at the deployment 
of forces versus contracting and the degree to which it gives 
power to the executive versus Congress. And there, as I think I 
mentioned at the end of my prepared remarks, it tends to 
advantage the executive branch relative to Congress, at this 
point.
    The third thing that I have done is some experiments that 
look at how people react to the deaths of private security 
versus military personnel in Iraq. So it is trying to look at 
issues of public consent, transparency, and checks and 
balances, in order to sort of understand how our government's 
use of these contractors has affected the processes of 
democracy in the U.S.
    Dr. Gingrey. Yes, but, I mean, in regard to the use of the 
private security contractors, you don't consider that somewhat 
a violation of our democratic process, do you?
    Dr. Avant. Well, I think that if you sort of look at the 
foundation of democracy in the Western world, it came alongside 
the idea of citizen armies. And so there is a very long 
tradition of connecting democracy with some duty and 
responsibility of citizens to both serve, but also be a check.
    And the whole issue of whether contracting separates that 
is actually--I am just writing a paper right now--looking at 
exactly that kind of issue historically.
    Dr. Gingrey. That is very, very interesting, and I thank 
you for that.
    Mr. Chairman, I didn't have anything else. That is great.
    Mr. Meehan. Thank you.
    And I want to thank the members of our second panel for 
your testimony. Appreciate it very much. We would love the 
opportunity to follow up with any of you, should other members 
have questions. But thank you very much for appearing.
    And the hearing is now adjourned.
    [Whereupon, at 12:20 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             April 25, 2007

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 25, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T7889.001
    
    [GRAPHIC] [TIFF OMITTED] T7889.002
    
    [GRAPHIC] [TIFF OMITTED] T7889.003
    
    [GRAPHIC] [TIFF OMITTED] T7889.004
    
    [GRAPHIC] [TIFF OMITTED] T7889.005
    
    [GRAPHIC] [TIFF OMITTED] T7889.006
    
    [GRAPHIC] [TIFF OMITTED] T7889.007
    
    [GRAPHIC] [TIFF OMITTED] T7889.008
    
    [GRAPHIC] [TIFF OMITTED] T7889.009
    
    [GRAPHIC] [TIFF OMITTED] T7889.010
    
    [GRAPHIC] [TIFF OMITTED] T7889.011
    
    [GRAPHIC] [TIFF OMITTED] T7889.012
    
    [GRAPHIC] [TIFF OMITTED] T7889.013
    
    [GRAPHIC] [TIFF OMITTED] T7889.014
    
    [GRAPHIC] [TIFF OMITTED] T7889.015
    
    [GRAPHIC] [TIFF OMITTED] T7889.016
    
    [GRAPHIC] [TIFF OMITTED] T7889.017
    
    [GRAPHIC] [TIFF OMITTED] T7889.018
    
    [GRAPHIC] [TIFF OMITTED] T7889.019
    
    [GRAPHIC] [TIFF OMITTED] T7889.020
    
    [GRAPHIC] [TIFF OMITTED] T7889.021
    
    [GRAPHIC] [TIFF OMITTED] T7889.022
    
    [GRAPHIC] [TIFF OMITTED] T7889.023
    
    [GRAPHIC] [TIFF OMITTED] T7889.024
    
    [GRAPHIC] [TIFF OMITTED] T7889.025
    
    [GRAPHIC] [TIFF OMITTED] T7889.026
    
    [GRAPHIC] [TIFF OMITTED] T7889.027
    
    [GRAPHIC] [TIFF OMITTED] T7889.028
    
    [GRAPHIC] [TIFF OMITTED] T7889.029
    
    [GRAPHIC] [TIFF OMITTED] T7889.030
    
    [GRAPHIC] [TIFF OMITTED] T7889.031
    
    [GRAPHIC] [TIFF OMITTED] T7889.032
    
    [GRAPHIC] [TIFF OMITTED] T7889.033
    
    [GRAPHIC] [TIFF OMITTED] T7889.034
    
    [GRAPHIC] [TIFF OMITTED] T7889.035
    
    [GRAPHIC] [TIFF OMITTED] T7889.036
    
    [GRAPHIC] [TIFF OMITTED] T7889.037
    
    [GRAPHIC] [TIFF OMITTED] T7889.038
    
    [GRAPHIC] [TIFF OMITTED] T7889.039
    
    [GRAPHIC] [TIFF OMITTED] T7889.040
    
    [GRAPHIC] [TIFF OMITTED] T7889.041
    
    [GRAPHIC] [TIFF OMITTED] T7889.042
    
    [GRAPHIC] [TIFF OMITTED] T7889.043
    
    [GRAPHIC] [TIFF OMITTED] T7889.044
    
    [GRAPHIC] [TIFF OMITTED] T7889.045
    
    [GRAPHIC] [TIFF OMITTED] T7889.046
    
    [GRAPHIC] [TIFF OMITTED] T7889.047
    
    [GRAPHIC] [TIFF OMITTED] T7889.048
    
    [GRAPHIC] [TIFF OMITTED] T7889.049
    
    [GRAPHIC] [TIFF OMITTED] T7889.050
    
    [GRAPHIC] [TIFF OMITTED] T7889.051
    
    [GRAPHIC] [TIFF OMITTED] T7889.052
    
    [GRAPHIC] [TIFF OMITTED] T7889.053
    
    [GRAPHIC] [TIFF OMITTED] T7889.054
    
    [GRAPHIC] [TIFF OMITTED] T7889.055
    
    [GRAPHIC] [TIFF OMITTED] T7889.056
    
    [GRAPHIC] [TIFF OMITTED] T7889.057
    
    [GRAPHIC] [TIFF OMITTED] T7889.058
    
    [GRAPHIC] [TIFF OMITTED] T7889.059
    
    [GRAPHIC] [TIFF OMITTED] T7889.060
    
    [GRAPHIC] [TIFF OMITTED] T7889.061
    
    [GRAPHIC] [TIFF OMITTED] T7889.062
    
    [GRAPHIC] [TIFF OMITTED] T7889.063
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             April 25, 2007

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. MEEHAN

    Mr. Meehan. What is the plan to address the poor literacy rate 
among ISF personnel?
    Colonel Raines. All Iraqi police forces complete a literacy 
examination during the recruiting process and individuals must meet the 
minimum literacy standards. For those individuals that need to improve 
their literacy skills, literacy training is offered at certain police 
training centers; however, there is no comprehensive nationwide program 
within the Ministry of Interior.
    Literacy is also a basic requirement to join the Iraqi Joint 
Forces. The Iraqi Joint Headquarters is considering potential programs 
to improve literacy. For example, in Al Anbar province, Coalition 
forces and Iraqi leaders have recently worked with local universities 
to provide focused tutoring for perspective recruits. Currently, 
informal discussions are ongoing between military leaders and 
university staffs to extend a literacy program to soldiers in the Army, 
but no formal agreements have been reached.
    Mr. Meehan. What is the plan to address the poor literacy rate 
among ISF personnel?
    Mr. Motsek. All Iraqi police forces complete a literacy examination 
during the recruiting process and individuals must meet the minimum 
literacy standards. For those individuals that need to improve their 
literacy skills, literacy training is offered at certain police 
training centers; however, there is no comprehensive nationwide program 
within the Ministry of Interior.
    Literacy is also a basic requirement to join the Iraqi Joint 
Forces. The Iraqi Joint Headquarters is considering potential programs 
to improve literacy. For example, in Al Anbar province, Coalition 
forces and Iraqi leaders have recently worked with local universities 
to provide focused tutoring for perspective recruits. Currently, 
informal discussions are ongoing between military leaders and 
university staffs to extend a literacy program to soldiers in the Army, 
but no formal agreements have been reached.
    Mr. Meehan. What is the plan to address the poor literacy among ISF 
personnel?
    Ambassador Patterson. National Security Presidential Directive 36 
(NSPD-36) assigned the responsibility for developing Iraq's security 
forces to CENTCOM. We referred this question to CENTCOM's Civilian 
Police Assistance Training Team, which provided the following response:
    All Iraqi Ministry of Interior (MOI) candidates for positions 
within the civil security forces must be literate at time of entry. The 
MOI recruiting policy states that, ``the candidates must have graduated 
from Intermediate School as a minimum requirement.'' The MOI recognizes 
that illiterate individuals were hired during a period of expedient 
hiring in the provinces and has ordered the provinces to develop 
literacy programs to address this problem where it may exist. CPATT has 
supported and implemented a pilot program for literacy at the Baghdad 
Police College. This program was quite successful and it was turned 
over to the Iraqi Police Service for wider implementation. Provinces 
such as Ninawa (Mosul) have developed and implemented programs to 
address the problem of illiteracy within the ranks.
    Mr. Meehan. What is the plan to address the continuing lack of 
Arabic and Kurdish linguists to serve with U.S. trainers, transition 
teams and partner units four years into the war?
    Colonel Raines. Multi-National Force--Iraq (MNF-I) is not aware of 
any substantiated analysis, data, or recent inquiries that indicate a 
formidable lack of linguists. The latest information from the 27 May 
2007 Linguist Weekly Roll-up indicates that Multi-National Security 
Transition Command--Iraq (MNSTCI) currently has the following linguists 
per the stated requirements:

Arabic Cat 1 Local Nationals: 507 assigned/547 required (93 percent)
Kurdish Cat 1 Local Nationals: 25 assigned/26 required (96 percent)
Persian Farsi Local Nationals: 1 assigned/1 required (100 percent)
Turkish Local Nationals: 1 assigned/1 required (100 percent)

    The Army addresses the requirement for Arabic and Kurdish linguists 
through Soldiers, where available, and through contracting activities.
    The OIF Theater Linguist Manager manages the linguist assets on the 
ground to provide the greatest linguist support possible to each 
element present. The majority of the linguist requirements in Iraq are 
for Arabic speakers and a small percentage is for Kurdish speakers. 
When Kurdish linguists are requested, the requirement is normally for 
dual-language Arabic-Kurdish speakers.
    The following initiatives below represent Army efforts to fill OIF 
theater linguist requirements:
      a. All available Soldiers with Arabic and Kurdish language skills 
currently support OIF operations in accordance with their occupational 
specialties and unit rotations.
      b. In February 2003, the Army initiated the 09L Translator Aide 
Pilot Program to bring additional Arabic language skills and cultural 
expertise into the Individual Ready Reserve. The recruiting effort 
later expanded to include Kurdish and other languages. In February 
2006, the Pilot Program transitioned into the Military Occupational 
Specialty 09L, Interpreter/Translator. Currently, some OIF theater 
linguist requirements, to include the Military Transition Teams (MiTT) 
in Iraq, are supported by available 09L Soldiers.
      c. The bulk of the Arabic and Kurdish linguist support to the 
MiTTs, U.S. trainers and Coalition partner units in Iraq comes from 
Local National contract linguists. MiTTs, U.S. trainers subordinate to 
the MNSTCI and partner units have a current combined linguist 
requirement of 1935. The Theater Linguist Manager is focused on filling 
these requirements and has maintained fill in these elements beyond the 
level of many other OIF units. In February 2007, the total OIF linguist 
requirement was raised to support an increase of forces. The contractor 
is increasing local recruiting efforts; newspaper advertisements, 
flyers, and monetary incentives are being considered to meet the higher 
requirements. The Army continues to provide screening support to the 
local hiring effort and is addressing local recruitment with the 
contractor to improve the overall linguist fill. The Army continues to 
press the current contractor to recruit and retain linguists to achieve 
100 percent of the contract linguist requirements in Iraq and 
Afghanistan.
      d. The Defense Language Institute (DLI) has expanded its efforts 
to increase linguist throughput and quality, and to increase the Arabic 
and Kurdish language familiarization available to the Army. The 
Emerging Languages Task Force provides instruction in low density 
languages, including Kurdish. New DLI language training detachments and 
distribution of Arabic Survival kits also increased the available 
Arabic language training opportunities.
    While mission requirements are not static and mission changes make 
it unlikely that we will achieve 100 percent support for the forces in 
OIF, the Army is doing all possible to provide maximum linguist 
support.
    Mr. Meehan. What is the plan to address the continuing lack of 
Arabic and Kurdish linguists to serve with U.S. trainers, transition 
teams and partner units four years into the war?
    Mr. Motsek. Multi-National Forces--Iraq (MNFI) is not aware of any 
substantiated analysis, data, or recent inquiries that indicate a 
formidable lack of linguists. The latest information from the 27 May 07 
Linguist Weekly Roll-up indicates that Multi-National Security 
Transition Command--Iraq (MNSTCI) currently has the following linguists 
per the stated requirements:

Arabic Cat 1 Local Nationals: 507 assigned/547 required (93%)
Kurdish Cat 1 Local Nationals: 25 assigned/26 required (96%)
Persian Farsi Local Nationals: 1 assigned/1 required (100%)
Turkish Local Nationals: 1 assigned/1 required (100%)

    The Army addresses the requirement for Arabic and Kurdish linguists 
through Soldiers, where available, and through contracting activities.
    The OIF Theater Linguist Manager manages the linguist assets on the 
ground to provide the greatest linguist support possible to each 
element present. The majority of the linguist requirements in Iraq are 
for Arabic speakers and a small percentage is for Kurdish speakers. 
When Kurdish linguists are requested, the requirement is normally for 
dual-language Arabic-Kurdish speakers.
    The following initiatives below represent Army efforts to fill OIF 
theater linguist requirements:
      a. All available Soldiers with Arabic and Kurdish language skills 
currently support OIF operations in accordance with their occupational 
specialties and unit rotations.
      b. In Feb. 2003, the Army initiated the 09L Translator Aide Pilot 
Program to bring additional Arabic language skills and cultural 
expertise into the Individual Ready Reserve. The recruiting effort 
later expanded to include Kurdish and other languages. In Feb. 2006, 
the Pilot Program transitioned into the Military Occupational Specialty 
09L, Interpreter/Translator. Currently, some OIF theater linguist 
requirements, to include the Military Transition Teams (MiTT) in Iraq, 
are supported by available 09L Soldiers.
      c. The bulk of the Arabic and Kurdish linguist support to the 
MiTTs, U.S. trainers and coalition partner units in Iraq comes from 
Local National contract linguists. MiTTs, U.S. trainers subordinate to 
the Multi-National Security Transition Command--Iraq and partner units 
have a current combined linguist requirement of 1935. The Theater 
Linguist Manager is focused on filling these requirements and has 
maintained fill in these elements beyond the level of many other OIF 
units. In Feb. 2007, the total OIF linguist requirement was raised to 
support an increase of forces. The contractor is increasing local 
recruiting efforts; newspaper advertisements, flyers and monetary 
incentives are being considered to meet the higher requirements. The 
Army continues to provide screening support to the local hiring effort 
and is addressing local recruitment with the contractor to improve the 
overall linguist fill. The Army continues to press the current 
contractor to recruit and retain linguists to achieve 100% of the 
contract linguist requirements in Iraq and Afghanistan.
      d. The Defense Language Institute (DLI) has expanded its efforts 
to increase linguist throughput and quality, and to increase the Arabic 
and Kurdish language familiarization available to the Army. The 
Emerging Languages Task Force provides instruction in low density 
languages, including Kurdish. New DLI language training detachments and 
distribution of Arabic Survival kits also increased the available 
Arabic language training opportunities.
    While mission requirements are not static and mission changes make 
it unlikely that we will achieve 100% support for the forces in OIF, 
the Army is doing all possible to provide maximum linguist support.
    Mr. Meehan. What is the plan to address the continuing lack of 
Arabic and Kurdish linguists to serve with U.S. trainers, transition 
teams and partner units four years into the war?
    Ambassador Patterson. National Security Presidential Directive 36 
(NSPD-36) assigned the responsibility for developing Iraq's security 
forces to CENTCOM. We referred this question to CENTCOM's Civilian 
Police Assistance Training Team, which provided the following response:
    The Coalition Forces have addressed this issue by expanding 
contracts with private companies for providing skilled linguists in 
support of the mission. Linguists and translators from the United 
States and the Coalition as well as local national personnel are 
employed to fulfill this requirement. There are significant challenges 
with the utilization of local national personnel. These individuals 
face major security risks when going to and from work assignments. The 
Coalition will continue to support these vital members of the mission.
    Mr. Meehan. What is the status of the analysis of the Uniform Code 
of Military Justice versus Military Extraterritorial Jurisdiction Act 
proposal for contractors? When will this be completed?
    Colonel Raines. The matter was referred to the Joint Service 
Committee on Military Justice (JSC) in January 2007. The JSC has 
completed its analysis. The results of the JSC review and its 
recommendations regarding an appropriate course of action will soon be 
presented to the General Counsel of the Department of Defense for 
consideration.
    Mr. Meehan. What is the status of the analysis of the Uniform Code 
of Military Justice versus Military Extraterritorial Jurisdiction Act 
proposal for contractors? When will this be completed?
    Mr. Motsek. The matter was referred to the Joint Service Committee 
on Military Justice (JSC) in January 2007. The JSC has completed its 
analysis. The results of the JSC review and its recommendations 
regarding an appropriate course of action will soon be presented to the 
General Counsel of the Department of Defense for consideration.
    Mr. Meehan. Please provide a copy of all interagency agreements (or 
similar documentation), current or historical, between the Department 
of Defense and the Department of State or Department of Justice with 
respect to support for the Iraqi Security Forces training mission, 
including provisions for funding, contract management, and oversight.
    Colonel Raines. [The information referred to is classified and 
retained in the committee files.]
    Mr. Meehan. Please provide a copy of all interagency agreements (or 
similar documentation), current or historical, between the Department 
of Defense and the Department of State or Department of Justice with 
respect to support for the Iraqi Security Forces training mission, 
including provisions for funding, contract management, and oversight.
    Mr. Motsek. The Office of the Assistant Deputy Under Secretary of 
Defense (Program Support) has been unable to discover any interagency 
agreements, or similar documentation, existing between this office, the 
Deputy Under Secretary of Defense (Material Readiness & Logistics), or 
the Under Secretary of Defense (Acquisition, Technology & Logistics) 
and the Departments of State and Justice with respect to support for 
the Iraqi Security Forces training mission.
    Mr. Meehan. Please provide a copy of all interagency agreements (or 
similar documentation), current or historical, between the Department 
of State and the Department of Justice or Department of Defense with 
respect to support for the Iraqi Security Forces training mission, 
including provisions for funding, contract management and oversight.
    Ambassador Patterson. [The information referred to is retained in 
the committee files and can be viewed upon request.]
    Mr. Meehan. Please provide a copy of any after action report, 
lessons learned, or audit documentation prepared with respect to the 
contract for the training of the New Iraqi Army issued to Vinnell 
Corporation on June 25, 2003 (DABK01-03-C-0001).
    Colonel Raines. [The information referred to is classified and 
retained in the committee files.]
    Mr. Meehan. Please provide a copy of the agreement(s) with the 
Hashemite Kingdom of Jordan for ownership and operation of the 
Jordanian International Police Training Center.
    Ambassador Patterson. [The information referred to is retained in 
the committee files and can be viewed upon request.]
    Mr. Meehan. Describe the current status of all Department of State 
contracts that provide support for the Iraqi Security Forces, and 
provide appropriate documentation, or, at a minimum, a detailed 
description of the scope of work and objectives, who the contract is 
with, the type of contract, contract period, cost ceiling, costs to 
date, approximate number of contract personnel in Iraq, and any plans 
for recompetition or expiration of the contract.
    Ambassador Patterson. There are two base contracts that provide 
support for the Iraqi Security Forces (ISF). CPI personnel are 
presently operating in Amman, Jordan at the Jordan International Police 
Training Center (JIPTC). DynCorp International is the only INL prime 
contractor currently performing in Iraq. The approximate number of 
DynCorp contractor personnel in Iraq is 1,000 (an additional 123 Border 
Enforcement Advisors provided under a separate task order with DynCorp 
are in the process of deploying to Iraq).


----------------------------------------------------------------------------------------------------------------
                                                                                           Original     Present
     Contract          Contractor           Contract Type        Status      Contract        Cost        Cost
                                                                              Period       Ceiling      Ceiling
----------------------------------------------------------------------------------------------------------------
SLMAQM040030       DynCorp             Combination Firm Fixed    Active   2/18/04 thru   $2B          $25 B
                   International, LLC  Price Indefinite                    2/17/09
                                        Quantity
                                       Indefinite Quality,
                                        Cost-
                                       Plus-Fixed-Fee
----------------------------------------------------------------------------------------------------------------
CPI contract       Civilian Police     Combination Firm Fixed    Active   2/18/04 thru   $2B          $20.4B
SLMAQM040032       International, LLC  Price Indefinite                    2/17/09
                                        Quantity
                                       Indefinite Quality,
                                        Cost-
                                       Plus-Fixed-Fee
----------------------------------------------------------------------------------------------------------------

    A detailed description of the contract scope of work and 
objectives, etc. is attached in Appendix C. Sections C-H of the base 
contracts are identical for both the DynCorp and CPI contracts. The 
contracts shown above are for services/supplies provided on a global 
scale. ISF-specific support services, supplies and funding are provided 
on a task order basis as shown below:

      DynCorp--SAQMPD04F0338--IRAQ
      DynCorp--SAQMPD05F1436--IRAQ (Criminal, Justice, Food)
      DynCorp--SAQMPD05F2059--Iraq Ratification
      DynCorp--SAQMPD04F0765--JIPTC Buildout
      DynCorp--SAQMPD04FA528--JIPTC O&M
      DynCorp--SAQMPD07FA515--Border Enforcement Advisors
      CPI--SAQMPD04FA574/SAQMPD06FA574--JIPTC O&M

    INL is currently in the early acquisition planning stages for 
recompetition of the base contracts with an anticipated award in the 
latter part of FY 2008. Further, INL is currently involved in competing 
the $1 billion Iraq task order currently awarded to DynCorp and expects 
to make an award of a new task order this summer. The task order will 
include personnel (e.g., police advisors requested by CPATT) as well as 
personnel support such as housing, meals, security, communications, and 
medical services. INL is intent on providing every opportunity for fair 
consideration between the three prime contractors for the Iraq task 
order.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. AKIN
    Mr. Akin. How many people would Department of Justice have in Iraq? 
How many do you have at a given time? Are we talking dozens, hundreds, 
thousands? Are you counting a lot on contractors to help do what has to 
be done over there?
    Mr. Swartz. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY DR. SNYDER
    Dr. Snyder. Why are we still stymied with regard to language skills 
in State Department personnel? Why has there not been a successful 
effort so that there would have been the kind of focus on--I assume 
that we think language skills are important to do these jobs--why are 
we still behind, this many years later from when the war started and 
when the war in Afghanistan started?
    Ambassador Patterson. The Department's effort has in fact been very 
successful, but historical funding and staffing shortfalls, coupled 
with the complexity of learning a language like Arabic, present no 
rapid solutions. The State Department focuses recruiting efforts on 
Arabic and other critical needs language speakers, gives bonus points 
in the Foreign Service hiring process to candidates with demonstrated 
Arabic proficiency, and has dramatically expanded our capacity to train 
students in Arabic.
    For example, the Department's recruiters specifically target 
schools and organizations with Arabic language programs and other 
critical needs languages to increase our recruitment. Since 2004, the 
Department has given bonus points in the hiring process to Foreign 
Service candidates with demonstrated proficiency in languages such as 
Arabic, Urdu, and Farsi, among others. These bonus points materially 
increase the chance of receiving a job offer for candidates who have 
passed the written examination and oral assessment. In addition, our 
Diplomats in Residence and recruiters hold individual counseling 
sessions with speakers of Arabic and other critical needs languages.
    The Department has also increased its capacity to train in Arabic 
language. State enrollments in Arabic language training at our Foreign 
Service Institute (FSI) have nearly quadrupled since 2001, with roughly 
450 students enrolled in various types of Arabic courses in FY 2006. We 
are working to keep the trend moving in an upward direction, 
predominantly by utilizing distance learning and similar delivery 
methods as alternatives to traditional classroom-based training. The 
Foreign Service Institute is also expanding on-line and Early Morning 
Arabic programs, as well as conducting greater numbers of domestic and 
overseas immersion training events.


----------------------------------------------------------------------------------------------------------------
                  Arabic Training Enrollments *                    FY01    FY02    FY03    FY04    FY05    FY06
----------------------------------------------------------------------------------------------------------------
Employees                                                           109     156     223     323     406     454
----------------------------------------------------------------------------------------------------------------
Eligible Family Members                                              12      17      21      18      20      14
----------------------------------------------------------------------------------------------------------------
* Includes enrollments in all types of Arabic training (full-time FSI courses, Tunis field training, online
  distance learning courses, early morning language courses, etc.)


    In addition, we have increased the number of Arabic language-
designated positions and the required level of proficiency for already 
language-designated positions, and student enrollment levels will 
reflect these additional positions. The Foreign Service Institute is 
also expanding on-line and Early Morning Arabic programs, as well as 
greater numbers of domestic and overseas immersion training events in 
Arabic-speaking areas.
    On average it takes two years of full-time training in Arabic 
language to attain a level of General Professional Proficiency in 
speaking and reading, and that creates staffing challenges for the 
Department. Employees assigned to long-term language training are not 
available for other assignments. Staffing deficits created by hiring 
freezes in the 1990s and increased language and other training 
requirements in the post-9/11 environment have left the Department with 
approximately 88 available staff for every 100 positions.
    Absent a ``training float,'' the Department simply does not have 
enough personnel to fill all of its critical overseas and domestic 
positions and simultaneously allow for large numbers of long-term 
language students. We have prioritized staffing, redefined assignments 
rules, and drawn on Civil Service employees to help fill critical 
overseas positions, but more resources are needed both to sustain the 
Department's efforts to develop and maintain a highly-proficient cadre 
of Arabic speakers and to tend to the general business of diplomacy 
worldwide.
    The FY 2008 State Department budget request includes an increase of 
$20,821,000 to enhance the Department's ability to provide foreign 
language and other developmental training, including 48 new Foreign 
Service positions to improve the language proficiency of current and 
incoming Foreign Service employees. The requested increase of $20.821M 
would also be used to fund special programs such as Arab media 
workshops and internships in the field and additional overseas 
immersion training opportunities.
                                 ______
                                 
             QUESTIONS SUBMITTED BY MS. DAVIS OF CALIFORNIA
    Ms. Davis. Just a few other questions, in terms of contracts. For 
example, DynCorp, you mentioned that people need five years of 
experience in police work in order to train Iraqi personnel. Do we 
think that that is enough? And are they bringing the skill sets that 
are really necessary to do that job?
    Ambassador Patterson. Most have significantly more experience. The 
roughly 690 International Police Liaison Officers (IPLOs) currently 
serving in Iraq have an average of 21.6 years of law enforcement 
experience. The current low is nine years and the high is 38 years.
    We have made significant enhancements to our pre-deployment 
orientation and screening processes to ensure the personnel we deploy 
are prepared to meet mission objectives. The screening program 
includes: psychological tests, physical agility tests, and joint 
interviews with DynCorp and Department of State employees. IPLO 
candidates that pass this screening must undergo two weeks of INL-
sponsored training before being deployed. Training includes: weapons 
qualification, mission briefs, familiarization with the history and 
culture of the region, first aid, convoy operations, team building, GPS 
and map reading, and hostage and survival training. This effectively 
screens for unqualified or unmotivated individuals, and roughly 23 
percent of candidate IPLOs fail orientation training.
    We are confident that the IPLOs supplied by the Department of 
State's contract with DynCorp International have sufficient and 
relevant law enforcement experience in order to train and mentor Iraqi 
civilian security forces. We are in constant communication with CPATT 
to ensure that the personnel provided by our contractor meet the 
mission needs and are performing effectively as part of the MNF-I 
mission in the field.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. ANDREWS
    Mr. Andrews. When a recruit walked through the front door of the 
JIPTC a year ago, did we know, in fact, who that person was, or did we 
have to rely upon who they said they were?
    Mr. Motsek. All of the Iraqi Automated Fingerprint Identification 
System (AFIS) and U.S. Biometric Automated Toolset (BAT) files have 
been routinely sent to the Department of Defense's Biometric Fusion 
Center (BFC) to be checked against previously entered BAT records 
(civil and detainee records), pre-war Iraqi criminal records, 1991 Gulf 
War prisoner fingerprint records, and latent fingerprints harvested 
from various forensic efforts in Iraq. There is also an arrangement 
with the Federal Bureau of Investigation to compare these records with 
FBI records and other associated biometric records collected by the 
U.S. Government.
    If this crosscheck identifies derogatory or negative information on 
any student who is attending, or has graduated from, the Jordan 
International Police Training Center (JIPTC) or other Civilian Police 
Assistance Training Team (CPATT)-certified police academy inside Iraq, 
those files are turned over to the National Ground Intelligence Center 
(NGIC) and Iraq's Ministry of Interior Internal Affairs section. The 
comparison of all biometric records (not exclusively police cadets or 
graduates) up to June 2007 had resulted in more than 8,500 matches to 
criminal records generated from approximately 666,500 biometric 
enrollments (includes persons other than police). As of June 2007, 
there were 29,691 JIPTC graduates enrolled in the system.
    Mr. Andrews. Is the Department of Defense tracking through CPATT 
these trainees?
    Mr. Motsek. The assignment and tracking of police personnel after 
academy graduation is conducted by Iraq's Ministry of Interior (MOI). 
The Civilian Police Assistance Training Team (CPATT) monitors this 
effort through its embedded ministry transition team and provides 
feedback to Multi-National Security Transition Command--Iraq (MNSTC-I) 
on the status of these trainees.
    Mr. Andrews. Who in Washington is responsible for CPATT?
    Mr. Motsek. The Civilian Police Assistance Training Team (CPATT) is 
a subordinate entity to the Multi-National Security Transition 
Command--Iraq (MNSTC-I) which is a subordinate of Multi-national Force 
Iraq (MNF-I). USCENTCOM has oversight of MNF-I. Within the Department 
of Defense (DOD), the Joint Staff's J-3 and J-5 are responsible for 
monitoring activities within MNF-I, and therefore, CPATT.
    Mr. Andrews. Are we paying any of the overhead in those new 
facilities or are the Iraqis paying for all of it?
    Mr. Motsek. The Multi-National Security Transition Command--Iraq 
(MNSTC-I) asked for, and received, $332M in FY07 for Iraqi Ministry of 
Interior infrastructure. That funding is paying for the construction of 
102 police station garages, 18 medium maintenance facilities, 5 
regional base facilities, 4 medium repair facilities, 18 police 
stations in Baghdad, border fort refurbishment, roads to border forts, 
and other smaller projects. In 2008, the Government of Iraq (GoI) will 
assume total responsibility for infrastructure.
    Mr. Andrews. What type of tracking for recruits was in place at the 
opening of the Jordan International Police Training Center (JIPTC)?
    Colonel Raines. JIPTC opened on 29 November 2003 with a class of 
485 Iraqi Police Service (IPS) recruits. Basic biographical information 
for all recruits was collected.
    Mr. Andrews. What type of tracking for recruits was in place at the 
opening of the Jordan International Police Training Center (JIPTC)?
    Mr. Motsek. JIPTC opened on November 29, 2003 with a class of 485 
Iraqi Police Service (IPS) recruits. Basic biographical information for 
all recruits was collected.
    Mr. Andrews. What kind of tracking for recruits was in place at the 
opening of the Jordan International Police Training Center (JIPTC)?
    Ambassador Patterson. Responsibility for the recruitment, selection 
and vetting of Iraqi personnel receiving training at JIPTC was the 
responsibility of the Coalition Provisional Authority and is now 
overseen by the U.S. Central Command's Civilian Police Assistance 
Training Team (CPATT).
    The Coalition Provisional Authority collected biographical 
information on every recruit beginning with the first JIPTC class in 
November 2003. This included home of record, family members, father's 
name, place and date of birth, previous employment, education, and 
medical history. Staff at JIPTC would then re-interview recruits and 
take identification pictures. A system to collect biometric data was 
established at JIPTC in December 2005.
    Information provided by recruits was extremely difficult to verify. 
No reliable database existed in Iraq to check names against for 
possible criminal, militia, or terrorist ties. Because existing records 
had been maintained by a despotic regime, it was not always appropriate 
to use them as a basis for excluding a candidate from police training. 
Moreover, the physical task of verifying information by visiting a 
candidate's hometown or interviewing neighbors and acquaintances, which 
had worked successfully in other post-conflict missions, was 
impractical given the large number of recruits and the security 
situation. This method of verification could also result in threats or 
violence against police recruits and their families.
    Mr. Andrews. What kind of tracking for graduates was in place at 
the opening of the JIPTC?
    Colonel Raines. Basic biographical information for all graduates 
was passed to the Ministry of Interior.
    Mr. Andrews. What kind of tracking for graduates was in place at 
the opening of the JIPTC?
    Mr. Motsek. Basic biographical information for all graduates was 
passed to the Ministry of Interior.
    Mr. Andrews. What kind of tracking for graduates was in place at 
the opening of the Jordan International Police Training Center (JIPTC)?
    Ambassador Patterson. Graduates from JIPTC were transported back to 
Iraq, at which point they were to report to a local police station for 
service as an officer in the Iraqi Police Service. A number of factors 
impeded the Coalition Provisional Authority's (CPA) efforts to track 
graduates of police training at JIPTC and other academies within Iraq, 
including: the decentralized nature of the police forces and limited 
Iraqi Ministry of Interior (MOI) role and capacity; the lack of an 
international presence in many of the police stations to which 
graduates were assigned, which limited CPA's ability to verify 
graduates' whereabouts; and the absence of electronic database systems 
(and often even the power to operate electronic systems) at both the 
federal and provincial/district levels. Other factors also complicated 
the effort. Police station commanders, in many cases, were not given 
notice from MOI that new officers would be assigned to their stations 
and commanders often did not have the resources to pay new officers. 
There was also resistance on the part of some Iraqi police commanders 
to accept JIPTC graduates, as they either did not accept the training 
or preferred to appoint their own officers. Finally, some Iraqi 
officers decided not to serve as police officers and others left due to 
insurgent intimidation, threats, and attacks against new police 
officers.
    Mr. Andrews. What kind of biometric tracking is now in place for 
recruits and graduates at the JIPTC?
    Colonel Raines. Iraqi Police Service (IPS) recruits are entered 
into biometric databases. Each recruit provides detailed personal 
information, ten fingerprints, a front and side view photograph, a 
retinal scan, and a voice print. The electronic files are sent to the 
Iraqi Automated Fingerprint Identification System (AFIS) compound at 
Adnon Palace where all the files are checked not only through the Iraqi 
AFIS system (internal to Iraq), but also through the Biometric Fusion 
Center (BFC) in West Virginia. There, these files are cross-checked 
with two U.S. force protection systems used by the Coalition in Iraq: 
the Biometric Identification System for Access (BISA) and the Biometric 
Automated Toolset (BAT). Any recruit record identified with a ``hit'' 
on the AFIS system (e.g., criminal record or double dipping in two 
agencies), is sent to Ministry of Interior Internal Review for 
investigation.
    The Iraqi AFIS does not track where IPS officers are stationed or 
what training they have received. Currently, this is a manual paper/
ledger process. However, a human resources system, the Iraqi Police 
Data Management System (IPDMS), is currently being developed by the 
Ministry of Interior. Iraqi AFIS information will populate IPDMS, but 
IPDMS will not contain biometric data.
    Mr. Andrews. What kind of biometric tracking is now in place for 
recruits and graduates at the JIPTC?
    Mr. Motsek. Iraqi Police Service (IPS) recruits are entered into 
biometric databases. Each recruit provides detailed personal 
information, ten fingerprints, a front and side view photograph, a 
retinal scan, and a voice print. The electronic files are sent to the 
Iraqi Automated Fingerprint Identification System (AFIS) compound at 
Adnon Palace where all the files are checked not only through the Iraqi 
AFIS system (internal to Iraq), but also through the Biometric Fusion 
Center (BFC) in West Virginia. There, these files are cross-checked 
with two U.S. force protection systems used by the Coalition in Iraq: 
the Biometric Identification System for Access (BISA) and the Biometric 
Automated Toolset (BAT). Any recruit record identified with a ``hit'' 
on the AFIS system (e.g., criminal record or double dipping in two 
agencies), is sent to Ministry of Interior Internal Review for 
investigation.
    The Iraqi AFIS does not track where IPS officers are stationed or 
what training they have received. Currently, this is a manual paper/
ledger process. However, a human resources system, the Iraqi Police 
Data Management System (IPDMS), is currently being developed by the 
Ministry of Interior. Iraqi AFIS information will populate IPDMS, but 
IPDMS will not contain biometric data.
    Mr. Andrews. What kind of tracking for graduates is now in place 
for recruits and graduates at the JIPTC?
    Ambassador Patterson. National Security Presidential Directive 36 
(NSPD-36) assigned the responsibility for developing Iraq's security 
forces to CENTCOM. We referred this question to CENTCOM's Civilian 
Police Assistance Training Team (CPATT), which provided the following 
response:
    All students at JIPTC and other CPATT-certified police training 
academies inside Iraq are enrolled into the Iraqi Automated Fingerprint 
Identification System (AFIS). All AFIS files are sent back to the 
Department of Defense's Biometric Fusion Center (BFC) to be checked 
against previously entered Iraqi civil and detainee records, pre-war 
Iraqi criminal records, 1991 Gulf War fingerprint records, and latent 
fingerprints harvested form various forensic efforts in Iraq. There is 
also a relationship with the Federal Bureau of Investigation and other 
associated biometric records collected by the U.S. Government.
    The AFIS data collection program is maintained to help provide a 
positive identification for all Iraqi Security Force personnel, though 
it is not a human resources system that tracks personnel throughout 
their career in the Iraqi police, army or the prison system.
    The assignment and tracking of police personnel after academy 
graduation is conducted by Iraq's Ministry of Interior (MOI). However, 
the current paper-based records system used by the MOI, coupled with 
the decentralized nature of the Iraqi Police Service and the ongoing 
insurgency, makes tracking personnel exceedingly difficult. In the near 
future, an automated system currently being installed in the MOI and 
its subordinate units, with U.S. Government assistance, will make the 
MOI's personnel and pay systems more transparent.
    Graduates of U.S.-sponsored academy training are assigned to the 
Provincial Police Directorate. The Provincial headquarters will then 
make the district and station assignments. CPATT tracks the number of 
graduates and the assignments to the provinces but does not have a 
presence in all stations to directly verify that the graduates report 
for duty. At this time, we can not guarantee that an individual reports 
to duty at a specific police station; however, it is the contention of 
the MOI that the vast majority of academy graduates report to their 
assigned duty station.
    Mr. Andrews. How long has this tracking system been in place?
    Colonel Raines. Biometric screening for Iraqi Police Service 
recruits began in March 2005.
    Mr. Andrews. How long has this tracking system been in place?
    Mr. Motsek. Biometric screening for Iraqi Police Service recruits 
began in March 2005.
    Mr. Andrews. How long has this tracking system been in place?
    Ambassador Patterson. National Security Presidential Directive 36 
(NSPD-36) assigned the responsibility for developing Iraq's security 
forces to CENTCOM. We referred this question to CENTCOM's Civilian 
Police Assistance Training Team (CPATT), which provided the following 
response:
    There is no U.S. Government system in place to track graduates of 
the Jordan International Police Training Center or graduates of other 
CPATT supported police training academies in Iraq. However, CPATT is 
assisting Iraq's Ministry of Interior in creating an automated record 
system that will make the MOI's personnel and pay systems more 
transparent. The Iraqi Automated Fingerprint Identification System, 
which collects biometric data on individuals receiving training, has 
been in theater since November 2005.
    Mr. Andrews. Are people in U.S. military prisons and stockades in 
Iraq that are suspected of or have been charged with killing or 
attempting to kill Americans identified using biometrics?
    Colonel Raines. Yes, if the detainee is a Coalition detainee, then 
most likely the detainee was entered into Biometric Automated Toolset 
and the detainee's status was checked through the Biometric Fusion 
Center (BFC) in West Virginia.
    If the individual was detained by Iraqi forces, some have been 
entered into the Iraqi Automated Fingerprint Identification System 
(AFIS) and checked with Iraqi AFIS and the BFC. Iraqi law states that 
Iraqis are only entered into Iraqi AFIS upon sentencing by an Iraqi 
judge.
    Mr. Andrews. Are people in U.S. military prisons and stockades in 
Iraq that are suspected of or have been charged with killing or 
attempting to kill Americans identified using biometrics?
    Mr. Motsek. Yes, if the detainee is a Coalition detainee, then most 
likely the detainee was entered into Biometric Automated Toolset and 
the detainee's status was checked through the Biometric Fusion Center 
(BFC) in West Virginia.
    If the individual was detained by Iraqi forces, some have been 
entered into the Iraqi Automated Fingerprint Identification System 
(AFIS) and checked with Iraqi AFIS and the BFC. Iraqi law states that 
Iraqis are only entered into Iraqi AFIS upon sentencing by an Iraqi 
judge.
    Mr. Andrews. Are people in U.S. military prisons and stockade in 
Iraq that are suspected of or have been charged with killing or 
attempting to kill American identified using biometrics?
    Ambassador Patterson. National Security Presidential Directive 36 
(NSPD-36) assigned the responsibility for developing Iraq's security 
forces to CENTCOM. We referred this question to CENTCOM's Civilian 
Police Assistance Training Team, which provided the following response:
    All U.S. Military prisons in Iraq use the Biometric Automated 
Toolset (BAT), an identity management system used to record data and 
classified attachments linked to biometrics of detainees and non-U.S. 
persons of interest. The BAT system was originally designed as a 
dossier system for U.S. Military Intelligence personnel. It is composed 
of biometric records used to positively identify individuals 
(unclassified information), and an application for entering relevant 
intelligence information concerning the individual (classified 
information). These two portions can be separated and routed to the 
appropriate organizations for processing. BAT is interconnected with 
other CENTCOM databases and databases in the continental United States. 
BAT data travels back to the Biometric Fusion Center (West Virginia) to 
be checked against previously entered BAT records (civil and detainee 
records), pre-war Iraqi criminal records, 1991 Gulf War fingerprint 
records, and latent fingerprints harvested form various forensic 
efforts in Iraq. There is also a relationship with the Federal Bureau 
of Investigation and other associated biometric records collected by 
the U.S. Government.
    Mr. Andrews. Has anyone ever run a cross check between these 
prisoners and graduates of the JIPTC? If so, who did so and what were 
the results?
    Colonel Raines. Yes, this information is cross-checked. JIPTC 
graduates are entered in the Iraqi Automated Fingerprint Identification 
System (AFIS) and the Biometric Fusion Center (BFC) in West Virginia.
    Those detainees held by Coalition forces are checked using the BFC. 
Some Iraqi detainees have been entered into AFIS and checked with the 
BFC.
    Unfortunately, results of these cross-checks are not available at 
this time.
    Mr. Andrews. Has anyone ever run a cross check between these 
prisoners and graduates of the JIPTC? If so, who did so and what were 
the results?
    Mr. Motsek. Yes, this information is cross-checked. JIPTC graduates 
are entered in the Iraqi Automated Fingerprint Identification System 
(AFIS) and the Biometric Fusion Center (BFC) in West Virginia.
    Those detainees held by Coalition forces are checked using the BFC. 
Some Iraqi detainees have been entered into AFIS and checked with the 
BFC.
    Unfortunately, results of these cross-checks are not available at 
this time.
    Mr. Andrews. Has anyone ever run a cross check between these 
prisoners and graduates of the JIPTC? If so, who did so and what were 
the results?
    Ambassador Patterson. National Security Presidential Directive 36 
(NSPD-36) assigned the responsibility for developing Iraq's security 
forces to CENTCOM. We referred this question to CENTCOM's Civilian 
Police Assistance Training Team (CPATT), which provided the following 
response:
    All of the Iraqi Automated Fingerprint Identification System (AFIS) 
files containing information on Iraqi police receiving U.S.-sponsored 
training and U.S. Biometric Automated Toolset (BAT) files containing 
information on detainees are sent back to the Department of Defense's 
Biometric Fusion Center (BFC) to be checked against previously entered 
BAT records (civil and detainee records), pre-war Iraqi criminal 
records, 1991 Gulf War fingerprint records, and latent fingerprints 
harvested form various forensic efforts in Iraq. There is also a 
relationship with the Federal Bureau of Investigation and other 
associated biometric records collected by the U.S. Government.
    If this crosscheck identifies derogatory information on any 
students at, or graduate of, the Jordan International Police Training 
Center (JIPTC) or other CPATT-certified police academy inside Iraq, 
those files are turned over to the National Ground Intelligence Center 
(NGIC) and Iraq's Ministry of Interior Internal Affairs section. The 
comparison of all biometric records (not exclusively police cadets or 
graduates) to date has resulted in over 8,500 matches to criminal 
records generated from approximately 666,500 biometric enrollments 
(includes persons other than police). There are 29,691 JIPTC graduates 
enrolled in the system.
    Mr. Andrews. Here is the specific question I am asking. When a 
recruit walked through the front door of the JIPTC a year ago, did we 
know, in fact who that person was, or did we have to rely upon who they 
said they were?
    Ambassador Patterson. Though we did not solely rely on the 
candidates own representations, we did not know with 100 percent 
certainty if an Iraqi recruit receiving training at the Jordan 
International Police Training Center (JIPTC) or at any other facility 
at which Iraqi police are being trained within Iraq was who they 
claimed to be. JIPTC and the Civilian Police Assistance Training Team 
(CPATT) in Baghdad collect biometric information on individuals 
receiving training and cross-reference it with both Iraqi criminal 
databases and Coalition databases to check for derogatory information. 
However, the Iraqi criminal databases were largely compiled during 
Saddam Hussein's regime and so it was not always appropriate to use 
them as a basis for excluding a candidate from police training. 
Moreover, Coalition databases had to be populated with biometric 
information on Iraqis who attended U.S.-sponsored training, were 
detained on the battlefield, or were imprisoned by the Government of 
Iraq before they became effective tools for vetting candidates. The 
system to collect biometric information on Iraqi police officers 
receiving U.S.-sponsored training both at JIPTC and in Iraq was 
established in December of 2005. This information is collected, in 
almost every case, before candidates arrive at JIPTC. Before December 
2005, biographic information was collected and stored on all 
individuals receiving training at JIPTC.
    Mr. Andrews. Let me ask you a specific question. If, in March of 
2004, a suspected al Qaeda fighter is arrested and detained in Iraq, 
and he or she is then biometrically identified when they are held in 
Baghdad, and then are released for whatever reason, and then they use a 
different name and enroll in the JIPTC, would we know that the person 
who enrolled in JIPTC was that suspected al Qaeda fighter?
    Ambassador Patterson. Since December of 2005, CENTCOM's Civilian 
Police Assistance Training Team (CPATT) has collected biometric 
information for every individual receiving training at the Jordan 
International Police Training Center (JIPTC) and other CPATT-certified 
police training facilities in Iraq, and checked it against both Iraqi 
criminal databases and Coalition databases. If the suspected al Qaeda 
fighter's biometric data was entered into Coalition databases, as is 
standard practice with individuals detained by Coalition forces, we 
would be able to identify that individual if he or she attempted to 
receive training at JIPTC or a CPATT-certified training facility in 
Iraq.
    Mr. Andrews. So you think it is $500 million?
    Ambassador Patterson. We have, with Department of State funds and 
funds provided by the Department of Defense, spent $434,330,060 on the 
Jordan International Police Training Center (JIPTC) between FY 2004 and 
FY 2007.
    Mr. Andrews. So that is roughly $10,000 per recruit, right?
    Ambassador Patterson. From FY 2004 to FY 2007, the per-recruit cost 
of training at JIPTC was $7,991. This figure was derived by dividing 
the total cost of constructing and operating JIPTC ($434,330,060) by 
the number of individuals trained (54,351).
    The total cost of JIPTC includes construction; operations and 
maintenance; security; international police trainers; and life support 
such as meals, laundry service, etc. However, it does not include the 
salaries of Iraqi police personnel receiving training, which are paid 
by Iraq's Ministry of Interior, or transportation for Iraqi personnel 
between Iraq and Jordan, which is provided by the Department of 
Defense.
    JIPTC is currently in the process of training an additional 2,500 
Iraqi Corrections Service officers at a cost of approximately $21.07 
million, making the projected per-recruit cost of training $8,010.
    Mr. Andrews. So you know how--what did we spend to recruit and 
train police personnel in the rest of the world? Is it anywhere near 
$50,000 a year on an annualized basis?
    Ambassador Patterson. Training at the Jordan International Police 
Training Center (JIPTC) has been more costly than during other post-
conflict police development missions due to a variety of factors. The 
cost of building an entirely new facility on an expedited basis to meet 
an urgent requirement is chief among them. In Afghanistan, the per-
recruit cost of training is approximately $3,215 ($402.6 million total 
between FY 2003 and FY 2006 divided by the roughly 125,254 
individuals); however, this is not a perfect comparison. Training in 
Afghanistan is conducted at Regional Training Centers which are 
constructed and operated by the U.S. Government and Coalition partners, 
but the Centers vary in size and security needs, mitigating the cost. 
The courses also vary in length with some being as short as two weeks, 
allowing for more candidates to have been trained.
    Mr. Andrews. It costs more for utilities in Jordan than it does in 
Haiti?
    Ambassador Patterson. At the Jordan International Police Training 
Center, it costs roughly $3.12 million per year for utilities and 
another $780,000 for fuel. I unfortunately do not have any comparable 
data for Haiti, as my Bureau does not incur similar expenses there.
    Mr. Andrews. I must say, coming back to this point of effective 
stewardship, what we found exasperating on this trip was that the 
academy appears to be doing a very good job of training people how to 
detect an IED and how to prevent it from exploding and killing people, 
how to conduct a house-to-house search, how to identify ways that we 
might break the back of the resistance. Common sense tells me that some 
percentage of the 54,000 people who went through this, who we don't 
know anything about, are, in fact, members of that resistance or 
members of those militia or members of al Qaeda who are learning the 
very techniques we are using to defend our people. I think this is 
outrageous. And I am interested in hearing from you, why don't we have 
tracking device to find out where these 54,000 people are?
    Ambassador Patterson. The Administration shares your concern and is 
working diligently to obtain biometric information on both academy 
graduates and suspect individuals detained in Iraq to ensure that 
members of militia or terrorist groups do not receive U.S.-sponsored 
training. In addition, CENTCOM's Civilian Police Assistance Training 
Team (CPATT) and INL are working to build the internal affairs 
capacities of Iraq's Ministry of Interior (MOI) and Police Service. 
This will help to identify and remove corrupt or compromised 
individuals from the ranks. CPATT is also assisting the MOI in creating 
an automated record system that will make the MOI's personnel and pay 
systems more transparent. However, tracking graduates is exceedingly 
difficult and is complicated by the current paper-based records system 
used by the MOI, the decentralized nature of the Iraqi Police Service, 
and the ongoing insurgency.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY DR. GINGREY
    Dr. Gingrey. What steps is DOD taking to go back and ensure it has 
received appropriate value from the contractors in Iraq, for projects 
such as the highly problematic Baghdad college? Who had that contract?
    Mr. Motsek. The Coalition Provisional Authority awarded a contract 
to Parsons Delaware to construct and renovate the Baghdad Police 
College in March 2004. Upon the dissolution of the Coalition 
Provisional Authority, the Joint Contracting Command Iraq/Afghanistan 
became the contracting agent. The U.S. Army Corps of Engineers, Gulf 
Region Division, and the Project and Contracting Office have been 
responsible for the efficient and effective execution and 
administration of design-build contracts for the reconstruction of 
Iraq. The Special Inspector General for Iraq Reconstruction (SIGIR) 
visited the Baghdad Police College on six separate occasions: August 
22, 2006, September 4, 2006, September 21, 2006, November 10, 2006, 
December 1, 2006, and December 8, 2006. The Baghdad Police College 
construction and renovation project results were found not to be 
consistent with the original contract and task order objectives. The 
majority of the work observed did not meet the standards of the 
contract and task orders. On May 31, 2006, the contract was terminated. 
Details concerning this construction project can be found in SIGR PA-
06-078.2 and SIGR PA-06-079.2 reports dated January 29, 2007. Although 
work was terminated in May 2006, the U.S. Army Corps of Engineers is 
still engaged with the contractor (Parsons) for the final close-out of 
this contract.

                                  <all>

</pre></body></html>
